No.

In the Supreme Court of the United States
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
COOK COUNTY, ILLINOIS, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

Under the Immigration and Nationality Act, 8 U.S.C.
1101 et seq., an alien is “inadmissible” if, “in the opinion
of the [Secretary of Homeland Security] at the time of
application for admission or adjustment of status, [the
alien] is likely at any time to become a public charge.”
8 U.S.C. 1182(a)(4)(A). Following notice-and-comment
rulemaking, the United States Department of Homeland Security (DHS) promulgated a final rule interpreting the statutory term “public charge” and establishing
a framework by which DHS personnel are to assess
whether an alien is likely to become a public charge.
The questions presented are:
1. Whether entities that are not subject to the
public-charge ground of inadmissibility contained in
8 U.S.C. 1182(a)(4)(A), and which seek to expand benefits usage by aliens who are potentially subject to that
provision, are proper parties to challenge the final rule.
2. Whether the final rule is likely contrary to law or
arbitrary and capricious.

(I)

PARTIES TO THE PROCEEDING

Petitioners (defendants-appellants below) are Chad
F. Wolf, in his official capacity as Acting Secretary of
Homeland Security; the United States Department of
Homeland Security; the United States Citizenship and
Immigration Services, an agency within the United
States Department of Homeland Security; and Kenneth
T. Cuccinelli II, in his official capacity as Senior Official
Performing the Duties of the Director of the United
States Citizenship and Immigration Services. *
Respondents (plaintiffs-appellees below) are Cook
County, Illinois; and Illinois Coalition for Immigrant
and Refugee Rights, Inc.

The complaint named Kevin K. McAleenan, then the Acting Secretary of Homeland Security, as a defendant in his official capacity.
Chad F. Wolf has since assumed the role of Acting Secretary, and
has thus been automatically substituted as a party in place of former
Acting Secretary McAleenan. See Fed. R. App. P. 43(c)(2); Fed. R.
Civ. P. 25(d). Similarly, the complaint named Kenneth T. Cuccinelli
II in his role as Acting Director of the United States Citizenship and
Immigration Services. Mr. Cuccinelli is now serving as Senior Official Performing the Duties of the Director.
*

(II)

RELATED PROCEEDINGS

United States District Court (N.D. Ill.):
Cook County v. McAleenan, No. 19-cv-6334 (Oct. 14,
2019) (granting preliminary injunction)
United States Court of Appeals (7th Cir.):
Cook County v. Wolf, No. 19-3169 (June 10, 2020),
reh’g denied (Aug. 12, 2020) (affirming preliminary injunction)
Cook County v. Wolf, No. 19-3169 (Feb. 10, 2020)
(denying renewed motion for stay pending appeal)
Cook County v. Wolf, No. 19-3169 (Dec. 23, 2019)
(denying motion for stay pending appeal)
Supreme Court of the United States:
Wolf v. Cook County, No. 19A905 (Apr. 24, 2020)
(granting stay pending appeal)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. The public-charge inadmissibility rule ................... 3
B. Procedural history .................................................... 6
Reasons for granting the petition ............................................. 11
I. The court of appeals erred in holding that
respondents are likely to succeed in their
challenge to the rule ...................................................... 12
II. The questions presented warrant this Court’s
review .............................................................................. 23
Conclusion ................................................................................... 27
Appendix A — Court of appeals opinion (June 10, 2020) ..... 1a
Appendix B — District court memorandum opinion and
order (Oct. 14, 2019) .................................. 86a
Appendix C — Court of appeals order (Aug. 12, 2020)..... 124a
Appendix D — Statutory provisions ................................... 126a
TABLE OF AUTHORITIES

Cases:
Association of Data Processing Service
Organizations, Inc. v. Camp, 397 U.S. 150 (1970) .......... 13
CASA de Maryland, Inc. v. Trump, 971 F.3d 220
(4th Cir. 2020) ............................................................. passim
City & County of San Francisco v. United States
Citizenship & Immigration Services, 944 F.3d 773
(9th Cir. 2019) ...................................................... 2, 12, 17, 24
Clarke v. Securities Industry Ass’n, 479 U.S. 388
(1987) .................................................................................... 13
Department of Homeland Security v. New York,
140 S. Ct. 599 (2020) ............................................................. 2
(V)

VI
Cases—Continued:

Page

Fiallo v. Bell, 430 U.S. 787 (1977) ........................................ 25
Gegiow v. Uhl, 239 U.S. 3 (1915) ............................................ 7
Harutunian, In re, 14 I. & N. Dec. 583 (B.I.A. 1974) ....... 23
Make the Road New York v. Pompeo,
No. 19-cv-11633, 2020 WL 4350731
(S.D.N.Y. July 29, 2020) ....................................................... 3
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209 (2012) .................... 12, 13
Motor Vehicle Manufacturers’ Association of United
States, Inc. v. State Farm Mutual Automobile
Insurance Co., 463 U.S. 29 (1983) ............................... 21, 22
New York v. United States Department of Homeland
Security, 969 F.3d 42 (2d Cir. 2020) ....................... 2, 24, 25
Radzanower v. Touche Ross & Co.,
426 U.S. 148 (1976).............................................................. 18
Southeastern Community College v. Davis,
442 U.S. 397 (1979).............................................................. 18
Thompson v. North American Stainless, LP,
562 U.S. 170 (2011).............................................................. 14
United States v. Curtiss-Wright Export Corp.,
299 U.S. 304 (1936).............................................................. 17
Constitution and statutes:
U.S. Const. Art. III ............................................................. 6, 8
Administrative Procedure Act, 5 U.S.C. 701 et seq.............. 9
5 U.S.C. 702 ...................................................................... 12
5 U.S.C. 705 ........................................................................ 6
5 U.S.C. 706(2)(A) .......................................................... 6, 9
Immigrant Fund Act, Act of Aug. 3, 1882, ch. 376,
§§ 1-2, 22 Stat. 214 ................................................................ 4
Immigration Act of 1917, ch. 29, 39 Stat. 874 ..................... 14

VII
Statutes—Continued:

Page

Immigration and Nationality Act, ch. 477,
66 Stat. 163 (8 U.S.C. 1101 et seq.) ...................................... 2
§ 212(a)(15), 66 Stat. 183 ................................................... 4
8 U.S.C. 1103 ...................................................................... 3
8 U.S.C. 1182(a)(4)................................................. 15, 126a
8 U.S.C. 1182(a)(4)(A) ..............................2, 3, 13, 25, 126a
8 U.S.C. 1182(a)(4)(B) ............................................. 3, 126a
8 U.S.C. 1182(a)(4)(B)(i)(II) ................................. 18, 126a
8 U.S.C. 1182(a)(4)(C) ........................................... 15, 127a
8 U.S.C. 1182(a)(4)(D) ........................................... 15, 127a
8 U.S.C. 1183a(a)(1)(A) ......................................... 15, 129a
8 U.S.C. 1183a(b)(1)(A) ......................................... 15, 129a
8 U.S.C. 1227(a)(5)............................................. 3, 19, 131a
8 U.S.C. 1601(1) ..................................................... 16, 131a
8 U.S.C. 1601(2) ............................................... 11, 16, 131a
8 U.S.C. 1601(2)(B) ................................................ 17, 132a
8 U.S.C. 1601(3) ..................................................... 16, 132a
8 U.S.C. 1601(4) ..........................................13, 16, 17, 132a
8 U.S.C. 1601(5) ..................................................... 16, 132a
8 U.S.C. 1611(c)(1)(B) ........................................... 16, 136a
Personal Responsibility and Work Opportunity
Reconciliation Act of 1996, Pub. L. No. 104-193,
110 Stat. 2105 (42 U.S.C. 1305 note) ................................... 8
Rehabilitation Act of 1973, Pub. L. No. 93-122,
87 Stat. 355 (29 U.S.C. 701 et seq.) ...................................... 6
29 U.S.C. 794(a).................................................... 17, 137a
Supplemental Nutrition Assistance Program,
7 U.S.C. 2011 et seq. .............................................................. 6
6 U.S.C. 211(c)(8) ..................................................................... 3
6 U.S.C. 557 .............................................................................. 3

VIII
Miscellaneous:

Page

Black’s Law Dictionary:
(3d ed. 1933) ..................................................................... 14
(4th ed. 1951) .................................................................... 14
Arthur E. Cook & John J. Hagerty, Immigration
Laws of the United States (1929) ...................................... 14
64 Fed. Reg. (May 26, 1999):
p. 28,676 .......................................................................... 4, 5
p. 28,689 .................................................................... 4, 5, 19
83 Fed. Reg. 51,114 (Oct. 10, 2018) .................................. 5, 23
84 Fed. Reg.:
p. 41,292 (Aug. 14, 2019) ............................... 3, 5, 6, 20, 21
p. 54,996 (Oct. 11, 2019)..................................................... 3
S. Rep. No. 1515, 81st Cong., 2d Sess. (1950) ....................... 4

In the Supreme Court of the United States
No.
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL., PETITIONERS
v.
COOK COUNTY, ILLINOIS, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the Acting
Secretary of Homeland Security Chad F. Wolf et al., respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Seventh Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a85a) is reported at 962 F.3d 208. The opinion of the district court (App., infra, 86a-123a) is reported at 417
F. Supp. 3d 1008.
JURISDICTION

The judgment of the court of appeals was entered on
June 10, 2020. A petition for rehearing was denied on
August 12, 2020 (App., infra, 124a-125a). The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).

(1)

2
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in the
appendix to this petition. App., infra, 126a-139a.
STATEMENT

The U.S. Department of Homeland Security (DHS)
issued a rule interpreting the provision of the Immigration and Nationality Act (INA), ch. 477, 66 Stat. 163
(8 U.S.C. 1101 et seq.), that makes an alien inadmissible
if, “in the opinion of ” the Secretary of Homeland Security, the alien is “likely at any time to become a public
charge.” 8 U.S.C. 1182(a)(4)(A). The district court here
entered a preliminary injunction barring implementation of the DHS rule in Illinois, see App., infra, 86a123a, and district courts in four other States also entered preliminary injunctions against implementation
of the Rule (some nationwide and some on a more limited basis). Those preliminary injunctions were all
stayed—several by the Fourth and Ninth Circuits, see
Order, CASA de Maryland, Inc. v. Trump, No. 19-2222
(4th Cir. Dec. 9, 2019); City & County of San Francisco
v. United States Citizenship & Immigration Services,
944 F.3d 773 (9th Cir. 2019), and the remainder by this
Court, see Department of Homeland Security v. New
York, 140 S. Ct. 599 (2020); 140 S. Ct. 681 (2020). The
Fourth Circuit subsequently reversed the preliminary
injunction entered by a district court in Maryland, see
CASA de Maryland, Inc. v. Trump, 971 F.3d 220 (2020),
but the Second Circuit affirmed the injunctions entered
by a district court in New York (while limiting their geographic scope), see New York v. United States Department of Homeland Security, 969 F.3d 42 (2020). In the
decision here, the Seventh Circuit affirmed the preliminary injunction entered by the district court, over a dissent by Judge Barrett. App., infra, 1a-85a.

3
A. The Public-Charge Inadmissibility Rule

1. The INA provides that “[a]ny alien who, * * * in
the opinion of the [Secretary of Homeland Security] at
the time of application for admission or adjustment of
status, is likely at any time to become a public charge is
inadmissible.” 8 U.S.C. 1182(a)(4)(A). 1 That assessment “shall at a minimum consider the alien’s (I) age;
(II) health; (III) family status; (IV) assets, resources,
and financial status; and (V) education and skills.”
8 U.S.C. 1182(a)(4)(B). A separate INA provision provides that an alien is deportable if, within five years of
entry, the alien “has become a public charge from
causes not affirmatively shown to have arisen” since entry. 8 U.S.C. 1227(a)(5).
Three agencies make public-charge determinations
under this provision: DHS, for aliens seeking admission
at the border and aliens within the country applying to
adjust their status to that of a lawful permanent resident; the Department of State, for aliens abroad applying for visas; and the Department of Justice, for aliens
in removal proceedings. See 84 Fed. Reg. 41,292, 41,294
n.3 (Aug. 14, 2019). The rule at issue governs DHS’s
public-charge determinations. Ibid. The State Department has adopted a consistent rule (which has been preliminarily enjoined in separate litigation), and the Department of Justice expects to do likewise. Ibid.; 84
Fed. Reg. 54,996 (Oct. 11, 2019) (State Department interim final rule); Make the Road New York v. Pompeo,
No. 19-cv-11633, 2020 WL 4350731 (S.D.N.Y. July 29,
The statute refers to the Attorney General, but in 2002 Congress
transferred the Attorney General’s authority to make public-charge
determinations in the relevant circumstances to the Secretary of
Homeland Security. See 8 U.S.C. 1103; 6 U.S.C. 557; see also
6 U.S.C. 211(c)(8).
1

4
2020) (preliminarily enjoining enforcement of State Department rule).
2. The “public charge” ground of inadmissibility
dates back to the first federal immigration statutes in
the late nineteenth century. See, e.g., Immigrant Fund
Act, Act of Aug. 3, 1882, ch. 376, §§ 1-2, 22 Stat. 214.
Through the nearly 140 years that the public-charge inadmissibility ground has been in effect, however, Congress has consistently chosen not to define the term
“public charge” by statute. Indeed, in an extensive report that served as a foundation for the enactment of
the INA in 1952, the Senate Judiciary Committee recognized that “[d]ecisions of the courts have given varied
definitions of the phrase ‘likely to become a public
charge,’ ” and that “ ‘different consuls, even in close
proximity with one another, have enforced [publiccharge] standards highly inconsistent with one another.’ ” S. Rep. No. 1515, 81st Cong., 2d Sess. 347, 349
(1950). Rather than recommend adoption of a specific
standard, the Committee indicated that because “the elements constituting likelihood of becoming a public
charge are varied, there should be no attempt to define
the term in the law.” Id. at 349; see INA § 212(a)(15),
66 Stat. 183 (using term without definition).
In 1999, the Immigration and Naturalization Service
(INS), recognizing that the term was “ambiguous” and
had “never been defined in statute or regulation,” proposed a rule to “for the first time define ‘public charge.’ ”
64 Fed. Reg. 28,676, 28,676-28,677 (May 26, 1999); 64
Fed. Reg. 28,689, 28,689 (May 26, 1999) (1999 Guidance). The proposed rule would have defined “public
charge” to mean an alien “who is likely to become primarily dependent on the Government for subsistence
as demonstrated by either: (i) [t]he receipt of public

5
cash assistance for income maintenance purposes, or
(ii) [i]nstitutionalization for long-term care at Government expense.” 64 Fed. Reg. at 28,681. When it announced the proposed rule, INS also issued “field guidance” adopting the proposed rule’s definition of “public
charge.” 64 Fed. Reg. at 28,689. The proposed rule was
never finalized, however, leaving only the 1999 Guidance in place. 84 Fed. Reg. at 41,348 n.295.
3. In October 2018, DHS announced a new approach
to public-charge determinations. It did so by providing
notice of a proposed rule and soliciting comments. 83
Fed. Reg. 51,114 (Oct. 10, 2018). After responding to
comments timely submitted, DHS promulgated a final
rule in August 2019. 84 Fed. Reg. at 41,501 (Rule).
The Rule defines “public charge” to mean “an alien
who receives one or more public benefits [as defined in
the Rule] * * * for more than 12 months in the aggregate within any 36-month period.” 84 Fed. Reg. at
41,501. The designated public benefits include cash assistance for income maintenance and certain non-cash
benefits, including most Medicaid benefits, Supplemental Nutrition Assistance Program benefits, and federal housing assistance. Ibid. As the agency explained,
the Rule’s definition of “public charge” differs from the
1999 Guidance in that (1) it incorporates certain noncash benefits and (2) it replaces the “primarily dependent” standard with the 12-month/36-month measure of
dependence. Id. at 41,294-41,295.
The Rule also sets forth a framework immigration
officials will use to evaluate whether, considering the
“totality of an alien’s individual circumstances,” the alien is “likely at any time in the future to become a public
charge.” 84 Fed. Reg. at 41,369; see id. at 41,501-41,504.
Among other things, the framework identifies a number

6
of factors an adjudicator must consider in making a
public-charge determination, such as the alien’s age, financial resources, employment history, education, and
health. Ibid. The Rule was set to take effect on October
15, 2019, and was originally set to apply prospectively
to applications and petitions postmarked (or, if applicable, submitted electronically) on or after that date. Id.
at 41,292.
B. Procedural History

1. Respondents are Cook County, Illinois and the Illinois Coalition for Immigrant and Refugee Rights, Inc.
(Coalition). In September 2019, they filed suit challenging the Rule in the United States District Court for the
Northern District of Illinois. D. Ct. Doc. 1 (Sept. 23,
2019) (Compl.). They assert that the Rule’s definition
of “public charge” is at odds with that term’s settled
meaning; the Rule is arbitrary and capricious, see 5
U.S.C. 706(2)(A); the Rule violates the Rehabilitation
Act of 1973 (Rehabilitation Act), Pub. L. No. 93-122, 87
Stat. 355 (29 U.S.C. 701 et seq.), because disabled aliens
are less likely to be admissible; the Rule violates the
statute establishing the Supplemental Nutrition Assistance Program, 7 U.S.C. 2011 et seq.; and the Rule violates constitutional equal-protection principles. See
Compl. ¶¶ 140-188.
On October 14, 2019, the district court granted respondents’ request for a preliminary injunction barring
DHS from implementing the Rule in Illinois, and for a
stay of the Rule under 5 U.S.C. 705. App., infra, 86a123a. The court concluded that respondents had Article
III standing, id. at 91a-98a, and that they were within
the zone of interests protected by the public-charge
provision because Cook County would suffer economic
injury, and because an advocacy organization like the

7
Coalition is “precisely the type of organization that
would reasonably be expected to police the interests
that the statute protects.” Id. at 101a (citation and internal quotation marks omitted); see id. at 99a-103a.
On the merits, the district court concluded that respondents were likely to prevail on their claim that the
Rule’s definition of “public charge” is inconsistent with
the INA. App., infra, 103a-118a. In particular, the district court read this Court’s century-old decision in Gegiow v. Uhl, 239 U.S. 3 (1915), to hold definitively that
the term “public charge” refers only to a person who is
primarily and permanently dependent on the government for support. App., infra, 106a-108a.
Regarding the other preliminary-injunction factors,
the district court concluded that respondents’ anticipated harms—economic injuries and possible publichealth risks that Cook County could face down the road,
and the Coalition’s diversion of resources away from existing programs—were irreparable. App., infra, 119a.
As to the balance of equities and hardships, the court
found that it “favor[ed]” respondents “on the present
record,” even though a “delay in implementing the Rule
undoubtedly would impose some harm on DHS.” Id. at
119a-120a.
2. The government sought a stay pending appeal,
which the district court and Seventh Circuit denied.
This Court subsequently granted the government’s request for a stay, directing that the stay would remain in
effect “pending disposition of the Government’s appeal
in the United States Court of Appeals for the Seventh
Circuit and disposition of the Government’s petition for
a writ of certiorari, if such writ is timely sought.” 140
S. Ct. 681, 681. DHS accordingly began implementing
the Rule nationwide on February 24, 2020.

8
3. A divided panel of the court of appeals affirmed
the district court’s preliminary injunction. App., infra,
1a-85a.
a. The court of appeals held that respondents had
Article III standing. See App., infra, 9a-11a. The court
also concluded that Cook County fell within the publiccharge provision’s zone of interests, reasoning that the
provision was designed “to protect taxpayer resources,”
an interest that Cook County sought to promote. Id. at
13a. But the court declined to address the “harder”
question whether the Coalition’s injury was within the
zone of interests, reasoning that Cook County’s right to
sue was sufficient to resolve the case. Id. at 14a.
On the merits, the court of appeals unanimously rejected the district court’s conclusion that the term “public charge” has an unambiguous historical meaning that
Congress implicitly ratified. App., infra, 26a; id. at 52a
(Barrett, J., dissenting). The court of appeals recognized instead that “[w]hat has been consistent is the delegation from Congress to the Executive Branch of discretion” to interpret and apply the public-charge inadmissibility provision. Id. at 26a (majority opinion).
The panel majority nonetheless concluded that the
Rule was an unreasonable interpretation of the publiccharge statute. App., infra, 27a-33a. The majority first
reasoned that the Rule likely violates the Rehabilitation
Act, because it requires immigration officials to consider an alien’s disability as a negative factor in some
circumstances. Id. at 28a-30a. The majority also concluded that the Rule is in “tension[]” with provisions of
the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Welfare Reform Act), Pub.
L. No. 104-193, 110 Stat. 2105 (42 U.S.C. 1305 note), that
authorize some aliens to obtain public benefits covered

9
by the Rule. App., infra, 30a. And it was “concern[ed]”
that “DHS’s interpretation of its statutory authority
has no natural limitation,” fearing that DHS might
adopt a “zero-tolerance rule under which the receipt of
even a single benefit on one occasion would result in” an
inadmissibility finding. Id. at 31a-32a. In addition, the
majority found evidence of the Rule’s purported unreasonableness in its stacking mechanism, which treats two
benefits received in one month as two months’ worth of
benefits, and in its failure to account for the possibility
that an alien might “repay the value of the benefits received once she is back on her feet.” Id. at 32a.
The majority also concluded that the Rule was likely
arbitrary and capricious, in violation of Section
706(2)(A) of the Administrative Procedure Act (APA), 5
U.S.C. 701 et seq. App., infra, 33a-41a. In the majority’s view, DHS failed to consider adequately the costs
for state and local governments that might result from
confusion about the Rule, adopted an impermissibly
“absolutist sense of self-sufficiency,” and mandated
that adjudicators consider factors (such as an alien’s
English language proficiency) that are likely to result
in decisions being made based on “unsupported assumptions.” Id. at 38a, 40a; see id. at 35a-37a.
Regarding the other preliminary-injunction factors,
the majority acknowledged that this Court’s stay “provides an indication that the Court thinks that there is at
least a fair prospect that DHS should prevail and faces
a greater threat of irreparable harm than the plaintiffs.” App., infra, 42a. But the majority nonetheless
concluded that “the dramatic shift in policy,” respondents’ likelihood of success, and the “potentially dire
public health consequences of the Rule” tipped the
scales in favor of injunctive relief. Id. at 43a.

10
b. Judge Barrett dissented. App., infra, 44a-85a.
She agreed with the majority that the term “public
charge” was ambiguous and that Congress has given
the Executive Branch “broad discretion” to interpret
the term. Id. at 59a. But she disagreed with the majority that the Rule’s definition was unreasonable. Id. at
73a. Surveying the history of the term “public charge”
in detail, Judge Barrett concluded that the term
“seemed to refer in an imprecise way to someone who
lacked self-sufficiency and therefore burdened taxpayers,” and had sometimes referred to persons who
needed temporary relief. Id. at 58a. Judge Barrett further determined that Congress’s 1996 amendments to
the public-charge statute and Welfare Reform Act
showed that “public charge” was a “much more capacious term” than the majority recognized. Id. at 73a.
In particular, Judge Barrett found it “obviously significant” that, in the 1996 amendments, Congress automatically classified certain aliens as likely public
charges if they lack a sponsor who will provide an affidavit of support promising to reimburse the government for any means-tested public benefits that the alien
uses. App., infra, 65a. Judge Barrett read the relevant
provisions to mean that Congress viewed “public charge”
broadly to include reliance on any means-tested public
benefits, including supplemental benefits. See id. at
62a-69a.
Judge Barrett also noted several problems with the
majority’s reasoning. For example, the majority’s conclusion that DHS cannot consider benefits authorized
by Congress would render the public-charge provision
“a dead letter,” as the provision presupposes that an alien will be eligible for public support. App., infra, 70a.

11
Judge Barrett further observed that it was “totally implausible” to read the Welfare Reform Act as evidence
that Congress desired the admission of aliens who were
likely to rely on means-tested public benefits, given that
Congress intended to discourage aliens’ reliance on
public benefits. Id. at 71a.
Judge Barrett stressed that the limited set of benefits covered by the Rule are all “means tested, satisfy
basic necessities, and are major welfare grants.” App.,
infra, 82a. Moreover, an alien will be considered likely
to become a public charge only if the alien uses some
combination of those benefits for more than 12 months
out of a 36-month period. In Judge Barrett’s view, DHS
did not act unreasonably in describing “someone who
relies on the government to satisfy a basic necessity for
a year, or multiple basic necessities for a period of
months, as falling within the definition of a term that
denotes a lack of self-sufficiency.” Id. at 83a.
Judge Barrett would not have addressed respondents’ arbitrary-and-capricious claims, which were not
addressed by the district court or fully developed by the
parties. App., infra, 84a.
REASONS FOR GRANTING THE PETITION

Congress has declared it the official “immigration
policy of the United States that * * * aliens within the
Nation’s borders not depend on public resources to
meet their needs,” and that “the availability of public
benefits not constitute an incentive for immigration to
the United States.” 8 U.S.C. 1601(2). This case concerns the Executive Branch’s efforts to further that policy through its longstanding authority to deny admission or lawful permanent resident status to aliens whom
it determines are likely to become public charges. As
multiple courts of appeals have recognized, the Rule

12
represents a “plainly permissible” exercise of the Executive Branch’s broad authority in this area. CASA de
Maryland, Inc. v. Trump, 971 F.3d 220, 244 (4th Cir.
2020); see City & County of San Francisco v. United
States Citizenship & Immigration Services, 944 F.3d
773, 799 (9th Cir. 2019) (granting a stay pending appeal
after concluding that the Rule “easily” qualifies as “a
permissible construction of the INA”). The Seventh
Circuit erred in concluding otherwise, and its decision
would irreparably harm the interests of the United
States if allowed to take effect—as this Court’s previous
entry of a stay pending appeal recognized. Because,
however, the government’s petition for a writ of certiorari in United States Department of Homeland Security v. New York, No. 20-___, is a better vehicle for this
Court to address the Rule’s validity, the appropriate
course in this case is to hold the government’s petition
for a writ of certiorari and then dispose of it in light of
the disposition in New York.
I. THE COURT OF APPEALS ERRED IN HOLDING THAT
RESPONDENTS ARE LIKELY TO SUCCEED IN THEIR
CHALLENGE TO THE RULE

Entry of a preliminary injunction was doubly inappropriate here. Respondents are not proper plaintiffs
to challenge DHS’s construction of the INA’s publiccharge inadmissibility provision, and their claims are
unlikely to succeed on the merits regardless.
A. As a threshold matter, respondents cannot invoke
the cause of action provided by the APA, 5 U.S.C. 702,
because their asserted injuries are not even “arguably
within the zone of interests to be protected or regulated” by the INA’s public-charge inadmissibility provision. Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209, 224 (2012) (quoting

13
Association of Data Processing Service Organizations,
Inc. v. Camp, 397 U.S. 150, 153 (1970)). The zone-ofinterests requirement is not satisfied where the interests a plaintiff seeks to vindicate are only “marginally
related to” or “inconsistent” with the purposes of the
statutory provision at issue. Patchak, 567 U.S. at 225
(quoting Clarke v. Securities Industry Ass’n, 479 U.S.
388, 399 (1987)). When a plaintiff is not subject to an
agency rule and asserts interests inconsistent with or
unrelated to the ones that Congress sought to further,
“it cannot reasonably be assumed that Congress intended to permit the suit.” Clarke, 479 U.S. at 399.
Such is the case here. The operative effect—and evident purpose—of the public-charge inadmissibility
provision is to prevent the admission or adjustment of
status of aliens who are likely to rely on taxpayerfunded public benefits. See 8 U.S.C. 1182(a)(4)(A); cf.
8 U.S.C. 1601(4) (discussing the government’s interest
in “assuring that individual aliens not burden the public
benefits system”). Respondents are not themselves
subject to that provision, and the interests they seek to
further through their suit are inconsistent with its purpose: rather than seeking to limit benefits usage by aliens, respondents’ object in bringing suit is to facilitate
benefits usage by aliens. Given that inconsistency, it
cannot reasonably be assumed that Congress would
have intended to authorize such suits by state and local
governments and non-governmental advocacy organizations. Indeed, even if DHS expanded the “public
charge” definition beyond whatever limits are imposed
by that ambiguous phrase, any such limits plainly are
intended to protect the aliens themselves—and are not
even “arguably” intended to protect state and local governments or nongovernmental advocacy organizations

14
from any indirect economic effects caused by aliens’
avoidance of benefits that would trigger the Rule. Cf.
Thompson v. North American Stainless, LP, 562 U.S.
170, 177 (2011) (rejecting an understanding of the zone
of interests protected by Title VII of the Civil Rights
Act of 1964 that would allow “a shareholder * * * to sue
a company for firing a valuable employee for racially
discriminatory reasons, so long as he could show that
the value of his stock decreased as a consequence”).
B. In any event, the Rule is lawful. Respondents’
contrary claims all lack merit.
1. Although Congress has never defined the term
“public charge,” when it “enacted the INA in 1952 * * *
[t]he ordinary meaning of ‘public charge’ * * * was ‘one
who produces a money charge upon, or an expense to,
the public for support and care.’ ” CASA de Maryland,
971 F.3d at 242 (quoting Black’s Law Dictionary 295
(4th ed. 1951)); see Black’s Law Dictionary 311 (3d ed.
1933) (explaining that “[p]ublic [c]harge,” “[a]s used in”
the Immigration Act of 1917, ch. 29, 39 Stat. 874, means
“one who produces a money charge on, or an expense to,
the public for support and care”) (emphasis omitted);
Arthur E. Cook & John J. Hagerty, Immigration Laws
of the United States § 285 (1929) (noting that “[p]ublic
[c]harge” meant a person who required “any maintenance, or financial assistance, rendered from public
funds, or funds secured by taxation”). That ordinary
meaning easily encompasses the Rule’s definition of the
term to cover an individual who relies for a prolonged
or intense period on a narrow set of means-tested public
benefits to meet his or her basic needs.
Related statutory provisions confirm that the Rule
represents a lawful interpretation of the INA. See

15
CASA de Maryland, 971 F.3d at 243-244. Those provisions show that receipt of public benefits, including noncash benefits, can establish that an alien qualifies as
likely to become a public charge, even if the alien is not
primarily dependent on public support for sustenance.
One such set of provisions requires that many aliens
seeking admission or adjustment of status must submit
“affidavit[s] of support” executed by sponsors, such as
a family member. See 8 U.S.C. 1182(a)(4)(C) and (D).
Congress specified that the sponsor must agree “to
maintain the sponsored alien at an annual income that
is not less than 125 percent of the Federal poverty line,”
8 U.S.C. 1183a(a)(1)(A), and Congress granted federal
and state governments the right to seek reimbursement
from the sponsor for “any means-tested public benefit”
the government provides to the alien during the period
the support obligation remains in effect, 8 U.S.C.
1183a(b)(1)(A), including non-cash benefits. Aliens who
fail to obtain the required affidavit are treated by operation of law as inadmissible on the public-charge
ground, regardless of individual circumstances. 8 U.S.C.
1182(a)(4). Those provisions show Congress’s recognition that the mere possibility that an alien might obtain
unreimbursed, means-tested public benefits in the future could be sufficient to render that alien likely to become a public charge, regardless of whether the alien
was likely to be primarily dependent on those benefits.
See App., infra, 68a (Barrett, J., dissenting) (“[T]he affidavit provision reflects Congress’s view that the term
‘public charge’ encompasses supplemental as well as
primary dependence on public assistance.”); CASA de
Maryland, 971 F.3d at 243 (“This sponsor-and-affidavit
scheme * * * underscores that the public charge provision is naturally read as extending beyond only those

16
who may become ‘primarily dependent’ on public support.”).
Surrounding statutory provisions also show why
Congress would have intended the Executive Branch to
take such public benefits into account in making publiccharge determinations. In legislation passed contemporaneously with the 1996 enactment of the current publiccharge provision, Congress stressed the government’s
“compelling” interest in ensuring “that aliens be selfreliant in accordance with national immigration policy.”
8 U.S.C. 1601(5). Congress observed that “[s]elfsufficiency has been a basic principle of United States
immigration law since this country’s earliest immigration statutes,” 8 U.S.C. 1601(1), and provided that it
“continues to be the immigration policy of the United
States that * * * (A) aliens within the Nation’s borders
not depend on public resources to meet their needs,
* * * and (B) the availability of public benefits not constitute an incentive for immigration to the United
States,” 8 U.S.C. 1601(2). Congress equated a lack of
“self-sufficiency” with the receipt of “public benefits”
by aliens, 8 U.S.C. 1601(3), which it defined broadly to
include any “welfare, health, disability, public or assisted housing * * * or any other similar benefit,”
8 U.S.C. 1611(c)(1)(B). And Congress emphasized the
government’s strong interest in “assuring that individual aliens not burden the public benefits system.”
8 U.S.C. 1601(4).
Given the broad, plain meaning of the statutory
phrase “public charge” as one who imposes a charge
upon the public, and Congress’s statutory policy of ensuring that aliens do “not burden the public benefits
system” or find the nation’s generous benefits programs to be “an incentive for immigration to the United

17
States,” 8 U.S.C. 1601(2)(B) and (4), the Rule “easily”
qualifies as a “permissible construction of the INA.”
City & County of San Francisco, 944 F.3d at 799; see
CASA de Maryland, 971 F.3d at 251 (holding that the
Rule is “unquestionably lawful”). And that is especially
true in light of the heightened deference traditionally
afforded to Executive Branch determinations in the immigration context, “where Congress has expressly and
specifically delegated power to the executive in an area
that overlaps with the executive’s traditional constitutional function.” CASA de Maryland, 971 F.3d at 251
n.6; see id. at 251 (“When Congress chooses to delegate
power to the executive in the domain of immigration,
the second branch operates at the apex of its constitutional authority.”) (citing United States v. CurtissWright Export Corp., 299 U.S. 304, 319-320 (1936)).
2. Accordingly, the panel majority erred in holding
that the Rule is likely contrary to law. Indeed, the court
did not dispute that the Rule is consistent with the text
of the public-charge inadmissibility provision. See
App., infra, 26a. Instead, it offered a handful of other
reasons for concluding that the Rule is contrary to law.
None of those reasons has merit.
a. The majority first concluded that because, under
the Rule, “a person’s disability will [sometimes] be the
but-for cause of her being deemed likely to become a
public charge,” the Rule violates the Rehabilitation Act.
App., infra, 30a; see id. at 28a-31a. That is incorrect.
The Rehabilitation Act provides that “[n]o otherwise
qualified individual * * * shall, solely by reason of her
or his disability,” be denied the benefits of certain federal programs. 29 U.S.C. 794(a). “[B]y its terms,” the
statute “does not compel [regulated entities] to disregard the disabilities of * * * individuals * * * . Instead,

18
it requires only that ‘an otherwise qualified * * * individual’ not be excluded * * * ‘solely by reason of [his or
her disability].’ ” Southeastern Community College v.
Davis, 442 U.S. 397, 405 (1979). The Rule complies with
that requirement: it is not “solely” an alien’s disability
that results in her inadmissibility under the Rule, but
rather the likelihood—because of the totality of her circumstances, including but not limited to her disability—
that she will use the specified amount and type of public
benefits after her admission. Moreover, the INA itself
explicitly directs that immigration officials “shall”
consider an alien’s “health” when assessing whether
she is likely to become a public charge. 8 U.S.C.
1182(a)(4)(B)(i)(II). That statutory command, made in
the specific context of the public-charge inadmissibility
provision, provides the governing rule in this context.
Radzanower v. Touche Ross & Co., 426 U.S. 148, 153
(1976) (“[A] specific statute will not be controlled or nullified by a general one.”) (citation omitted).
The panel majority suggested (App., infra, 30a) that
the statutes can be reconciled by permitting officials applying the INA to consider only those health conditions
that do not rise to the level of disabilities under the Rehabilitation Act. That approach is not required by the
Rehabilitation Act, and would turn on its head the publiccharge provision’s requirement to consider an alien’s
health, as it would prohibit consideration of the health
conditions most relevant to one’s likely status as a public charge. Indeed, the implausibility of the majority’s
approach is underscored by the fact that it would make
unlawful even the 1999 Guidance, which deemed aliens
to be “public charges” if they were likely to be institutionalized or otherwise primarily dependent on certain

19
government benefits, without any exception for aliens
with disabilities. See 64 Fed. Reg. at 28,689-28,690.
b. The panel majority next concluded that the Rule
“conflicts with Congress’s affirmative authorization for
designated immigrants to receive the benefits the Rule
targets.” App., infra, 30a. Congress had decided when
to make aliens eligible or ineligible for benefits, the majority reasoned, and it would be inconsistent with that
“balance” for DHS to “penalize receipt” of benefits for
which aliens had been made eligible. Id. at 31a. As
Judge Barrett explained, that “logic would read the
public charge provision out of the statute.” Id. at 69a
(dissenting opinion).
If the majority’s understanding were correct, “DHS
could not exclude an applicant even if it predicted that
the applicant would eventually become permanently reliant on government benefits, because the future use of
those benefits would, after all, be authorized.” App., infra, 70a (Barrett, J., dissenting). Instead, Congress’s
decision to make aliens eligible for benefits in certain
circumstances after they have been lawfully admitted
simply shows that while Congress desired to prevent
immigration by aliens whom immigration authorities
can predict at the outset “are likely to need public
benefits,” it “also provided a backstop for those who
face setbacks that were unforeseeable on the front end.”
CASA de Maryland, 971 F.3d at 253; cf. 8 U.S.C.
1227(a)(5) (making an alien removable if, within five
years of entry, the alien “has become a public charge
from causes not affirmatively shown to have arisen”
since entry). DHS’s attempt to be more proactive about
identifying likely public charges on the front end is consistent with Congress’s decision to provide a backstop
for when those predictive efforts fail.

20
c. Finally, the majority’s “concerns [we]re heightened” by its perception that “DHS’s interpretation of
its statutory authority has no natural limitation.” App.,
infra, 31a. The majority stated that it would do “violence to the English language and the statutory context” to read “ ‘public charge’ ” to cover “a person who
receives only de minimis benefits for a de minimis period of time.” Id. at 32a. This is a red herring.
The majority’s hypothetical bears no resemblance to
the Rule that DHS has actually adopted, which focuses
on receipt of only a limited category of public benefits
and requires a projected 12 months of benefits within a
36-month period. 84 Fed. Reg. at 41,501. As Judge Barrett observed, “[i]t is consistent with the term ‘public
charge’ to consider the potential receipt of cash, food,
housing, and healthcare benefits—all of which fulfill
fundamental needs—in evaluating whether someone is
likely to depend on public assistance to get by.” App.,
infra, 78a (dissenting opinion). It is not unreasonable
for DHS to conclude that “[r]el[iance] on the government to provide a year’s worth of a basic necessity * * *
implicates self-sufficiency” of the sort with which the
public-charge inadmissibility provision is concerned, or
to conclude that reliance on means-tested governmental
programs to satisfy multiple necessities could sufficiently implicate the provision’s concerns about selfsufficiency in an even shorter period. Id. at 82a-83a. If
DHS were to adopt some hypothetical definition that
was unreasonable, the solution would be to invalidate
that definition for that reason; the fear of that hypothetical slippery-slope is no basis to adopt the majority’s unduly narrow interpretation, which forecloses the entirely reasonable definition that DHS actually adopted.

21
3. The panel majority also concluded that the Rule
is likely to be found arbitrary and capricious under the
APA. Here, too, the majority erred.
a. The majority first stated that DHS had failed adequately to address the effects of concerns among the
“target population” that the Rule might “become more
stringent at any time and operate retroactively,” as well
as misunderstandings about the Rule’s current scope.
App., infra, 35a; see id. at 35a-36a. The majority observed that those factors could lead to disenrollment
from benefits that are not covered by the Rule or by individuals to whom the Rule does not apply, and stated
that this possibility deserved a “serious” response from
DHS because it could lead to greater burdens on state
and local governments. Id. at 36a.
Contrary to the majority’s view, however, DHS did
provide a reasonable response. It acknowledged the
possibility that the Rule would lead individuals to disenroll from benefits in circumstances where the Rule
would not actually apply, but explained that it was not
willing to modify the Rule to avoid such “unwarranted
choices.” 84 Fed. Reg. at 41,313. Instead, it indicated
that it would address the concerns by providing “clear
guidance” about the Rule’s actual operation. Ibid. That
was an entirely sensible response; indeed, it would be
remarkable for a government agency to abandon an otherwise valid policy merely because third parties asserted that the regulated community would overreact
based on confusion or paranoia. In all events, the majority had no warrant to “substitute its judgment for
that of the agency.” Motor Vehicle Manufacturers’ Association of United States, Inc. v. State Farm Mutual
Automobile Insurance Co., 463 U.S. 29, 43 (1983).

22
b. The majority also concluded that the “chosen durational threshold” was likely arbitrary and capricious
because it amounted to a requirement of “total selfsufficiency at every moment.” App., infra, 37a-38a; see
id. at 37a-39a. This characterization echoed the majority’s discussion of whether receipt of de minimis benefits for a de minimis period would render someone a
public charge—and is flawed for the same reason.
Whether or not adopting an “absolutist” approach to
self-sufficiency in the context of the public-charge determination would be arbitrary and capricious, the line
that DHS has drawn is a far cry from that, and reflects
a reasonable judgment about the length or intensity of
benefits usage that is sufficient to render someone a
public charge. See p. 20, supra; see also CASA de Maryland, 971 F.3d at 234-235 (explaining that “DHS did
not simply pluck the operative time period out of thin
air” but rather “relied on several empirical analyses regarding patterns of welfare use in the United States”
that “indicate that a substantial portion of individuals
who receive public benefits do so for fewer than 12months, and that those who receive such benefits over a
longer period are more likely to become ‘long-term recipients’ of welfare”) (citations omitted). That the panel
majority might have drawn the line differently is no basis for setting aside the Rule under APA review. See
State Farm, 463 U.S. at 43.
c. Finally, the majority found fault with several criteria the Rule does or does not direct agency adjudicators to consider, as part of the totality of the circumstances, in making a public-charge determination. See
App., infra, 39a-41a. The majority stated that it was
unclear how adjudicators could make non-arbitrary predictions about whether an alien is likely to become a

23
public charge in the future based on factors such as a
person’s family size, English-language proficiency, or
credit score. Id. at 39a. But that criticism takes issue
with the forward-looking, predictive nature of the inquiry required by the statute itself; the fact that making
such predictions will never be a perfect science does not
make it arbitrary or capricious for the agency, just like
insurers and others who must make predictive judgments, to identify particular traits that both empirical
evidence and common sense suggest are probative. See
83 Fed. Reg. at 51,178-51,207. 2
II. THE QUESTIONS
COURT’S REVIEW

PRESENTED

WARRANT

THIS

Whether challengers such as respondents are likely
to succeed in their challenge to the Rule presents questions that warrant this Court’s review. But the government’s petition for a writ of certiorari in United States
Department of Homeland Security v. New York, No.
20-___, provides a better vehicle for resolving those
questions.
A. The courts of appeals are divided over the lawfulness of the Rule. The Fourth Circuit reversed a preliminary injunction against enforcement of the Rule based
The majority also faulted the Rule for not asking whether an alien might repay benefits in the future, suggesting that the absence
of such a feature was “new” because “the regulations governing deportation on public-charge grounds require a demand and a failure
to pay.” App., infra, 40a. That reflects a misunderstanding of the
differences between admissibility and deportation determinations.
The Board of Immigration Appeals indicated as early as 1974 that
it would not use the test for deportation proceedings (on which the
panel majority relied here) when making admissibility determinations. See CASA de Maryland, 971 F.3d at 233 (citing In re Harutunian, 14 I. & N. Dec. 583, 585 (B.I.A. 1974)).
2

24
on its conclusion that “[t]he DHS Rule * * * comports
with the best reading of the INA.” CASA de Maryland,
971 F.3d at 250. Indeed, it concluded that “[t]o invalidate the Rule would * * * entail the disregard of the
plain text of a duly enacted statute,” and would “visit
palpable harm upon the Constitution’s structure and
the circumscribed function of the federal courts that
document prescribes.” Id. at 229. Similarly, in entering
a stay pending appeal of preliminary injunctions against
the Rule, the Ninth Circuit issued a lengthy published
opinion concluding that “[t]he Final Rule’s definition of
‘public charge’ is consistent with the relevant statutes,
and DHS’s action was not arbitrary or capricious.” City
& County of San Francisco, 944 F.3d at 790. 3
Two other courts of appeals have held that the Rule
is likely unlawful, but have done so for different reasons. The Second Circuit relied primarily on its erroneous view that “public charge” has acquired a narrow,
settled meaning that excludes aliens who use meanstested public benefits as supplemental rather than primary support. See New York v. United States Department of Homeland Security, 969 F.3d 42, 70-74 (2020);
but see pp. 14-17, supra. The Seventh Circuit, as discussed, correctly rejected that conclusion—but then
found that the Rule is likely unlawful for a scattershot
of erroneous reasons, over an extended dissent by
Judge Barrett. That disagreement, regarding not only
the Rule’s ultimate legality but also the particular
A merits panel of the Ninth Circuit heard argument on the
appeal in City & County of San Francisco on September 15, 2020.
See Docket, City & County of San Francisco, supra (No. 19-17213).
And the plaintiffs in CASA de Maryland have filed a petition for
rehearing en banc, which remains pending as of this filing. See Pet.
for Reh’g, CASA de Maryland, supra (No. 19-2222).
3

25
grounds on which it might be found unlawful (which
would affect DHS’s flexibility to adopt alternatives in
the future), warrants this Court’s review.
B. Even apart from the aforementioned conflict, the
decision below warrants this Court’s review because it
concerns an issue of significant importance and, if allowed to stand, would result in irreparable harm to the
United States and the public.
Decisions about whether to admit aliens into the
country, or to allow aliens already admitted into the
country to change their status to that of a lawful permanent resident, implicate a “fundamental sovereign attribute exercised by the Government’s political departments.” Fiallo v. Bell, 430 U.S. 787, 792 (1977) (citation
omitted). With respect to the public-charge ground of
inadmissibility in particular, Congress has explicitly entrusted the Executive Branch with the authority to
deny admission or adjustment of status to aliens who,
“in the opinion of the [Secretary of Homeland Security],” are “likely at any time to become a public
charge.” 8 U.S.C. 1182(a)(4)(A).
Absent this Court’s review, however, the decision below would require the adjustment to lawful permanent
resident status of aliens whom DHS has determined are
likely to become public charges. And—as this Court implicitly recognized in granting a stay pending appeal—
those effects are irreparable: once the decisions have
been made, no practical means exist by which to reverse
them. See New York, 969 F.3d at 86-87 (“Because there
is no apparent means by which DHS could revisit adjustment determinations made while the Rule is enjoined, this harm is irreparable.”). Given the substantial grounds for concluding that the court of appeals’ decision was wrong, that irreparable harm concerning a

26
fundamental attribute of sovereignty should not be permitted to occur without this Court’s review.
C. The government’s contemporaneously filed petition for a writ of certiorari in United States Department
of Homeland Security v. New York, No. 20-___, is a superior vehicle. As a threshold matter, in light of Judge
Barrett’s pending nomination to this Court, her participation in this case creates the possibility that the full
Court would not be able to consider this case, unlike in
New York. Moreover, New York is also a better vehicle
for each of the questions presented.
As to the proper parties to challenge the Rule, the
plaintiffs in New York include not only non-governmental
organizations and a local government (as in this case),
but also several States. Granting certiorari in that case
would therefore allow the Court to address a broader
range of interests of putative plaintiffs.
As to the merits, the district court did not address
respondents’ argument that the Rule is arbitrary and
capricious, and that issue is thus less fully developed in
this case than in New York, as Judge Barrett noted in
declining to reach it. See App., infra, 84a (dissenting
opinion). And while the Seventh Circuit and Second
Circuit each relied on some grounds that the other did
not, the full range of arguments would be available for
this Court to consider in deciding whether to affirm the
Second Circuit’s judgment. Given the other considerations noted above, it is unnecessary to grant plenary review in both cases.

27
CONCLUSION

The Court should hold the petition for a writ of certiorari pending a decision on the government’s petition
for a writ of certiorari in United States Department of
Homeland Security v. New York, No. 20-___, and any
further proceedings in that case, and then dispose of the
petition as appropriate in light of the Court’s actions in
that case.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys

OCTOBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

No. 19-3169
COOK COUNTY, ILLINOIS, ET AL.,
PLAINTIFFS-APPELLEES
v.
CHAD F. WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL., DEFENDANTS-APPELLANTS
Argued: Feb. 26, 2020
Decided: June 10, 2020
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 19 C 6334—Gary Feinerman, Judge
Before: WOOD, Chief Judge, and ROVNER and BARRETT, Circuit Judges.
WOOD, Chief Judge. Like most people, immigrants
to the United States would like greater prosperity for
themselves and their families. Nonetheless, it can take
time to achieve the American Dream, and the path is not
always smooth. Recognizing this, Congress has chosen
to make immigrants eligible for various public benefits;
state and local governments have done the same. Those
benefits include subsidized health insurance, supplemental nutrition benefits, and housing assistance. Historically, with limited exceptions, temporary receipt of
(1a)

2a
these supplemental benefits did not jeopardize an immigrant’s chances of one day adjusting his status to that of
a legal permanent resident or a citizen.
Recently, however, the Department of Homeland Security (DHS) issued a new rule designed to prevent immigrants whom the Executive Branch deems likely to
receive public assistance in any amount, at any point in
the future, from entering the country or adjusting their
immigration status. The Rule purports to implement
the “public-charge” provision in the Immigration and
Nationality Act, 8 U.S.C. § 1182(a)(4). States, cities,
and nonprofit groups across the country have filed suits
seeking to overturn the Rule.
Cook County, Illinois, and the Illinois Coalition for
Immigrant and Refugee Rights, Inc. (ICIRR) brought
one of those cases in the Northern District of Illinois.
They immediately sought a preliminary injunction against
the Rule pending the outcome of the litigation. Finding that the criteria for interim relief were satisfied, the
district court granted their motion. We conclude that
at least Cook County adequately established its right to
bring its claim and that the district court did not abuse
its discretion by granting preliminary injunctive relief.
We therefore affirm.
I.

A.

The Setting

The Public-Charge Rule

The Immigration and Nationality Act (INA, or “the
Act”) provides that a noncitizen may be denied admission or adjustment of status if she “is likely at any time
to become a public charge.” 8 U.S.C. § 1182(a)(4)(A).
The statute does not define the term “public charge,”
nor has it ever done so. Instead, the Act calls for a

3a
“totality-of-the-circumstances” analysis, though it singles out several factors to be considered “at a minimum”:
age; health; family status; assets, resources, and financial status; education and skills; and any affidavit of support under section 1183a. Id. § 1182(a)(4)(B). The
statute does not specify how officials should weigh the
listed factors and any others that appear to be relevant.
On August 14, 2019, following a notice and comment
period, DHS issued a rule interpreting this provision.
In it, DHS defines as a “public charge” any noncitizen
(with some exceptions) who receives certain cash and
noncash government benefits for more than “12 months”
in the aggregate in a 36-month period. Inadmissibility
on Public Charge Grounds, 84 Fed. Reg. 41292-508
(Aug. 14, 2019) (“Rule”). It applies to all legally admitted immigrants; we are not concerned here with those in
the country unlawfully. The Rule is not limited to federal benefits; instead, it sweeps in any federal, state, local, or tribal cash assistance for income maintenance;
Supplemental Nutrition Assistance Program (SNAP)
benefits; most forms of Medicaid; Section 8 Housing Assistance under the Housing Choice Voucher Program;
Section 8 Project-Based Rental Assistance; and certain
other forms of subsidized housing. Id. at 41295, 41501.
Each benefit received, no matter how small, is counted
separately and stacked, such that receipt of multiple
benefits in one month is considered receipt of multiple
months’ worth of benefits. Id. at 41295. For example,
an immigrant who receives any amount of SNAP benefits, Medicaid, and housing assistance, and nothing else
for four months in a three-year period, will be considered a public charge and likely denied adjustment of status. The stacking rule means that a person can use up

4a
her “12 months” of benefits in a far shorter time than a
quick reading of the Rule would indicate.
The Rule also explains what facts DHS will consider
with respect to an applicant’s age, health, family status,
financial status, and education and skills. Id. at 4150204. “Heavily weighted negative factors” include the
following: lack of current employment or reasonable
prospect of future employment; previous receipt or approval for receipt of 12 months’ worth of public benefits
in a three-year period; diagnosis of a medical condition
that is likely to require extensive medical treatment or
institutionalization or that will interfere with the ability
to provide for oneself, attend school, or work, along with
lack of insurance and no prospect of obtaining private
health insurance, and insufficient financial resources to
pay for reasonably foreseeable medical costs related to
such medical condition; and prior determination of inadmissibility or deportability on public-charge grounds.
Id. at 41504.
The “heavily weighted positive factors” are exclusively monetary. They include the following: a household income, assets, resources, or support amounting to
at least 250 percent of the Federal Poverty Guidelines
for the household size; current employment with an annual income of at least 250 percent of the Federal Poverty Guidelines for the household size; and private
health insurance other than subsidized insurance under
the Affordable Care Act. Id. To put this in perspective,
recall that the Federal Poverty Guideline in 2020 for
a family of four is $26,200 in annual income. Poverty
Guidelines, www.aspe.hhs.gov. An annual income 250
percent of that number is $65,500, which is very close to

5a
the median U.S. income of $63,179 (the 2018 number reported by the U.S. Census on Sept. 10, 2019, see Income,
Poverty and Health Insurance Coverage in the United
States: 2018, www.census.gov).
Other factors include whether an immigrant is
younger than 18 or older than 61 (bad); household size
(smaller is better); whether an immigrant’s household
annual gross income is at least 125 percent of the Federal Poverty Guidelines; past receipt of any amount of
public benefits (bad); level of education (good); English
language proficiency; and credit history and credit
score. Id. at 41502-04.
The Rule represents a striking departure from the
previous administrative guidance—one with a potentially devastating impact on those to whom it applies. 1
That guidance, issued in 1999 by the Immigration and
Naturalization Service (the predecessor of today’s U.S.
Citizenship and Immigration Services), defines as a public charge a noncitizen who is “primarily dependent on
the government for subsistence, as demonstrated by either (i) the receipt of public cash assistance for income
maintenance or (ii) institutionalization for long-term

The dissent emphasizes the fact that the Rule will not affect certain people, such as those for whom a sponsor has furnished an affidavit of support. But those are not the people who concern Cook
County—it must deal with those who bear the brunt of the Rule.
Cf. Planned Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833, 894 (1992) (“Legislation is measured for consistency
with the Constitution by its impact on those whose conduct it affects.
. . . The proper focus of constitutional inquiry is the group for
whom the law is a restriction, not the group for whom the law is irrelevant.”). The dissent concedes, as it must, that the affected
group is not the null set.
1

6a
care at government expense.” Field Guidance on Deportability and Inadmissibility on Public Charge
Grounds, 64 Fed. Reg. 28689 (May 26, 1999) (“1999 Field
Guidance”) (emphasis added); see also Proposed Rule:
Inadmissibility and Deportability on Public Charge
Grounds, 64 Fed. Reg. 28676 (May 26, 1999). Drawing
on both dictionary definitions and the development of
immigration law since the 1880s, the proposed rule accompanying the 1999 Field Guidance explained that “a
person becomes a public charge when he or she is committed to the care, custody, management, or support of
the public,” and that the term is best understood to signify “a complete, or nearly complete, dependence on the
Government rather than the mere receipt of some lesser
level of financial support.” 64 Fed. Reg. at 28677.
B.

Procedural History

DHS’s new rule was scheduled to go into effect in October 2019. Before it did so, plaintiffs filed this suit
against DHS and related entities for declaratory and injunctive relief. The complaint presents several theories: (1) the Rule violates the Administrative Procedure Act (APA), 5 U.S.C. § 706, because it exceeds
DHS’s statutory authority; (2) the Rule violates APA
section 706 because it is not in accordance with law; (3)
the Rule violates APA section 706 because it is arbitrary
and capricious; and (4) the Rule violates the Fifth Amendment’s Equal Protection guarantee because it discriminates against non-white immigrants.
Focusing on the APA theories, plaintiffs moved for a
preliminary injunction, which the district court granted
on October 14, 2019. (Following plaintiffs’ lead, we do
not discuss the Equal Protection theory.) The injunction is geographically limited to Illinois. The district

7a
court concluded that both Cook County and ICIRR have
constitutional standing to sue—Cook County primarily
because of the added costs its health and hospital system
is absorbing and will have to absorb as a result of decreased immigrant enrollment in government-provided
health care coverage, and ICIRR because it is expending and will continue to expend additional resources to
educate immigrant communities about the Rule and ensure they are able to obtain necessary health services.
The court also determined that both the County and
ICIRR fall within the “zone of interests” protected by
the INA, for largely the same reasons they have constitutional standing. On the merits, the court concluded
that DHS’s reinterpretation of the term is likely impermissible. The court found the statute to be clear and to
require more substantial, sustained dependence on government assistance than the Rule demands before a
noncitizen may be considered a public charge. This
showed, the court held, that plaintiffs are likely to succeed on their claims. Finally, the court ruled that
plaintiffs had shown a likelihood of irreparable harm
and that the balance of harms favored them, such that a
preliminary injunction is warranted.
DHS filed an immediate appeal and moved to stay the
preliminary injunction pending resolution of its appeal.
We denied the stay and a renewed motion for a stay, but
on February 21, 2020, the Supreme Court granted a
stay. Chad Wolf, et al. v. Cook County, et al., 140 S. Ct.
681 (2020).
As we write, parallel cases are being litigated in New
York, Maryland, California, and Washington. New
York v. U.S. Dep’t of Homeland Sec., No. 19-cv-7777
(S.D.N.Y.); Make the Road New York v. Cuccinelli, No.

8a
19-cv-7993 (S.D.N.Y.); Casa de Maryland, Inc. v.
Trump, No. 19-cv-2715 (D. Md.); California v. U.S.
Dep’t of Homeland Sec., No. 19-cv-4975 (N.D. Cal.);
La Clinica De La Raza v. Trump, No. 19-cv-4980 (N.D.
Cal.); Washington v. U.S. Dep’t of Homeland Sec., No.
19-cv-5210 (E.D. Wash.). The district courts in each of
those cases also issued preliminary injunctions, though
with nationwide effect. DHS appealed the preliminary
injunctions and requested stays pending appeal. The
Ninth and Fourth Circuits granted DHS’s stay requests.
City and Cnty. of San Francisco v. U.S. Citizenship &
Immigration Servs., 944 F.3d 773 (9th Cir. 2019); Casa
de Maryland, Inc. v. Trump, No. 19-2222 (4th Cir. Dec.
9, 2019). The Second Circuit declined to issue a stay,
but the Supreme Court granted one pending further
proceedings. Dep’t of Homeland Sec., et al., v. New
York, et al., 140 S. Ct. 599 (2020).
Rather than discussing these opinions point-bypoint, we think it better to spell out our own analysis of
these issues.
II.

Right To Sue

Plaintiffs invoked the district court’s jurisdiction under 28 U.S.C. § 1331 for their claims under the APA.
DHS responds that they lack standing to sue under Article III of the Constitution. The district court rejected that argument. It also concluded that plaintiffs
had adequately raised a claim within the “zone of interests” of the INA. We review the legal question of
standing de novo and the factual findings underlying the
district court’s determination of standing for clear error. Arreola v. Godinez, 546 F.3d 788, 794 (7th Cir.
2008).

9a
A.

Article III Standing

Article III of the Constitution limits the federal judicial power to the adjudication of “cases” and “controversies.” U.S. Const. art. III, § 2, cl. 1. For there to be
a justiciable case or controversy, the party invoking the
power of the court must have standing to sue. Hollingsworth v. Perry, 570 U.S. 693, 700 (2013). To assert standing for injunctive relief, a plaintiff must show
that it is under an actual or imminent threat of suffering
a concrete and particularized injury-in-fact; that this injury is fairly traceable to the defendant’s conduct; and
that it is likely that a favorable judicial decision will prevent or redress the injury. Summers v. Earth Island
Inst., 555 U.S. 488, 493 (2009).
Municipalities generally have standing to challenge
laws that result (or immediately threaten to result) in
substantial financial burdens and other concrete harms.
See, e.g., Dep’t of Commerce v. New York, 139 S. Ct.
2551, 2565 (2019) (“diminishment of political representation, loss of federal funds, degradation of census data,
and diversion of resources” were sufficient to give states
and municipalities standing to sue over the proposed inclusion of a citizenship question on the 2020 census);
Gladstone, Realtors v. Vill. of Bellwood, 441 U.S. 91,
110-11 (1979) (municipality had standing based on the
effect of racial steering in housing on the municipality’s
tax base and social stability).
The district court found that Cook County has standing based on the financial harms the County will incur if
and when the Rule goes into effect. The Rule is likely
to cause immigrants to forgo routine treatment, immunizations, and diagnostic testing, resulting in more costly,
uncompensated emergency care and an increased risk of

10a
communicable diseases spreading to the general public.
Indeed, DHS conceded this harm in its commentary on
the Rule, acknowledging “that increased use of emergency rooms and emergent care as a method of primary
healthcare due to delayed treatment is possible and
there is a potential for increases in uncompensated care
in which a treatment or service is not paid for by an insurer or patient.” 84 Fed. Reg. at 41384. The district
court determined that “[b]oth the costs of community
health epidemics and of uncompensated care are likely
to fall particularly hard on [the Cook County health system], which already provides approximately half of all
charity care in Cook County, including to noncitizens regardless of their immigration status.” The district
court found that these financial and health burdens were
sufficient.
The district court also concluded that ICIRR has Article III standing based on the effect of the Rule on its
ability to perform its core mission and operate its existing programs. The court found that the Rule would impair the organization’s ability to achieve its mission of
increasing access to care, improving health literacy, and
reducing reliance on emergency room care in immigrant
communities. The Rule already has caused ICIRR to
divert resources from its core programs to new efforts
designed to educate immigrants and staff about the
Rule’s effects and to mitigate the Rule’s chilling impact
on immigrants who are not covered by the Rule but who
nonetheless fear immigration consequences based on
their receipt of public benefits.
Under Havens Realty Corp. v. Coleman, 455 U.S. 363
(1982) and Common Cause Indiana v. Lawson, 937 F.3d

11a
944 (7th Cir. 2019), this is enough. In Havens, the Supreme Court found that a nonprofit organization focused on equal housing access had standing to sue an
apartment owner under the Fair Housing Act for racial
discrimination, based on the negative impact of the defendant’s racial steering practices on the organization’s
ability to provide counseling and referral services for
low-and moderate-income home-seekers. 455 U.S. at
379. And in Common Cause, we relied on Havens in
concluding that the plaintiff voting rights organizations
had standing to challenge an Indiana law designed to remove certain people from the voter rolls, because the
law caused the organizations to divert their limited resources from core programs to ameliorating the effects
of the law. 937 F.3d at 950-52.
We agree with the district court that Cook County
and ICIRR have established cognizable injuries. Their
alleged injuries are predictable, likely, and imminent.
And the Rule—not independent third-party decisionmaking—is the but-for cause of these injuries. Plaintiffs thus have constitutional standing to challenge the
Rule.
B.

Statutory Coverage

The next question is whether the interests Cook
County and ICIRR assert are among those protected or
regulated by the INA. A statute “ordinarily provides
a cause of action only to plaintiffs whose interests fall
within the zone of interests protected by the law invoked.” Bank of America Corp. v. City of Miami, 137
S. Ct. 1296, 1302 (2017).
The zone-of-interests test is not “especially demanding” in the APA context. Lexmark Int’l, Inc. v. Static

12a
Control Components, Inc., 572 U.S. 118, 130 (2014).
This is because it was “Congress’s evident intent when
enacting the APA to make agency action presumptively
reviewable.”
Match-E-Be-Nash-She-Wish Band of
Pottawatomi Indians v. Patchak, 567 U.S. 209, 225
(2012). The plaintiffs’ interests must only arguably fall
within the zone of interests of the statute. And the emphasis on the word “arguably” is not ours: the Supreme Court has “always conspicuously included the
word ‘arguably’ in the test to indicate that the benefit of
any doubt goes to the plaintiff.” Id. It is not necessary
to demonstrate any “indication of congressional purpose
to benefit the would-be plaintiff.” Id. Suit is foreclosed “only when a plaintiff ’s interests are so marginally related to or inconsistent with the purposes implicit
in the statute that it cannot reasonably be assumed that
Congress intended to permit the suit.” Id.
1.

Cook County

The district court concluded that Cook County satisfies the zone-of-interests test based on the financial burdens the County will incur as a result of the Rule. It
drew an analogy to City of Miami, in which the Supreme
Court held that Miami’s allegations of lost tax revenue
and extra municipal expenses placed it within the zone
of interests protected by the Fair Housing Act.
DHS takes issue with these conclusions. It argues
that the County does not fall within the INA’s zone of
interests because its asserted interests are inconsistent
with the statutory purpose. DHS sees a tension between the County’s efforts to provide services to immigrants and the supposed aim of the public-charge provision, which it understands as a command to reduce and
penalize immigrants’ receipt of public benefits. DHS

13a
also contends that the district court misread City of Miami, and that the INA does not give any third party a
judicially enforceable interest in the Executive Branch’s
immigration decisions.
DHS has overshot the mark. Indeed, its own arguments undermine such an absolutist position. DHS admits that one purpose of the public-charge provision is
to protect taxpayer resources. In large measure, that
is the same interest Cook County asserts. DHS tries
to distinguish itself from Cook County by saying that it
is focused on reducing the burden on federal taxpayers,
but the Rule itself covers not just federal, but also state,
local, and tribal assistance. Even if the effect of the
Rule is some reduction in the burden on federal taxpayers, Cook County has plausibly alleged that at the same
time, the Rule will increase the burden on those same
people in their capacity as state and local taxpayers, who
will have to suffer the adverse effects of a substantial
population with inadequate medical care, housing, and
nutrition.
Furthermore, though the purpose of the publiccharge provision is to screen for and promote “selfsufficiency” among immigrants, it is not obvious what
self-sufficiency means. Subsidies abound in the modern world, from discounted or free transportation for
seniors, to public snow removal, to school lunches, to
childhood vaccinations, and much more. Cf. Danilo
Trisi, Administration’s Public Charge Rules Would
Close the Door to U.S. Immigrants Without Substantial
Means, Ctr. on Budget and Policy Priorities (Nov. 11,
2019) (noting that in a single year, one in four U.S.-born
citizens, and 15 percent of all residents, receives a benefit included in the Rule’s public charge definition).

14a
Ensuring that immigrants have access to affordable
basic health care, for example, may promote their greater
self-sufficiency in other domains, including income, housing, and nutrition. It also protects the community at
large from highly contagious diseases such as COVID19. Cook County’s interest in ensuring lawful immigrants’ access to authorized federal and state public
benefits is not plainly inconsistent with the text of the
statute. Its financial interests thus suffice to bring it
within the zone of interests of the public-charge provision.
2.

ICIRR

The court also found that ICIRR fits within the
INA’s zone of interests, explaining that there is “ample
evidence that ICIRR’s interests are not merely marginal to those of the aliens more directly impacted by the
public charge provision” and that “ICIRR [is] precisely
the type of organization that would reasonably be expected to ‘police the interests that the statute protects.’ ”
Because only one plaintiff need demonstrate that it
has stated a claim within the zone of interests of the statute, we elect to pass over ICIRR without much comment. We recognize that it asserts that it has suffered
a financial burden directly attributable to the Rule.
And we accept that ICIRR helps immigrants navigate
the INA’s various requirements, including the publiccharge rule, and it has an interest in ensuring that immigrants are not improperly denied adjustment of status or removed from the country because of confusion
over DHS’s Rule. But the link between these injuries
and the purpose of the public-charge part of the statute
is more attenuated, and thus it is harder to say that the

15a
injury ICIRR has asserted meets the “zone-of-interests”
test.
Given Cook County’s presence in the case, we need
not resolve ICIRR’s status definitively, and so we limit
our discussion in the remainder of the opinion to Cook
County. The central question is whether the district
court abused its discretion in preliminarily enjoining the
Rule for the State of Illinois?
III.

The Preliminary Injunction

To obtain a preliminary injunction, a plaintiff must
establish that: (1) she is likely to succeed on the merits, (2) she is likely to suffer irreparable harm in the absence of preliminary relief; and (3) legal remedies are
inadequate. See Winter v. Natural Res. Def. Council,
Inc., 555 U.S. 7, 20 (2008); Eli Lilly & Co. v. Arla Foods,
Inc., 893 F.3d 375, 381 (7th Cir. 2018). “If the moving
party makes this showing, the court balances the harms
to the moving party, other parties, and the public.” Eli
Lilly, 893 F.3d at 381. The standard is the same for an
application for a stay under section 705 of the APA.
Cronin v. U.S. Dep’t of Agric., 919 F.2d 439, 446 (7th Cir.
1990).
The district court concluded that Cook County is
likely to succeed on the merits and that the other requirements for preliminary injunctive relief have been
met. We review the issuance of a preliminary injunction under the deferential abuse-of-discretion standard,
reviewing legal issues de novo and factual findings for
clear error. Whitaker v. Kenosha Unified Sch. Dist.
No. 1 Bd. of Educ., 858 F.3d 1034, 1044 (7th Cir. 2017).

16a
A.

Likelihood of Success

The pivotal question in this case, as in many involving
preliminary relief, is likelihood of success on the merits.
We therefore devote the bulk of our analysis to this issue, understanding that the litigation is still in an early
stage and anything we say may change as the record develops further.
The APA provides for judicial review of final agency
decisions. 5 U.S.C. §§ 702, 706. The overriding question is whether the agency’s interpretation of the relevant statute is one the text will permit. We approach
this inquiry through the two-step framework set forth in
Chevron U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837 (1984). The first issue is “whether Congress
has directly spoken to the precise question at issue.”
Id. at 842. If Congress has done so unambiguously,
then that is the end of it: the agency and courts alike
are bound by what Congress wrote. Id. at 842-43. If
Congress has not spoken clearly, then we move on to
step two, in which we consider whether the agency’s interpretation reflects a permissible construction of the
statute. Id. at 843. We defer to the agency’s reading
“unless it appears from the statute or its legislative history that the accommodation [of conflicting policies] is
not one that Congress would have sanctioned.” Id. at
845; see also Indiana v. EPA, 796 F.3d 803, 811 (7th Cir.
2015).
Statutory interpretation is not the end of the matter,
however. We also must assess the agency’s policymaking to ensure that it is not “arbitrary and capricious,” as
the APA uses those terms. 5 U.S.C. § 706(2)(A). This
review, guided by Motor Vehicle Mfrs. Ass’n v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29 (1983), focuses

17a
not on the facial validity of the agency’s interpretation,
but rather on the soundness of the process by which it
reached its interpretation. See Encino Motorcars,
LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016) (“[W]here
a proper challenge is raised to the agency procedures,
and those procedures are defective, a court should not
accord Chevron deference to the agency interpretation.”).
1.

Chevron Step One

We begin our analysis of DHS’s Rule with an analysis
of the text of the INA. In conducting this analysis, we
consider the words of the public-charge provision, its
place in the over-all statutory scheme, the relation of the
INA to other statutes, and “common sense as to the manner in which Congress is likely to delegate a policy decision of such economic and political magnitude to an administrative agency.” FDA v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 132-33 (2000).
As we noted at the outset, the INA contains no formal
definition of what it takes to be a “public charge.” It
merely lists several broad factors that are relevant to
the determination. 8 U.S.C. § 1182(a)(4)(B). It does
not provide weights for either the listed factors or any
others that might exist in a given case. Instead, it relies on the discretion of the responsible consular official
or the Attorney General. Id. § 1182(a)(4)(A). It also
authorizes the Secretary of Homeland Security to
promulgate rules to guide those determinations. Id.
§ 1103(a)(3).
In defense of its Rule, DHS relies heavily on the 1996
amendments to the INA. There Congress stated that
“self-sufficiency has been a basic principle of United

18a
States immigration law since this country’s earliest immigration statutes.” 8 U.S.C. § 1601(1). Congress
also announced its intent that “aliens within the Nation’s
borders not depend on public resources to meet their
needs, but rather rely on their own capabilities and the
resources of their families, their sponsors and private
organizations”; and that “the availability of public benefits [should] not constitute an incentive for immigration
to the United States.” 8 U.S.C. § 1601(2).
Both parties also cite various other statutory provisions that they believe shed light on the meaning of the
public-charge provision, including the requirement for
some immigrants to obtain affidavits of support from
sponsors, 8 U.S.C. § 1183a; an exception to the publiccharge provision for immigrants who are victims of domestic violence and receive benefits in that capacity, id.
§§ 1182(a)(4)(E), 1641(c); and several other statutes that
extend, with varying conditions, certain benefits to immigrants, see, e.g., id. §§ 1611, 1621. We do not find
these provisions to be particularly helpful; each is susceptible to more than one reasonable reading.
Cook County argues that long-established judicial
decisions, ratified by Congress, point us to only one possible interpretation—that is, the one that it urges. But
in our view, the historical record is not so clear. The
parties agreed in the district court that the understanding of the term “public charge” around the time it first
entered federal immigration law in 1882 is particularly
relevant. See New Prime Inc. v. Oliveira, 139 S. Ct.
532, 539 (2019) (“It’s a fundamental canon of statutory
construction that words generally should be interpreted
as taking their ordinary meaning at the time Congress

19a
enacted the statute.”).
ends.

But that is where the harmony

Enter the dueling dictionaries. In Cook County’s
corner, we have the Century Dictionary, defining a
“charge” as a person who is “committed to another’s custody, care, concern or management,” Century Dictionary 929 (William Dwight Whitney, ed., 1889) (emphasis
added); and Webster’s Dictionary, likewise defining a
“charge” as a “person or thing committed to the care or
management of another,” Webster’s Condensed Dictionary of the English Language 84 (Dorsey Gardner,
ed., 1884). These suggest primary, long-term dependence. In DHS’s corner, we have dictionaries defining a
“charge” as “an obligation or liability,” as in a “pauper
being chargeable to the parish or town,” Dictionary of
Am. and English Law 196 (Stewart Rapalje & Robert
Lawrence, eds., 1888); and as a “burden, incumbrance,
or lien,” Glossary of the Common Law 56 (Frederic Jesup
Stimson, ed., 1881). These definitions can be read to indicate that a lesser reliance on public benefits is enough.
Finding no clarity here, we move on.
Cook County contends that from the outset Congress
distinguished between, on the one hand, those who were
permitted to “land” and receive short-term support
from government agencies, and, on the other hand,
those who were excluded as public charges. Under the
1882 Immigration Act, the set of people who could be
prevented from landing included convicts, “lunatics,”
“idiots,” and any other person “unable to take care of
himself or herself.” An Act to Regulate Immigration,
ch. 376, § 2, 22 Stat. 214 (1882). The 1882 Act authorized the Secretary of the Treasury, who was responsible
for supervising immigration, to enter into contracts with

20a
state entities “to provide for the support and relief of
such immigrants therein landing as may fall into distress or need public aid, under the rules and regulations
to be prescribed by said Secretary.” Id. Cook County
stresses this distinction between excludable public
charges and immigrants who (less drastically) “may fall
into distress or need public aid.”
This argument has some intuitive merit. DHS responds however, that the general revenues were not at
risk under the 1882 Act for immigrants who were not
self-sufficient upon arrival. The 1882 Act directed the
Secretary of the Treasury to levy an entry tax on all
noncitizens arriving by ship to cover both the cost of regulating immigration and that of temporary assistance.
1882 Act, ch. 376, § 1. It also specified that “no greater
sum shall be expended for the purposes hereinbefore
mentioned, at any port, than shall have been collected at
such port.” Id. In other words, federal funding was
available only to the extent the funds matched collections from the vessels. This general feature is no
longer part of the law (putting to one side the special
case of sponsored immigrants).
Congress tinkered with the language in 1891, 1903,
and 1907. See An Act in Amendment to the Various
Acts Relative to Immigration and the Importation of Aliens Under Contract or Agreement to Perform Labor,
ch. 551, 26 Stat. 1084, 1086 (1891); An Act to Regulate
the Immigration of Aliens into the United States, ch.
1012, 32 Stat. 1213, 1213-1214 (1903); An Act to Regulate
the Immigration of Aliens into the United States, ch.
1134, 34 Stat. 898, 898-899, 904-905 (1907). Never,
however, did it define “public charge” or explain what

21a
degree of reliance on government aid brands someone
as such a person.
Federal district court and state-court cases from this
period point in different directions. For example, in In
re Feinknopf, 47 F. 447 (E.D.N.Y. 1891), a district court
distinguished between the primary dependence of persons who live in almshouses and the lesser dependence
of those who merely receive public support. Around
the same time, a North Dakota court indicated that temporary aid is actually a means of averting public dependence, insofar as it can keep those “destitute of means
and credit from becoming a public charge.” Yeatman
v. King, 2 N.D. 421 (1892). On the other hand, the question in Yeatman was whether an obligation to repay the
county the value of received temporary public assistance
counted as a tax, and so the decision is of limited value.
The district court did not find these and other early
decisions to be dispositive. Instead, it thought that the
Supreme Court’s decision in Gegiow v. Uhl, 239 U.S. 3
(1915), resolved the issue. But there, too, the question
presented was a narrow one. The Court said that it
was addressing the “single question . . . whether an
alien can be declared likely to become a public charge on
the ground that the labor market in the city of his immediate destination is overstocked.” Id. at 9-10. It answered in the negative, saying that “[t]he persons enumerated, in short, are to be excluded on the ground of
permanent personal objections accompanying them irrespective of local conditions. . . . ” Id. at 10. The
district court in our case understood Gegiow as holding
that the term “public charge” encompasses only persons
who are substantially, if not entirely, dependent on government assistance on a long-term basis.

22a
While there is language in Gegiow that supports that
reading, we are not persuaded that the Supreme Court
necessarily ruled so broadly. The Court went out of its
way to say that the question presented was the one we
noted above. The Acting Commissioner of Immigration, in deciding to deport the persons at issue, mentioned in addition to local labor conditions “the amount
of money possessed and ignorance of our language.”
But the Court brushed off these considerations as mere
“makeweights.” Id. at 9. It thus had no need to address
directly the immigrants’ financial resources and education.
In context, the Court’s reference to “permanent personal objections” might have simply reflected a distinction between the individualized characteristics of an immigrant and external factors such as a local labor market. The terse opinion is silent about any distinction
between people whose need for public assistance is temporary and minimal, and those whose need is likely to be
substantial or permanent. We thus agree with DHS
that the case before us cannot be resolved exclusively by
reference to Gegiow.
Circuit court decisions in the aftermath of Gegiow
add little clarity to this picture. For example, in Wallis
v. United States ex rel. Mannara, 273 F. 509 (2d Cir.
1921), the Second Circuit defined a person likely to become a public charge as “one whom it may be necessary
to support at public expense by reason of poverty, insanity and poverty, disease and poverty, idiocy and poverty.” Id. at 511. It did so in a case in which the immigrant family’s primary breadwinner was “certified for
senility” and thus would never be “capable of continued
self-support.” Id. at 510. The court noted that the

23a
family had “insufficient [means] to provide for their necessary wants any reasonable length of time” and no private sources of support. Id. On the other hand, in Ex
parte Hosaye Sakaguchi, 277 F. 913 (9th Cir. 1922), the
Ninth Circuit held that an immigrant woman with the
skills to support herself was not likely to become a public charge. Id. at 916. It ruled that the government
had to present evidence of “mental or physical disability
or any fact tending to show that the burden of supporting the [immigrant] is likely to be cast upon the public.”
Id. How much of a burden was left undefined. See
also United States ex rel. De Sousa v. Day, 22 F.2d 472,
473-74 (2d Cir. 1927) (“In the face of [Gegiow] it is hard
to say that a healthy adult immigrant, with no previous
history of pauperism, and nothing to interfere with his
chances in life but lack of savings, is likely to become a
public charge within the meaning of the statute.”).
The parties and amici also call our attention to later
actions by the Executive Branch, but we find these also
to be inconclusive. See, e.g., Matter of B-, 3 I. & N.
Dec. 323, 326 (BIA & AG 1948) (stating that the longstanding test for whether an immigrant could be
deemed a public charge had three components: (1) the
state must charge for the service it renders; (2) it must
make a demand for payment; and (3) the immigrant
must fail to pay).
What we can say is that in 1952 Congress amended
the Act in a way that uses the language of discretion: it
deems inadmissible immigrants “who, in the opinion of
the consular officer at the time of application for a visa,
or in the opinion of the Attorney General at the time of
application for admission, are likely at any time to be-

24a
come public charges.” An Act to Revise the Laws Relating to Immigration, Naturalization, and Nationality;
and for Other Purposes, Pub. L. No. 414, § 212, 66 Stat.
163, 183 (1952) (emphasis added). This language clarifies the temporal dimension of the public-charge determination, but it says nothing about the degree or duration of assistance. The Immigration Act of 1990, Pub.
L. No. 101-649, § 601, 104 Stat. 4978, also lacks a clear
definition of “public charge.”
In the 1996 Immigration Act, Congress for the first
time provided guidance on what the Executive Branch
must consider when determining whether an immigrant
is likely to become a public charge. As we noted earlier, immigration officials were instructed “at a minimum” to look at age, health, family status, financial situation, and education and skills. Illegal Immigration
Reform and Immigrant Responsibility Act of 1996, Pub.
L. No. 104-208, Div. C, § 531, 110 Stat. 3009 (1996). They
also could consider whether an immigrant had an affidavit of support from a third party. Id. Congress rejected a proposal to define “public charge” to cover “any
alien who receives [means-tested public benefits] for an
aggregate of at least 12 months.” 142 Cong. Rec.
24313, 24425 (1996).
Contemporaneously, Congress enacted the Personal
Responsibility and Work Opportunity Reconciliation
Act of 1996, Pub. L. 104-193, 110 Stat. 2105 (1996),
commonly known as the “Welfare Reform Act.” DHS
places great weight on language in that statute’s expression of Congress’s desire that immigrants be selfsufficient and not come to the United States with the
purpose of benefitting from public welfare programs.

25a
See 8 U.S.C. § 1601(1). The INA (with that amendment) pursues that goal by restricting most noncitizens
from eligibility for many federal and state public benefits. It grants lawful permanent residents access to
means-tested public benefits only after they have spent
five years as a lawful permanent resident. Id. §§ 1611,
1613, 1621. But the exclusions are not absolute. Congress specified instead that immigrants may at any time
receive emergency medical assistance; immunizations
and testing for communicable diseases; short-term, inkind emergency disaster relief; various in-kind services
such as short-term shelter and crisis counseling; and
certain housing and community development assistance.
Id.
The INS summarized its understanding of the 1996
legal regime in the 1999 Field Guidance, which defined
as a public charge those who are “primarily dependent
on the government for subsistence, as demonstrated by
either (i) the receipt of public cash assistance for income
maintenance or (ii) institutionalization for long-term
care at government expense.” 64 Fed. Reg. at 28689.
Following an earlier 1987 interpretive rule, see Adjustment of Status for Certain Aliens, 52 Fed. Reg. 16205,
16211-12, 16216 (May 1, 1987), the 1999 Field Guidance
said that “officers should not initiate or pursue public
charge deportation cases against aliens who have not received public cash benefits for income maintenance or
who have not been institutionalized for long-term care.”
64 Fed. Reg. at 28689. It directed officers “not [to]
place any weight on the receipt of non-cash public benefits (other than institutionalization) or the receipt of
cash benefits for purposes other than for income maintenance with respect to determinations of admissibility or

26a
eligibility for adjustment on public charge grounds.”
Id.
Later enactments lightened some of the statutory restrictions, in order to allow additional categories of immigrants to qualify for certain benefits without a fiveyear waiting period. See Farm Security and Rural Investment Act of 2002, Pub. L. 107-171, § 4401, 116 Stat.
134 (2002); Children’s Health Insurance Program Reauthorization Act of 2009, Pub. L. 11-3, § 214, 123 Stat. 8
(2009).
This is where things stood when DHS developed the
Rule. What should we make of this historical record?
As the district court recognized, there is abundant evidence supporting Cook County’s interpretation of the
public-charge provision as being triggered only by longterm, primary dependence. But the question before us
is not whether Cook County has offered a reasonable interpretation of the law. It is whether the statutory language unambiguously leads us to that interpretation.
We cannot say that it does. As our quick and admittedly incomplete overview of this byzantine law has
shown, the meaning of “public charge” has evolved over
time as immigration priorities have changed and as the
nature of public assistance has shifted from institutionalization of the destitute and sick, to a wide variety of
cash and in-kind welfare programs. What has been
consistent is the delegation from Congress to the Executive Branch of discretion, within bounds, to make public-charge determinations.
Thus, this case cannot be resolved at Chevron step
one. But that does not end the analysis, because we
may affirm the district court’s issuance of a preliminary
injunction on any basis in the record. See Valencia v.

27a
City of Springfield, Ill., 883 F.3d 959, 967 (7th Cir. 2018).
We therefore proceed to step two.
2.

Chevron Step Two

At step two of the Chevron analysis, we consider
“whether the agency’s answer is based on a permissible
construction of the statute.” 467 U.S. at 843. Our review is deferential; we accord “considerable weight
. . . to an executive department’s construction of a
statutory scheme it is entrusted to administer.” Id. at
844; see also Nat’l Cable & Telecomms. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 980 (2005).
A court may strike down an agency’s interpretation
of a law if, for example, the agency’s reading disregards
the statutory context, see, e.g., Michigan v. EPA, 135
S. Ct. 2699, 2708 (2015); its rule is based on an unreasonable interpretation of legislative history, see, e.g., Council for Urological Interests v. Burwell, 790 F.3d 212, 223
(D.C. Cir. 2015); or its new position “would bring about
an enormous and transformative expansion in [the agency’s] regulatory authority without clear congressional
authorization, Util. Air Reg. Grp. v. EPA, 573 U.S. 302,
324 (2014).
Cook County offers several reasons why DHS’s interpretation founders here. First, it contends that the
Rule conflicts with at least two statutes: the SNAP statute and the Rehabilitation Act of 1973. Second, it urges
that the DHS position creates internal inconsistencies in
the immigration laws them-selves. We address these
points in turn.
The SNAP statute prohibits the government from
considering SNAP benefits as “income or resources for
any purpose under any Federal, State, or local laws.” 7

28a
U.S.C. § 2017(b). But DHS is not trying to characterize these benefits as income or resources held by the immigrant in question. The Rule merely notes that receipt
of the benefits is an indicium of a lack of self-sufficiency.
Whatever else one might say about that position, it is not
one that the SNAP law forbids.
The Rehabilitation Act of 1973 prohibits the government from excluding from participation in, denying the
benefits of, or subjecting to discrimination under any
federally funded program or activity, a person with a
disability “solely by reason of her or his disability.” 29
U.S.C. § 794(a). An agency violates the Act if it (1) intentionally acts on the basis of the disability; (2) refuses
to provide a reasonable modification; or (3) takes an action or adopts a rule that disproportionately affects disabled people. A.H. ex rel. Holzmueller v. Ill. High Sch.
Ass’n, 881 F.3d 587, 592-93 (7th Cir. 2018). An aggrieved person must demonstrate that “but for” her disability, she would have been able to access the desired
benefits. Id. at 593.
DHS frankly acknowledges that it takes disability
into account in its public-charge analysis, and it does so
in an unfavorable way. 84 Fed. Reg. at 41383 (“DHS considers any disability or other medical condition in the
public charge inadmissibility determination to the extent the alien’s health makes the alien more likely than
not to become a public charge at any time in the future.”). Indeed, the Rule brands as a heavily weighted
negative factor a medical condition that is likely to require extensive medical treatment or interfere with the
person’s ability to provide for herself, attend school, or
work. Id. at 41504. DHS does not say what amounts
to “extensive medical treatment” or what it means for a

29a
condition to “interfere with [an immigrant’s] ability to
provide for herself, attend school, or work.” The Rule
leaves the interpretation of these terms to immigration
officials. It is therefore unclear what sorts of disabilities DHS will place into this category.
As several amici curiae point out, the Rule ignores
the fact that private insurers do not cover many homeand community-based services, and so denial of benefits
is effectively denial of access to programs or activities.
See id. at 41382. DHS responded to this criticism, as it
applies to Medicaid Buy-in for those with disabilities,
with the comment that “[a]liens should be obtaining private health insurance other than Medicaid in order to
establish self-sufficiency.” Id. But that is chimerical.
Private insurance in the United States typically excludes these benefits, and so persons with disabilities
are able to obtain essential services, including personalcare services, specialized therapies and treatment, habilitative and rehabilitative services, and medical equipment, only by participating in the Medicaid Buy-in program. With this assistance, they are able to work and
thus can avoid becoming a public charge, which is DHS’s
purported goal.
The conclusion is inescapable that the Rule penalizes
disabled persons in contravention of the Rehabilitation
Act. All else being equal—education and skills, work
history and potential, health besides disability, etc.—the
disabled are saddled with at least two heavily weighted
negative factors directly as a result of their disability.
Even while DHS purports to follow the statutorilyrequired totality of the circumstances test, the Rule disproportionately burdens disabled people and in many in-

30a
stances makes it all but inevitable that a person’s disability will be the but-for cause of her being deemed likely
to become a public charge.
We do not mean to suggest that the Rehabilitation
Act repealed the “health” criterion in the public-charge
provision by implication. There is no need to do that,
if the two statutes can be reconciled—and it is our duty
to see if that can be accomplished. See Epic Sys. Corp.
v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“[T]his Court is
not at liberty to pick and choose among congressional
enactments and must instead strive to give effect to
both.”). And they can live together comfortably, as long
as we understand the “health” criterion in the INA as
referring to things such as contagious disease and conditions requiring long-term institutionalization, but not
disability per se. That interpretation is also historically grounded.
DHS’s interpretation also creates serious tensions, if
not outright inconsistencies, within the statutory scheme.
It conflicts with Congress’s affirmative authorization for
designated immigrants to receive the benefits the Rule
targets. See 8 U.S.C. §§ 1611, 1621 (allowing immigrants to receive emergency medical assistance, immunizations and contagious disease testing, and some public
housing assistance); Farm Security and Rural Investment Act of 2002, Pub. L. No. 107-171, § 4401, 116 Stat.
134 (authorizing supplemental nutrition benefits for certain categories of immigrants, and Medicaid and children’s health insurance for noncitizen children and pregnant women). Cook County is largely correct when it
accuses the Rule of “set[ting] a trap for the unwary” by
penalizing people for accepting benefits Congress made
available to them. Although the Rule does not punish

31a
immigrants for using the designated benefits, in the
sense of imposing a fine, its heavily negative consideration of such use is an even worse penalty for someone
seeking a lawful path to staying in the United States.
Furthermore, the preliminary injunction record shows
that many immigrants are not sophisticated enough to
know which benefits they may safely accept and which
not.
Congress drew the balance between acceptance of
benefits and preference for self-sufficiency in the statutes, and it is DHS’s duty to respect that outer boundary. The Welfare Reform Act achieved its stated goal
of reducing immigrant reliance on public assistance by
barring receipt of any benefits by some classes of noncitizens and authorizing receipt by other classes only after
a five-year waiting period. The statute did not create
a regime that permitted self-sufficiency to trump all
other goals, nor did it modify the public-charge provision to penalize receipt of non-cash as well as cash assistance. DHS is correct that its Rule is not worded as an
outright prohibition against an immigrant’s receipt of
benefits to which Congress has entitled him. The latter would exceed DHS’s authority. But the record before us indicates that it may have the same effect.
Our concerns are heightened by the fact that DHS’s
interpretation of its statutory authority has no natural
limitation. Although it chose a rule that quantified the
benefits used to 12 months’ worth over a 36-month period, nothing in its interpretation requires even that
limit. There is nothing in the text of the statute, as
DHS sees it, that would prevent the agency from imposing a zero-tolerance rule under which the receipt of even

32a
a single benefit on one occasion would result in denial of
entry or adjustment of status.
We see no warrant in the Act for this sweeping view.
Even assuming that the term “public charge” is ambiguous and thus might encompass more than institutionalization or primary, long-term dependence on cash benefits, it does violence to the English language and the
statutory context to say that it covers a person who receives only de minimis benefits for a de minimis period
of time. There is a floor inherent in the words “public
charge,” backed up by the weight of history. The term
requires a degree of dependence that goes beyond temporary receipt of supplemental in-kind benefits from any
type of public agency.
DHS also runs into trouble as a result of its decision
to stack benefits and disregard monetary value. Under
its Rule, the receipt of multiple benefits in one month, no
matter how slight, counts as multiple months of benefits.
DHS acknowledges that the Rule’s 12-months-in-36 tolerance would actually run out in four months if an immigrant received non-emergency Medicaid, any SNAP
benefit, and housing assistance, or even sooner if she additionally received any amount of cash income assistance through a federal, state, local, or tribal program.
Paradoxically, the Rule provides no opportunity for an
immigrant to repay the value of the benefits received
once she is back on her feet. This is another way in
which it unreasonably imposes substantially disproportionate consequences for immigrants, compared to the
supposed drain on the public fisc they cause.
The ambiguity in the public-charge provision does
not provide DHS unfettered discretion to redefine “public charge.” We find that the interpretation reflected

33a
in the Rule falls outside the boundaries set by the statute.
3.

Arbitrary and Capricious Review

Our conclusion that the Rule likely does not meet the
standards of Chevron step two is enough to require us to
move on to the remainder of the preliminary-injunction
analysis. But even if we are wrong about step two,
one more inquiry remains: whether the Rule is arbitrary and capricious, as the APA uses those terms. See
5 U.S.C. § 706(2)(A). That requires an examination of
DHS’s policymaking process.
When conducting rulemaking, an agency must “examine the relevant data and articulate a satisfactory explanation for its action including a rational connection
between the facts found and the choice made.” Motor
Vehicle Mfrs. Ass’n v. State Farm, 463 U.S. at 43. It
may not “rel[y] on factors which Congress has not intended it to consider, entirely fail[] to consider an important aspect of the problem, [or] offer[] an explanation
for its decision that runs counter to the evidence before
the agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.” Id. Furthermore, when an agency changes
course, as DHS did here when it adopted a radically different understanding of the term “public charge” compared to the 1999 Field Guidance, it “must show that
there are good reasons for the new policy.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009). In
explaining a change in policy, “an agency must also be
cognizant that longstanding policies may have engendered serious reliance interests that must be taken into
account.” Encino Motorcars, 136 S. Ct. at 2126. This
is because a “settled course of behavior embodies the

34a
agency’s informed judgment that, by pursuing that
course, it will carry out the policies committed to it by
Congress.” State Farm, 463 U.S. at 41-42. Thus, “a
reasoned explanation is needed for disregarding facts
and circumstances that underlay or were engendered by
the prior policy.” Fox Television Stations, 556 U.S. at
516.
The review called for by State Farm is narrow in
scope and does not permit us to substitute our own policy judgment for that of the agency. We ask only
whether the agency’s “decision was based on a consideration of the relevant factors” and was not “a clear error
of judgment.” 463 U.S. at 43.
In response to its notice of proposed rulemaking,
DHS received a whopping 266,077 comments, the vast
majority of which opposed the proposed rule. In the
preamble to the final rule, DHS summarized significant
issues raised by the comments and changes it made in
the final rule. We assess the validity of DHS’s decisionmaking process based on this record.
Cook County urges that the Rule is arbitrary and capricious in a number of ways: (1) DHS failed meaningfully to evaluate and address significant potential harms
from the Rule, including its substantial chilling effect on
immigrants not covered by the Rule; (2) DHS failed
to give a logical rationale for the duration-based standard; and (3) DHS added factors to the totality-of-thecircumstances analysis that are “unsupported, irrational
and at odds with the Final Rule’s purported purpose.”
Numerous amici underscored these points and explained how the Rule will lead to arbitrary results, cause
both direct and indirect economic harms, burden states

35a
and localities that have to manage fallout from the Rule,
and disproportionately harm the disabled and children.
We look first at DHS’s dismissal of concerns about
the Rule’s chilling effect on legal immigrants and family
members who fall outside its scope. DHS acknowledged
a “plausible connection” between the Rule and needless
disenrollment by exempt noncitizens (including refugees, asylees, and victims of domestic violence) in covered public benefits, and by covered immigrants in noncovered benefit programs. 84 Fed. Reg. at 41313.
DHS also said that it “appreciates . . . the potential
nexus between public benefit enrollment reduction and
food insecurity, housing scarcity, public health and vaccinations . . . and increased costs to states and localities.” Id. Nonetheless, it brushed off these impacts as “difficult to predict” and refused to “alter this
rule to account for such unwarranted choices.” Id.
Even though these consequences are foreseeable, the
Rule does not literally compel them, and so DHS asserted that they could be addressed through additional
public guidance.
DHS may think that these responses are unwarranted, but it does not deny that they are taking place
and will continue to do so. Moreover, the record indicates that the target population is responding rationally.
DHS’s system of counting and stacking benefits is hardly
transparent, and so a rational person might err on the
side of caution and refrain from seeking medical care, or
food, or housing, even from a city, state, or tribe rather
than the federal government. And the risk that the
Rule may become more stringent at any time and operate retroactively against the use of benefits already used
is a real one. DHS trumpets its view that the Rule stops

36a
short of its lawful authority and that it could promulgate
a more restrictive rule if it so chooses. In response to
comments on the proposed rule, DHS used discretionary language: “DHS believes it is a reasonable approach to only designate Medicaid at this time,” id. at
41381 (emphasis added); and “DHS will not consider
[Healthy Start] benefits at this time,” id. at 41390 (emphasis added). It warned that it may “updat[e] the list
of benefits through future regulatory action.” Id. at
41387. Immigrants thus reasonably anticipate that their
receipt of benefits that are currently not covered could
eventually hurt them if DHS alters the Rule in the future.
It was not enough for DHS simply to nod at this argument; it called for a serious explanation. The importance of the chilling effect is not the number of disenrollments in the abstract, but the collateral consequences of such disenrollments. DHS failed adequately
to grapple with the latter. For example, commenters
predicted that disenrollment and under-enrollment in
Medicaid, including by immigrants not covered by the
Rule, would reduce access to vaccines and other medical
care, resulting in an increased risk of an outbreak of infectious disease among the general public. To recognize the truth in that prediction, one need only consider
the current outbreak of COVID-19—a pandemic that
does not respect the differences between citizens and
noncitizens.
There is also the added burden on states and local
governments, which must disentangle their purely statefunded programs from covered federal programs. The
federal government has no interest in the way that
states and localities choose to spend their money.

37a
There is no reason why immigrants should not continue
to benefit from the state programs without being penalized at the federal level. The Rule will force states to
make their own public welfare programs more robust to
compensate for a reduction in the availability of federal
programs. DHS touts the savings to the federal government from the Rule, primarily through a significant reduction in transfer payments to the states (including, it
should be noted, for persons who disenroll unnecessarily
because of the chilling effect), but at the same time it
expects the states to fill the gaps and continue to provide
critical services such as preventive healthcare. See,
e.g., id. at 41385 (“In addition, local health centers and
state health departments provide preventive services
that include vaccines that may be offered on a sliding
scale fee based on income. Therefore, DHS believes that
vaccines would still be available for children and adults
even if they disenroll from Medicaid.”). It assumes
this while simultaneously denying that the Rule will
have “substantial direct effects on the States, on the relationship between the Federal Government and the
States, or on the distribution of power and responsibilities among the various levels of government.” Id. at
41481.
Cook County also asserts that DHS failed to give a
logical rationale for its chosen durational threshold. In
its notice of proposed rulemaking, DHS proposed an array of thresholds that would apply before benefits can
be counted against a noncitizen in the public charge
analysis. Those lines came under sharp criticism for
being arbitrary, confusing, and an unacceptable proxy
for undue reliance on public support. Id. at 41357-58.

38a
In the final Rule, DHS opted for the single threshold
for both monetizable and nonmonetizable benefits of 12
months (stacked) over a 36-month period. It touted
this approach as “particularly responsive to public comments that communicated concerns about the complexity of the bifurcated standard and lack of certainty.”
Id. at 41358. It also asserted that the 12/36 standard
“is consistent with DHS’s interpretation of the term
’public charge.’ ” Id. at 41359. DHS equates the term
“public charge” with a lack of “self-sufficiency” and it
regards anyone who fails its test as not self-sufficient.
Id. It defends its stacking mandate on the theory that
it “ensures that aliens who receive more than one public
benefit (which may be more indicative of a lack of selfsufficiency, with respect to the fulfillment of multiple
types of basic needs) reach the 12-month limit faster.”
Id. at 41361. DHS concluded that the bright-line rule
“provides meaningful guidance to aliens and adjudicators, . . . accommodates meaningful short-term and
intermittent access to public benefits, and . . . does
not excuse continuous or consistent public benefit receipt that denotes a lack of self-sufficiency.” Id.
This explains how DHS incorporated its understanding of “self-sufficiency” into the Rule. But we still have
a textual problem. The INA does not call for total selfsufficiency at every moment; it uses the words “public
charge.” DHS sees “lack of complete self-sufficiency”
and “public charge” as synonyms: in its view, receipt
of any public benefit, particularly one related to core
needs such as health care, housing, and nutrition, shows
that a person is not self-sufficient. See id. at 41356.
This is an absolutist sense of self-sufficiency that no person in a modern society could satisfy; everyone relies
on nonmonetary governmental programs, such as food

39a
safety, police protection, and emergency services.
DHS does not offer any justification for its extreme
view, which has no basis in the text or history of the
INA. As we explained earlier, since the first federal
immigration law in 1882, Congress has assumed that immigrants (like others) might face economic insecurity at
some point. Instead of penalizing immigrants by denying them entry or the right to adjust status, Congress
built into the law accommodations for that reality.
Also, as numerous commenters on the Rule pointed out,
the benefits it covers are largely supplemental and not
intended to be, or relied upon as, a primary resource for
recipients. Many recipients could get by without them,
though as a result they would face greater health, nutrition, and housing insecurity, which in turn would likely
harm their work or educational attainment (and hence
their ability to be self-sufficient).
Finally, Cook County contends that the Rule adds
irrational factors into the public-charge assessment,
including family size, mere application for benefits,
English-language proficiency, lack of disability, and
good credit history. With respect to language, we note
the obvious: someone whose English is limited on the
date of entry may be entirely competent five years later,
when the person first becomes eligible for benefits under the Welfare Reform Act and related laws. In almost all cases, an immigration official making a determination about whether someone is likely to become a
public charge will be speculating about that person’s
family size, linguistic abilities, credit score, and the like
no fewer than five years in the future.

40a
Even if we grant that these new factors carry some
minimal probative value, it is unclear to us, and DHS nowhere explains, how immigration officials are supposed
to make these predictions in a nonarbitrary way. Worse,
for many people the relevant time is not five years—it is
eternity, because the Rule calls for officials to guess
whether an immigrant will become a public charge at
any time. There is a great risk that officials will make
their determination based on stereotype or unsupported
assumptions, rather than on the type of objective facts
called for by the Act (age, present health, family status,
financial situation, and education or skills).
DHS also never explains why it chose not to take into
account the possibility that an immigrant might, at some
point in the future, be able to repay the value of public
benefits received. Someone who seeks to adjust status
will be penalized for having previously received public
benefits without being given the opportunity to refund
the government the cost of those benefits. This is new:
the regulations governing deportation on public-charge
grounds require a demand and a failure to pay. See 64
Fed. Reg. at 28691.
All of this convinces us that this Rule is likely to fail
the “arbitrary and capricious” standard. The Rule has
numerous unexplained serious flaws: DHS did not adequately consider the reliance interests of state and local governments; did not acknowledge or address the
significant, predictable collateral consequences of the
Rule; incorporated into the term “public charge” an understanding of self-sufficiency that has no basis in the
statute it supposedly interprets; and failed to address

41a
critical issues such as the relevance of the five-year waiting period for immigrant eligibility for most federal benefits.
B.

Other Criteria for Preliminary Injunction

We have spent most of our time on likelihood of success on the merits, because that is the critical factor
here. We add only a few words about the other requirements for preliminary relief. Cook County had to show
that it is likely to suffer irreparable harm in the absence
of preliminary relief; that legal remedies are inadequate;
and that the balance of equities tips in their favor. The
district court found that it did so.
As we noted earlier, Cook County has shown that the
Rule will cause immigrants, including those not covered
by the Rule, to disenroll from, or refrain from enrolling
in, federal Medicaid and state-level public health programs. This already has led to reduction in rates of
preventive medicine and caused immigrants to rely on
uncompensated emergency care from Cook County’s
hospital system; the record supports the prediction that
those harms will only get worse. The result for the
County will be a significant increase in costs it must bear
and a higher county-wide risk of vaccine-preventable
and other communicable diseases for its population as a
whole. The record also supports the district court’s
finding that Cook County will have to divert resources
away from existing programs to respond to the effects
of the Rule.
The district court was also on solid ground in finding
that Cook County lacks adequate legal remedies for the
injuries imposed by the Rule. The APA provides a limited waiver of the United States’ sovereign immunity

42a
and supports a claim for a challenge to agency action,
but only to the extent that the plaintiffs “seek relief
other than money damages.” 5 U.S.C. § 702. There is
thus no post-hoc legal remedy available to Cook County
to redress the financial harms it stands to suffer as a result of the Rule. It is injunctive relief or nothing.
With respect to the balance of harms, we must take
account of the Supreme Court’s decision to stay the preliminary injunction entered by the district court. The
Court’s stay decision was not a merits ruling. To succeed in obtaining a stay from the Supreme Court, an applicant “must demonstrate (1) a reasonable probability
that four Justices will consider the issue sufficiently
meritorious to grant certiorari or to note probable jurisdiction; (2) a fair prospect that a majority of the Court
will conclude that the decision below was erroneous; and
(3) a likelihood that irreparable harm will result from
the denial of a stay.” Conkright v. Frommert, 556 U.S.
1401, 1402 (2009) (Ginsburg, J., in chambers). Stays,
the Court tells us, are “granted only in extraordinary
cases.” Id. We do not know why the Court granted this
stay, because it did so by summary order, but we assume
that it abided by the normal standards. Consequently,
the stay provides an indication that the Court thinks
that there is at least a fair prospect that DHS should
prevail and faces a greater threat of irreparable harm
than the plaintiffs.
The stay thus preserves the status quo while this case
and others percolate up from courts around the country.
There would be no point in the merits stage if an issuance of a stay must be understood as a sub silentio disposition of the underlying dispute. With the benefit of

43a
more time for consideration and the complete preliminary injunction record, we believe that it is our duty to
evaluate each of the preliminary injunction factors, including the balance of equities. In so doing, we apply a
“sliding scale” approach in which “the more likely the
plaintiff is to win, the less heavily need the balance of
harms weigh in his favor; the less likely he is to win, the
more need it weigh in his favor.” Valencia v. City of
Springfield, 883 F.3d at 966. We also consider effects
that granting or denying the preliminary injunction
would have on the public. Id.
In our view, Cook County has shown that it is likely
to suffer (and has already begun to suffer) irreparable
harm caused by the Rule. Given the dramatic shift in
policy the Rule reflects and the potentially dire public
health consequences of the Rule, we agree with the district court that the public interest is better served for
the time being by preliminarily enjoining the Rule.
IV.

Conclusion

While we disagree with the district court that this
case can be resolved at step one of the Chevron analysis,
we agree that at least Cook County has standing to sue.
We make no ruling on ICIRR’s standing, and so we have
based the remainder of our opinion on Cook County’s
situation only. The district court did not abuse its discretion or err as a matter of law when it concluded that
Cook County is likely to succeed on the merits of its APA
claims against DHS. Nor did the district court’s handling of the balance of harms and lack of alternative legal remedies represent an abuse of discretion. We therefore AFFIRM the district court’s order entering a preliminary injunction.

44a
BARRETT, Circuit Judge, dissenting.
The plaintiffs have worked hard to show that the statutory term “public charge” is a very narrow one, excluding only those green card applicants likely to be primarily and permanently dependent on public assistance.
That argument is belied by the term’s historical meaning
—but even more importantly, it is belied by the text of
the current statute, which was amended in 1996 to increase the bite of the public charge determination.
When the use of “public charge” in the Immigration and
Nationality Act (INA) is viewed in the context of these
amendments, it becomes very difficult to maintain that
the definition adopted by the Department of Homeland
Security (DHS) is unreasonable. Recognizing this, the
plaintiffs try to cast the 1996 amendments as irrelevant
to the meaning of “public charge.” That argument, however, flies in the face of the statute—which means that
despite their best efforts, the plaintiffs’ interpretive
challenge is an uphill battle that they are unlikely to win.
I therefore disagree with the majority’s conclusion
that the plaintiffs’ challenge to DHS’s definition of “public charge” is likely to succeed at Chevron step two. I
express no view, however, on the majority’s analysis of
the plaintiffs’ other challenges to the rule under the Administrative Procedure Act. The district court did not
reach them, and the plaintiffs barely briefed them.
The preliminary injunction was based solely on the district court’s interpretation of the term “public charge.”
Because its analysis was flawed, I would vacate the injunction and remand the case to the district court, where
the plaintiffs would be free to develop their other arguments.

45a
I.
There is a lot of confusion surrounding the public
charge rule, so I’ll start by addressing who it affects and
how it works. The plaintiffs emphasize that the rule
will prompt many noncitizens to drop or forgo public assistance, lest their use of benefits jeopardize their immigration status. That’s happening already, and it’s why
Cook County has standing: noncitizens who give up
government-funded healthcare are likely to rely on the
county-funded emergency room. But it’s important to
recognize that immigrants are dropping or forgoing aid
out of misunderstanding or fear because, with very rare
exceptions, those entitled to receive public benefits will
never be subject to the public charge rule. Contrary to
popular perception, the force of the rule does not fall on
immigrants who have received benefits in the past.
Rather, it falls on nonimmigrant visa holders who, if
granted a green card, would become eligible for benefits
in the future.
To see why, one must be clear-eyed about the fact
that federal law is not particularly generous about extending public assistance to noncitizens. That is not a
function of the public charge rule; it is a function of the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Pub. L. No. 104-193, 110 Stat. 2105
(1996), commonly referred to as the “Welfare Reform
Act.” Under the Act, undocumented noncitizens are
ineligible for benefits. So are nonimmigrant visa holders, a category that encompasses noncitizens granted
permission to be in the United States for a defined
period—think of tourists, students, and temporary
workers. See 8 U.S.C. §§ 1611(a), 1621(a), 1641(b) (excluding undocumented noncitizens and nonimmigrant

46a
visa holders from the list of noncitizens “qualified” for
government benefits).1 Because of these restrictions,
many noncitizens are altogether ineligible for the benefits relevant to a public charge determination.
Only two major groups are statutorily eligible to receive the benefits that the public charge rule addresses,
and the rule has little to no effect on either. The first
group is certain especially vulnerable populations—
refugees and asylees, among others. Congress has entitled these vulnerable noncitizens to public assistance,
8 U.S.C. § 1641(b), and exempted them from the public
charge exclusion, id. §§ 1157(c)(3), 1159(c).
That
means that their need for aid is not considered when

There are some narrow exceptions, but they are irrelevant to the
“public charge” determination. All noncitizens, including the undocumented, are eligible to receive short-term, in-kind emergency
disaster relief; certain forms of emergency medical assistance; publichealth assistance for immunization, as well as treatment for the symptoms of communicable disease; other in-kind services such as soup
kitchens and crisis counseling; and housing benefits to the extent
that the noncitizen was receiving public housing prior to 1996.
8 U.S.C. §§ 1611(b), 1621(b). Other than the housing benefits, none
of this aid counts under the rule’s definition of a “public benefit,” so
none has any effect on any future adjustment-of-status proceeding.
See 8 C.F.R. § 212.21; see also Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292, 41,313 (Aug. 14, 2019) (noting that the
rule’s “definition does not include benefits related exclusively to
emergency response, immunization, education, or social services”);
id. at 41,482 (explaining that the rule’s definition “does not include
emergency aid, emergency medical assistance, or disaster relief ”).
And while housing benefits are covered by the public charge rule,
8 C.F.R. § 212.21, they are largely irrelevant because the number of
noncitizens still within the grandfathering provision has presumably
dwindled dramatically in the quarter century since the Welfare Reform Act was passed.
1

47a
they are admitted to the United States, nor is their actual receipt of aid considered in any later adjustment-ofstatus proceeding. The public charge rule is entirely
irrelevant to the most vulnerable.
The second group eligible for benefits is lawful permanent residents, often referred to as green card holders, and the rule is almost entirely irrelevant to them
too. Here’s why: The public charge exclusion applies
to noncitizens at the admission stage or an adjustmentof-status proceeding. Id. § 1182(a)(4)(A). (“Admission” is a term of art referring to “the lawful entry of the
alien into the United States after inspection and authorization by an immigration officer.” Id. § 1101(a)(13)(A).)
Lawful permanent residents have already been admitted to the United States, and they already possess the
most protected immigrant status. They are therefore
not subject to the public charge exclusion unless they
jeopardize their lawful permanent residency. See id.
§ 1101(a)(13)(C) (describing the narrow circumstances
in which lawful permanent residents are considered to
be “seeking an admission”). Most relevant here, a green
card holder who leaves the country for more than 180
days puts her residency in question and might need to
“seek[] an admission” upon returning to the United
States. Id. § 1011(a)(13)(C)(iii). If she used benefits
prior to her departure, then her use of those benefits
might count against her at reentry. But this consequence is easy to avoid by keeping trips abroad shorter
than six months. It’s also worth noting that a lawful
permanent resident is eligible to receive very few benefits until she has been here for five years—which is
the point at which she is eligible for citizenship. Id.
§ 1427(a). Naturalization eliminates even the small
risk that a lawful permanent resident would ever face

48a
the admission process again. Notably, the rule doesn’t
apply at the naturalization stage. See id. § 1429.
The upshot is that the public charge rule will rarely
apply to a noncitizen who has received benefits in the
past. 2 Indeed, in the Second Circuit case challenging
this same rule, both the government and the plaintiffs
conceded as much. When pressed to identify who could
be penalized under the public charge rule for using
benefits, neither side identified any example other than
the 180-day departure of a lawful permanent resident.
See Oral Argument at 36:06-38:47, 1:03:45-1:04:40,
New York v. U.S. Dep’t of Homeland Sec., Nos. 19-3591,
19-3595 (2d Cir. Mar. 2, 2020), https://www.c-span.org/
video/?469804-1/oral-argument-trump-administrationpublic-charge.
Notwithstanding all of this, many lawful permanent
residents, refugees, asylees, and even naturalized citizens have disenrolled from government-benefit programs
since the public charge rule was announced. Given the
complexity of immigration law, it is unsurprising that
many are confused or fearful about how the rule might
apply to them. Still, the pattern of disenrollment does
not reflect the rule’s actual scope. Focusing on the
source of Cook County’s injury can therefore be misleading.
That does not mean, however, that the rule has no effect. Even though it is almost entirely inapplicable to
Hence the majority is wrong to treat the rule as unreasonable
because it “set[s] a trap for the unwary.” Maj. Op. at 29. Because
those eligible for the designated benefits are not subject to the
rule—except in very rare circumstances—it does not “penaliz[e] people for accepting benefits Congress made available to them.” Id.
2

49a
those currently eligible for benefits, it significantly affects a different group: nonimmigrant visa holders applying for green cards. Recall that nonimmigrant visa
holders, unlike lawful permanent residents and those
holding humanitarian-based visas, are ineligible for the
relevant benefits in their current immigration status.
If granted lawful permanent residency, though, they
would become eligible for these benefits in the future.
The public charge rule is concerned with what use a
green card applicant would make of this future eligibility. As a leading treatise puts it, the public charge determination is a “prophetic” one. 5 CHARLES GORDON
ET AL., IMMIGRATION LAW AND PROCEDURE § 63.05[3]
(2019). If DHS predicts that an applicant is likely to
rely too heavily on government assistance, it will deny
her lawful permanent residency on the ground that she
is likely to become a public charge. This case is about
whether DHS has defined “public charge” too expansively and is therefore turning too many noncitizens
away.
There are four major routes to obtaining the status
of lawful permanent resident: humanitarian protection (refugees and asylees), the sponsorship of a family
member, employment, and winning what is known as the
green card lottery. 3 See U.S. DEP’T OF HOMELAND SEC.,
OFFICE OF IMMIGRATION STATISTICS, ANNUAL FLOW
REPORT: LAWFUL PERMANENT RESIDENTS 3-4 (2018),
https://www.dhs.gov/sites/default/files/publications/Lawful

The diversity visa, commonly referred to as the green card lottery, is awarded to foreign nationals from underrepresented countries in an effort to increase diversity within the United States.
See 8 U.S.C. § 1153(c).
3

50a
_Permanent_Residents_2017.pdf. Those seeking humanitarian protection are not subject to the statutory
provision rendering inadmissible any “alien who . . .
is likely at any time to become a public charge,” 8 U.S.C.
§ 1182(a)(4)(A), and only a subset of those in the remaining three categories will be subject to the DHS rule.
That is because DHS only handles the applications of
noncitizens who apply from within the United States;
the State Department processes the applications of noncitizens who apply from abroad. 4 This division of authority means that, as a practical matter, the regulation
applies to those present in the United States on nonimmigrant visas who seek to adjust their status to that of
lawful permanent residents. And because the green
card lottery is processed almost entirely by the State
Department, the DHS rule applies primarily to employmentbased applicants and family-based applicants (by
far the larger of these two groups). 5

4
The State Department has adopted the interpretation set forth
in this rule, but its implementation of the public charge exclusion
is not at issue in this case. See Visas: Ineligibility on Public Charge
Grounds, 84 Fed. Reg. 54,996, 55,000 (Oct. 11, 2019).
5
In 2019, approximately 572,000 noncitizens adjusted their
status to that of lawful permanent residents. The largest group
—roughly 330,000—were family based, and the majority of those
(over 217,000) were spouses of U.S. citizens. About 111,000 were
employment based, and only about 1,000 were lottery winners.
The vast majority of the remaining 130,000 noncitizens—refugees
and asylees, among others—were exempt from the public
charge rule. See Legal Immigration and Adjustment of Status
Report Data Tables: FY 2019, U.S. DEP’T HOMELAND SECURITY
tbl.1B (Jan. 15, 2020), https://www.dhs.gov/immigration-statistics/
readingroom/special/LIASR#.

51a
As nonimmigrant visa holders, these applicants have
not previously been eligible for the benefits designated
by DHS’s rule—so the determination is not a backwardlooking inquiry into whether they have used such benefits in the past. Instead, it is a forward-looking inquiry
into whether they are likely to use such benefits in the
future. The rule guides this forward-looking inquiry.
Under the 1999 Guidance, an applicant was excluded
only if she was likely to be institutionalized or primarily
dependent on government cash assistance for the long
term. Field Guidance on Deportability and Inadmissibility on Public Charge Grounds, 64 Fed. Reg. 28,689,
28,689 (Mar. 26, 1999). Now, DHS considers the applicant’s potential usage not only of cash assistance for income maintenance (including Temporary Assistance for
Needy Families (TANF), Supplemental Security Income (SSI), and state cash assistance), but also of the
Supplemental Nutrition Assistance Program (SNAP),
the Section 8 Housing Choice Voucher Program, Section
8 project-based rental assistance, housing benefits under Section 9, and Medicaid (with some explicit exceptions). 8 C.F.R. § 212.21. And if DHS concludes that
an applicant is likely to use more than 12 months’ worth
of these benefits—with the use of 2 benefits in 1 month
counting as 2 months—it will deem her “likely to become
a public charge” and deny the green card. Id.
This heightened standard for admissibility is a significant change—but it’s not the one that the plaintiffs’ emphasis on disenrollment suggests. Evaluating the rule
requires a clear view of what it actually does; so, with
the rule’s scope in mind, I turn to the merits.

52a
II.
While I agree with the majority’s bottom-line conclusion at Chevron step one that “public charge” does not
refer exclusively to one who is primarily and permanently dependent on government assistance, I have a little to add to the history and a lot to add to the statutory
analysis. In my view, the majority takes several wrong
turns in analyzing the statute that skew its thinking
about Chevron step two. For purposes of this Part, the
most significant is that the majority accepts the plaintiffs’ view that the 1996 amendments to the public charge
provision were irrelevant. In what follows, I’ll lay out
my own analysis of the plaintiffs’ arguments, which will
explain why I wind up in a different place than the majority does on the reasonableness of DHS’s interpretation of the statute.
The plaintiffs advance three basic arguments as to
why the term “public charge” refers exclusively to one
who is “primarily and permanently” dependent on government assistance. First, they say that the term had
that meaning when it first appeared in the 1882 federal
statute. Second, they contend that even if the term was
unsettled in the late nineteenth century, subsequent judicial and administrative decisions narrowed it, and
later amendments to the statute ratified these interpretations. Third, they argue that interpreting the term
“public charge” to encompass anything short of primary
and permanent dependence conflicts with Congress’s
choice to make supplemental government benefits available to immigrants. I’ll take these arguments in turn.

53a
A.
The plaintiffs first argue that in the late nineteenth
century, “public charge” meant primary and permanent
dependence. See New Prime Inc. v. Oliveira, 139
S. Ct. 532, 539 (2019) (“[I]t’s a ‘fundamental canon of
statutory construction’ that words generally should be
‘interpreted as taking their ordinary . . . meaning
. . . at the time Congress enacted the statute.’ ” (citation omitted)). Evaluating this argument requires
careful consideration of a term with a long history.
The term “public charge” was borrowed from state
“poor laws,” which were in turn modeled on their English counterparts.
HIDETAKA HIROTA, EXPELLING
ATLANTIC SEABOARD STATES AND THE
THE POOR:
NINETEENTH-CENTURY ORIGINS OF AMERICAN IMMIGRATION POLICY 43-47 (2017). Early poor laws used
“public charge” synonymously with “public expense,”
referring to any burden on the public fisc. Thus, when
someone sought assistance from a city or county overseer of the poor, the cost of the relief provided was entered on the overseer’s books as a public charge—that
is, an expense properly chargeable to, and therefore
funded by, the public. Over time, the term “public
charge” came to refer (at least in the context of poor relief and immigration laws) not only to expenditures
made under the poor laws, but also to the people who
depended on these expenditures. 6

This is why nineteenth-century dictionary definitions of “charge”
are unhelpful. The words “public” and “charge” comprise a unit that
must be understood in the context of the laws that used the phrase.
Cf. Yates v. United States, 135 S. Ct. 1074, 1082 (2015) (“[A]lthough
6

54a
State legislatures, worried about the burden that
destitute immigrants might place on programs to aid the
needy, co-opted the poor-law language into immigration
legislation. In 1847, New York created an administrative apparatus for dealing with the influx of immigrants.
The new “Commissioners of Emigration” were tasked
with examining incoming passengers to determine if
“there shall be found among such passengers, any lunatic, idiot, deaf and dumb, blind or infirm persons . . .
who, from attending circumstances, are likely to become
permanently a public charge”—language, incidentally,
that suggests that one could be a public charge either
temporarily or permanently. Act of May 5, 1847, ch.
195, § 3, 1847 N.Y. Laws 182, 184. These individuals
were permitted to land in the state upon payment of a
bond by the vessel’s master “to indemnify . . . each
and every city, town and county within this state, from
any cost or charge . . . for the maintenance or support of the person . . . within five years.” Id. The
bonds paid for the landing of these immigrants were
then used to pay for the state immigration infrastructure, including the provision of some temporary aid to
new arrivals. Two years later, the state expanded the
category of people for whom a bond was required. Still
excluded were those “likely to become permanently a
public charge” but also those “who have been paupers in
any other country, or who from sickness or disease, existing at the time of departing from the foreign port, are
or are likely to soon become a public charge.” Act of
Apr. 11, 1849, ch. 350, § 3, 1849 N.Y. Laws 504, 506. By
1851, the New York statute contained the language
dictionary definitions of the words ‘tangible’ and ‘object’ bear consideration, they are not dispositive of the meaning of ‘tangible object’. . . . ”).

55a
which would be included in both the 1882 and 1891 federal statutes. Gone was the reference to those “likely
to become permanently a public charge,” replaced by
phrases referring to someone “unable to take care of
himself or herself without becoming a public charge”
and someone “likely to become a public charge.” Act of
July 11, 1851, ch. 523, § 4, 1851 N.Y. Laws 969, 971. In
the event that a bond was unpaid, New York—and Massachusetts, which enacted a substantially similar law—
ordered the exclusion of those immigrants deemed
“likely to soon become a public charge.” HIROTA, supra, at 71-72.
The bond system was held unconstitutional by the
U.S. Supreme Court on the ground that that the power
to tax incoming foreign passengers “has been confided
to Congress by the Constitution.” Henderson v. Mayor
of New York, 92 U.S. 259, 274 (1876). The decision
threw the state systems into uncertainty and created demand for federal legislation, largely to reenact the defunct state policies and to replace the lost funding.
Since the states could no longer fund their immigration
systems using state bonds, the 1882 federal statute levied “a duty of fifty cents for each and every passenger
not a citizen of the United States” arriving by sea; this
was to “constitute a fund . . . to defray the expense
of regulating immigration . . . and for the care of
immigrants arriving in the United States, for the relief
of such as are in distress.” Act of Aug. 3, 1882, ch. 376,
§ 1, 22 Stat. 214, 214. The first federal statute therefore filled the space left by the now-ineffective state
laws: it used funds raised from the immigrants or their
carriers to provide some care for the newly arrived,
while describing criteria for excluding those likely to fi-

56a
nancially burden state and local governments. Because the term “public charge” had been pulled directly
from the state statutes, it presumably had the same
meaning that it had come to have under the state laws:
someone who depended, or would likely depend, on
poor-relief programs.
But when the term “public charge” was imported into
federal law, it was unclear how much state aid qualified
someone as a “public charge.” Neither state poor laws
nor state immigration laws defined “public charge,” and
no clear definition emerged in judicial opinions or secondary sources, either. Early efforts to enforce the
1882 statute bear out the uncertainty surrounding the
term. In 1884, an association of ten steamship companies asked the Secretary of the Treasury, on whom responsibility for immigration fell at the time, to “specifically define . . . the circumstances which shall constitute ‘a person unable to take care of himself or herself
without becoming a public charge,’ and who shall not be
permitted to land under . . . the [1882] act.” SYNOPSIS OF THE DECISIONS OF THE TREASURY DEPARTMENT ON THE CONSTRUCTION OF THE TARIFF, NAVIGATION, AND OTHER LAWS FOR THE YEAR ENDED DECEMBER 31, 1884, at 365 (1885). (The steamship companies
had a stake because they were on the hook for the
noncitizen’s return ticket if she was rejected as a likely
public charge.) The Secretary demurred, answering
that “the determination of the liability of arriving immigrants to become public charges is vested . . . in the
commissioners of immigration appointed by the State in
which such immigrants arrive,” and thus “this Department must decline to interfere in the matter.” Id.
One year later, Treasury continued to recognize that
“difficulties have arisen in regard to the construction of

57a
so much of section 2 of [the 1882 act] . . . as refers
to the landing of convicts, lunatics, idiots, or persons unable to take care of themselves without becoming a public charge,” though it still refused to offer clarification.
SYNOPSIS OF THE DECISIONS OF THE TREASURY DEPARTMENT ON THE CONSTRUCTION OF THE TARIFF, NAVIGATION, AND OTHER LAWS FOR THE YEAR ENDING DECEMBER 31, 1885, at 359 (1886).
The term was not necessarily clarified in 1891, when
immigration-enforcement authority was placed directly
in the hands of federal officials. (From 1882 until Congress enacted the Immigration Act of 1891, states had
continued to administer immigration enforcement, albeit under authority conferred by the federal statute.)
With the change in administration, the steamship companies continued to express confusion, informing Treasury officials that the phrase “was somewhat indefinite
and [that they] desired to have a more specific explanation of its meaning.” 1 LETTER FROM THE SECRETARY
OF THE TREASURY, T RANSMITTING A REPORT OF THE
COMMISSIONERS OF I MMIGRATION UPON THE CAUSES
WHICH INCITE IMMIGRATION TO THE UNITED STATES
109 (1892). At this point, Treasury offered an answer,
but it was hardly clarifying. Pressed by Congress to
describe the standards used by officials to determine
whether an immigrant was “likely to become a public
charge,” the Assistant Secretary in 1892 responded that
“written instructions and an inflexible standard would
be inapplicable and impracticable . . . and the sound
discretion of the inspection officer, subject to appeal as
prescribed by law, must be the chief reliance.” H.R.
REP. NO. 52-2090, at 4 (1892).

58a
Rather than conveying something narrow and definite, the term “public charge” seemed to refer in an imprecise way to someone who lacked self-sufficiency and
therefore burdened taxpayers. Explanations of the
term offered in a congressional hearing by John Weber,
the first commissioner of immigration at Ellis Island, illustrate the point. He explained that “[t]he appearance of the man, his vocation, his willingness to work, his
apparent industry, and the demand for the kind of work
that he is ready to give, is what governs” whether an individual was likely to become a public charge. Id. at
359. When asked whether an immigrant would be considered likely to become a public charge if “it is necessary that a private charity shall furnish food and lodging
. . . for a period long or short after landing,” Weber
responded that such a person would likely be considered
a public charge, but that it would not violate the statute
to allow him to land so long as it was obvious that he
would be “supported on private charity only up to the
time when [he got] employment, which may only be until
the next day.” Id. at 425.
The repeated requests for clarification from steamship operators and Congress, coupled with Treasury’s
reluctance to provide a concrete answer, indicate that
the term did not have a definite and fixed meaning.
That is unsurprising in the context of the time: it
would have been difficult to have a one-size-fits-all definition of how much aid was too much, because there was
not a one-size-fits-all system of welfare. Poor relief
was largely handled by towns and counties, which made
their own choices about how to deliver aid. Most localities deployed “outdoor relief ”—in-kind and cash support without institutionalization.
See MICHAEL B.
KATZ, IN THE SHADOW OF THE POORHOUSE: A SOCIAL

59a
HISTORY OF WELFARE IN AMERICA 37 (1986) (“[P]oorhouses did not end public outdoor relief. With a few
exceptions, most towns, cities, and counties helped more
people outside of poorhouses than within them.”). Other
areas were more reliant on “indoor” relief in the form of
poorhouses. Id. at 16-18. Some used a mixed system,
adjusting the provision of indoor and outdoor relief as
poorhouse populations ebbed and flowed. Id. at 39.
And while the plaintiffs treat residence in a poorhouse as
a proxy for primary and permanent dependence, that’s
not how poor-houses worked—they housed a mix of the
permanently and temporarily dependent, serving as
“both a short-term refuge for people in trouble and a
home for the helpless and elderly.” Id. at 90.
The bottom line is that in the closing decades of the
nineteenth century, several different forms of public relief existed contiguously. And when nineteenth-century
immigration officials determined whether someone was
“likely to become a public charge,” dependence on a particular kind or amount of relief does not appear to have
been dispositive. Rather than serving as shorthand for
a certain type or duration of aid, the term “public charge”
referred to a lack of self-sufficiency that officials had
broad discretion to estimate. Neither state legislatures
nor Congress pinned down the term any more than that.
B.
The plaintiffs have a backup argument: even if the
term was unsettled in the late nineteenth century, they
claim that it became settled in the twentieth. According to the plaintiffs, courts and administrative agencies
repeatedly held that “public charge” meant one who is
“primarily and permanently dependent” on the government, and Congress ratified this settled meaning in its

60a
many reenactments of the public charge provision. See
WILLIAM N. ESKRIDGE JR., INTERPRETING LAW: A
PRIMER ON HOW TO R EAD STATUTES AND THE CONSTITUTION app. at 421 (2016) (“When Congress reenacts a
statute, it incorporates settled interpretations of the
reenacted statute.”). Thus, the plaintiffs say, whatever
uncertainty may have surrounded the term in 1882,
there was no uncertainty when Congress reenacted the
provision. And because Congress reenacted the provision many times—in 1891, 1907, 1917, 1952, 1990, and
1996—the plaintiffs canvass a century’s worth of judicial
and administrative precedent in an effort to show that a
consensus existed before at least one of these reenactments.
The bar for establishing a settled interpretation is
high: at the time of reenactment, the judicial consensus
must have been “so broad and unquestioned that we
must presume Congress knew of and endorsed it.” Jama
v. Immigration & Customs Enf ’t, 543 U.S. 335, 349 (2005).
The plaintiffs rely heavily on Gegiow v. Uhl, 239 U.S. 3
(1915), to establish this consensus, but I share the majority’s view that Gegiow doesn’t do the work that the
plaintiffs want it to. In that case, the Court did not define “public charge” other than to say that it cannot be
defined with reference to labor conditions in the city in
which an immigrant intends to settle. The Court concluded that immigrant arrivals “are to be excluded on
the ground of permanent personal objections accompanying them irrespective of local conditions unless the
one phrase before us [public charge] is directed to different considerations than any other of those with which
it is associated.” Id. at 10. In other words, classifying
someone as a likely “public charge” does not depend on
whether he is bound for Portland or St. Paul. The

61a
Court did not define the degree of reliance that renders
someone a “public charge,” because that was not the
question before it. Thus, Gegiow neither binds us nor
offers a definition that Congress could have ratified. 7
Without Gegiow, the plaintiffs face an uphill battle
because satisfying the requirements of the reenactment
canon typically requires at least one Supreme Court decision. See, e.g., Forest Grove Sch. Dist. v. T.A., 557
U.S. 230, 244 n.11 (2009); Cannon v. Univ. of Chi., 441
U.S. 677, 699 (1979). And for the reasons that the majority gives, this is not the rare case in which lower court
and administrative decisions are enough to demonstrate
a consensus. See Maj. Op. at 21-22; see also William N.
Eskridge, Jr., Interpreting Legislative Inaction, 87
MICH. L. REV. 67, 83 (1988) (“[T]he Court often will not
incorporate lower court decisions into a statute through
the reenactment rule.”); cf. Tex. Dep’t of Hous. & Cmty.
Affairs v. Inclusive Cmtys. Project, Inc., 135 S. Ct. 2507,
2520 (2015) (applying the reenactment canon in light of
“the unanimous holdings of the Courts of Appeals”)
(emphasis added).

It is worth noting that even after Gegiow, state and local governments took varied positions on what it meant for an immigrant
to be a public charge. For instance, in the 1920s, Los Angeles
worked closely with charitable institutions to report as public
charges immigrants who were receiving outdoor relief. Cybelle
Fox, The Boundaries of Social Citizenship: Race, Immigration
and the American Welfare State, 1900-1950, at 266-67 (May 7, 2007)
(unpublished Ph.D. dissertation, Harvard University). But other
jurisdictions rarely reported immigrants who were receiving only
outdoor relief—for example, as early as the 1920s, Cook County
developed its own local policy to not “deport when the necessity for
public care [was] only temporary.” Id. at 278.
7

62a
In any event, the reenactment canon requires more
than a judicial consensus—it applies only if Congress
reenacted the provision without making material changes.
Jama, 543 U.S. at 349; see also Holder v. Martinez
Gutierrez, 566 U.S. 583, 593 (2012) (“[T]he doctrine of
congressional ratification applies only when Congress
reenacts a statute without relevant change.”). Whatever one thinks of earlier changes to the public charge
provision, there can be no doubt that the 1996 amendments were material.
The INA is notoriously complex, and these amendments are no exception. Making matters worse, the
amendments came from two separate acts, themselves
incredibly complex, that were passed a month apart:
the Welfare Reform Act, Pub. L. No. 104-193, 110 Stat.
2105 (1996), and the Illegal Immigration Reform and
Immigrant Responsibility Act, Pub. L. No. 104-208, 110
Stat. 3009-546 (1996) (IIRIRA). But because the plaintiffs challenge the materiality of these amendments to
the meaning of the term “public charge,” it is necessary
to step through them at a level of detail that is, unfortunately, excruciating.
Congress enacted IIRIRA, which made sweeping
changes to the INA, in September of 1996. Among its
changes were several material amendments to the public charge provision. For the first time in the provision’s 114-year history, Congress required the Executive to consider an itemized list of factors in making the
public charge determination, thereby ensuring that the
inquiry was searching rather than superficial. See
8 U.S.C. § 1182(a)(4)(B)(i) (providing that “the consular
officer or the Attorney General shall at a minimum consider” the noncitizen’s age; health; family status; assets,

63a
resources, and financial status; and education and
skills). Even more significantly, it added a subsection
to the public charge provision rendering most familysponsored applicants automatically inadmissible on
public charge grounds unless they obtained an enforceable affidavit of support from a sponsor (usually
the family member petitioning for their admission).
Id. § 1182(a)(4)(C) (rendering a family-sponsored noncitizen “in-admissible under this paragraph” unless the
sponsor executes an “affidavit of support described in
[8 U.S.C. § 1183a] with respect to such alien”). 8 The
affidavit provision had been inserted into the INA weeks
earlier by the Welfare Reform Act. See Welfare Reform Act § 423. In addition to making the affidavit of
support mandatory under the public charge provision,
IIRIRA significantly expanded 8 U.S.C. § 1183a by
spelling out what the affidavit of support requires.
The affidavit provision is meant to establish that
the applicant “is not excludable as a public charge.”
8 U.S.C. § 1183a(a)(1). To that end, it empowers the
federal government, as well as state and local governments, to demand reimbursement from the sponsor for
any means-tested public benefit received by the sponsored noncitizen. 9 Id. § 1183a(b)(1)(A). A “meanstested public benefit” is one available to those whose in-

IIRIRA originally provided that a family-based applicant was
“excludable” without the affidavit. IIRIRA § 531(a). A subsequent amendment to the INA changed the terminology from “excludable” to “inadmissible.”
9
It also requires the sponsor “to maintain the sponsored alien at
an annual income that is not less than 125 percent of the Federal
poverty line.” 8 U.S.C. § 1183a(a)(1)(A).
8

64a
come falls below a certain level. The provision explicitly excludes certain benefits, regardless of whether
they are means tested, from the sponsor’s reimbursement obligation; by implication, receipt of every other
means-tested benefit is included.
See id. § 1183a
note. 10 If the sponsor doesn’t pay upon request, the government can sue the sponsor. Id. § 1183a(b)(2). If
the sponsor doesn’t keep “the Attorney General and the
State in which the sponsored alien is currently a resident” apprised of any change in the sponsor’s address,
she is subject to a civil penalty—and that penalty is
higher if she fails to update her address “with knowledge that the sponsored alien has received any meanstested public benefits” other than those described in
three
crossreferenced provisions of the Welfare Reform Act. Id.
§ 1183a(d). 11 The affidavit is generally enforceable for
ten years or until the sponsored noncitizen is naturalized. Id. § 1183a(a)(2).12
I discuss these exemptions, which are narrow, in my analysis
at Chevron step two.
11
This list of exempted benefits in the change-of-address penalty
section largely track those in the “benefits subject to reimbursement” section.
12
IIRIRA contained another provision relevant to the “public
charge” ground of inadmissibility: section 564 of the Act directed
the Attorney General to establish a pilot program “to require aliens
to post a bond in addition to the affidavit requirements under
[8 U.S.C. § 1183a].” IIRIRA § 564(a)(1). The bond covered the
cost of benefits described in the affidavit provision—that is, any
means-tested benefit other than those described in three crossreferenced provisions of the Welfare Reform Act. Id. Congress
instructed the Attorney General to set the bond at “an amount that
is not less than the cost of providing [the relevant benefits] for the
alien and the alien’s dependents for 6 months.” Id. § 564(b)(2).
10

65a
Notwithstanding IIRIRA’s obvious—and obviously
significant—amendments to the public charge provision, the plaintiffs insist, and the majority agrees, that
its amendments reveal nothing about the scope of the
term “public charge.” Yet as I will explain below, the
1996 amendments were not only material, but they also
increased the bite of the public charge exclusion.
The plaintiffs characterize the affidavit provision as
having nothing to do with admissibility; as they see it,
the provision merely reinforces restrictions on government benefits for lawful permanent residents. They
offer two basic arguments in support of that position:
first, that the supporting-affidavit requirement appears
in a different provision than does the public charge exclusion (8 U.S.C. § 1183a, as opposed to § 1182(a)(4)),
and second, that the supporting-affidavit requirement
doesn’t apply to everyone who is subject to the public
charge exclusion.
The first argument is totally unpersuasive. The
public charge provision explicitly cross-references the
affidavit provision, thereby tying the two together, and
it makes obtaining an affidavit of support a condition of
admissibility. Id. § 1182(a)(4)(C)(ii). What’s more,
the affidavit provision expressly states that the point of
the affidavit is “to establish that an alien is not excludable as a public charge under section 1182(a)(4).” Id.
§ 1183a(a)(1). Because a family-sponsored applicant is
inadmissible as a public charge without the affidavit, the
coverage of the affidavit is very strong evidence of the
If an admitted noncitizen used a covered benefit, the government
could bring suit either on the bond or against the sponsor pursuant
to 8 U.S.C. § 1183a. IIRIRA § 564(a)(2). Congress allowed this pilot program to sunset after three years. Id. § 564(e).

66a
nature of the burden with which the public charge exclusion is concerned.13
The plaintiffs’ second argument fails too. As an initial matter, the affidavit provision—which, it bears repeating, is tied by cross-reference to the public charge
exclusion—uses the term “public charge,” and we “do[]
not lightly assume that Congress silently attaches different meanings to the same term in the same or related
statutes.” Azar v. Allina Health Servs., 139 S. Ct. 1804,
1812 (2019); see also Desert Palace, Inc. v. Costa, 539
U.S. 90, 101 (2003) (explaining that as a general rule,
“identical words used in different parts of the same act
are intended to have the same meaning” (citation omitted)). The plaintiffs don’t specify what different meaning the term “public charge” might have in the affidavit
provision; they just vaguely assert that the provision is
getting at something else. They presumably don’t
want to embrace the logical implication of their position:
that the term “public charge” means something more
stringent for family-based immigrants, who need to produce an affidavit, than it does for the others, who don’t.
In any event, this argument assumes that if the affidavit were tied to the standard of admissibility, Congress would have required one from everyone subject to
the exclusion. Its choice to require an affidavit only from
family-based immigrants, the logic goes, means that the

The same is true of IIRIRA’s pilot bond program. The required
bond protected the government against the risk that the noncitizen
would become a public charge, so the scope of its coverage is a window into the meaning of the term at the time of the 1996 amendments.
13

67a
affidavit provision can’t shed any light on the admissibility provision, which is more generally applicable.
This argument is misguided. There is an obvious
explanation for why Congress required supporting affidavits from family-based immigrants and not from
employment-based immigrants or green card lottery
winners: that is the only context in which it makes
sense to demand this assurance. A connection to a citizen or lawful permanent resident is the basis for a family-based green card. 8 U.S.C. §§ 1151(b)(2), 1153(a).
The same is not true for immigrants who obtain diversity or employment-based green cards, neither of which
is based on a personal relationship—much less a relationship close enough that someone would be willing to
take on ten years’ worth of potentially significant liability. Moreover, in the context of an employment-based
green card, a supporting affidavit would add little. The
affidavit is a means of providing the Executive with assurance that the green card applicant will not become a
public charge if admitted. The stringent criteria for an
employment-based green card provide similar assurance. Employment-based green cards are reserved
largely for those with “extraordinary ability in the sciences, arts, education, business, or athletics which has
been demonstrated by sustained national or international acclaim”; “outstanding professors and researchers” who are “recognized internationally”; “multinational executives and managers”; those who hold advanced degrees and have job offers; and entrepreneurs
prepared to invest a minimum of $1,000,000 in a venture
that will benefit the United States economy and employ
“not fewer than 10 United States citizens or [lawful permanent residents].” Id. § 1153(b)(1)-(5). Someone who

68a
meets these criteria is unlikely to have trouble supporting herself in the future. That said, if an employmentbased applicant will be working for a relative, and therefore has a family connection, the statute still requires
her to obtain a supporting affidavit—demonstrating
that the affidavit is not uniquely applicable to those
applying for family-based green cards. See id.
§ 1182(a)(4)(D).
Despite the plaintiffs’ effort to show otherwise, it
doesn’t make sense to treat the affidavit provision as an
anomalous carve-out rather than compelling evidence of
the scope of the public charge inquiry. In fact, trying
to categorize the supporting affidavit as limited by virtue of its application to family-based immigrants is a
sleight of hand, because, as the plaintiffs surely know,
the family-based category is not simply one among several to which the public charge exclusion applies. As a
practical matter, it is the category for which the exclusion matters most. The number of lottery winners is
considerably smaller than the number of family-based
immigrants, and employment-based immigrants—also a
smaller category than the family based—have other
means of demonstrating self-sufficiency.
In short, the 1996 amendments to the public charge
provision—most notably, the addition of factors to guide
the public charge determination and the insertion of the
affidavit requirement—were material. What’s more,
the affidavit provision reflects Congress’s view that the
term “public charge” encompasses supplemental as well
as primary dependence on public assistance. To establish that a family-based applicant is not excludable as a
public charge, a sponsor must promise to pay for the
noncitizen’s use of any means-tested benefit outside the

69a
itemized exclusions. Without such an affidavit, the
noncitizen is inadmissible. Congress’s attempt to aggressively protect the public fisc through the supportingaffidavit requirement is at odds with the view that it
used the term “public charge” to refer exclusively to primary and permanent dependence.
C.
Switching gears, the plaintiffs—with the support of
the House of Representatives, appearing as amicus
curiae—advance a creative structural argument for why
the term “public charge” must be interpreted narrowly:
they say that interpreting the term to include the receipt of supplemental benefits is inconsistent with Congress’s choice in the Welfare Reform Act to make such
benefits available to lawful permanent residents. According to the plaintiffs, Congress would not have authorized lawful permanent residents to receive supplemental benefits if it did not expect them to use those
benefits. And it is inconsistent with Congress’s generosity to deny someone a green card because she is likely
to take advantage of benefits for which Congress has
made her eligible. The statutory scheme therefore
forecloses the possibility of interpreting “public charge”
to mean anything other than primary and permanent dependence.
There are several problems with this argument. To
begin with, its logic would read the public charge provision out of the statute. The premise of the public
charge inquiry has always been that immigrants in need
of assistance would have access to it after their arrival—
initially through state poor laws and later through modern state and federal welfare systems. Indeed, it is difficult to imagine how someone could become a public

70a
charge under any conception of the term if it were impossible to receive public aid. For example, on the
plaintiffs’ logic, DHS could not exclude an applicant
even if it predicted that the applicant would eventually
become permanently reliant on government benefits,
because the future use of those benefits would, after all,
be authorized. Barring the Executive from considering a green card applicant’s potential use of authorized
benefits would render the statutory public charge exclusion a dead letter.
Moreover, the plaintiffs’ position assumes that tension exists between the public charge exclusion and the
availability of benefits to lawful permanent residents—
and that this tension can be resolved only by limiting the
scope of the exclusion. In fact, the public charge exclusion and the availability of benefits are easily reconcilable. Immigration law has long distinguished between
one who becomes a public charge because of a condition
preexisting her arrival and one who becomes a public
charge because of something that has happened since.
See, e.g., id. § 1227(a)(5) (“Any alien who, within five
years after the date of entry, has become a public charge
from causes not affirmatively shown to have arisen since
entry is deportable.”); Act of Mar. 3, 1891, ch. 551, § 11,
26 Stat. 1084, 1086 (”[A]ny alien who becomes a public
charge within one year after his arrival in the United
States from causes existing prior to his landing therein
shall be deemed to have come in violation of law and
shall be returned as aforesaid.”). Providing benefits to
immigrants who have been here for a designated period
of time—generally five years under current law—takes
care of immigrants in the latter situation. Life contains the unexpected: for instance, a pandemic may
strike, leaving illness, death, and job loss in its wake. A

71a
lawful permanent resident who falls on hard times can
rely on public assistance to get back on her feet. Congress’s willingness to authorize funds to help immigrants
who encounter unexpected trouble is perfectly consistent
with its reluctance to admit immigrants whose need for
help is predictable upon arrival.
In any event, the plaintiffs’ argument is inconsistent
not only with the statutory exclusion, but also with the
Welfare Reform Act. As the plaintiffs tell it, Congress
has generously supported noncitizens, thereby implicitly instructing the Executive to ignore a green card applicant’s potential usage of supplemental benefits in the
admissibility determination. But that is a totally implausible description of the Welfare Reform Act. The
stated purpose of the Act is to ensure that noncitizens
“within the Nation’s borders not depend on public resources to meet their needs, but rather rely on their own
capabilities and the resources of their families, their sponsors, and private organizations,” and that “the availability of public benefits not constitute an incentive for immigration to the United States.” 8 U.S.C. § 1601(2).
To this end, the Act renders lawful permanent residents
ineligible for most benefits until they have lived in the
United States for at least five years. Id. § 1613(a).
The Act’s dramatic rollback of benefits for noncitizens
sparked vociferous criticism. See Isabel Sawhill et al.,
Problems and Issues for Reauthorization, in WELFARE
REFORM AND BEYOND: THE FUTURE OF THE SAFETY
NET 20, 27 (Isabel Sawhill et al. eds., 2002) (referring to
the five-year aid eligibility restriction as one of the Act’s
“most contentious features”). It blinks reality to describe the Welfare Reform Act as a “grant” of benefits,

72a
as the plaintiffs do, or to say that the Act took an immigrant’s potential use of supplemental benefits off the table for purposes of the admissibility determination. 14
* * *
Given the length and complexity of my analysis of the
plaintiffs’ arguments at Chevron step one, a summary
may be helpful. In my view, the plaintiffs can’t show that
the term “public charge” refers narrowly to someone
who is primarily and permanently dependent on government assistance. The term “public charge” was broad
when it entered federal immigration law in 1882, and it
has not been pinned down since. IIRIRA, Congress’s
latest word on the public charge provision, cuts in the
opposite direction of the plaintiffs’ argument, as does
the Welfare Reform Act, which, contrary to the plaintiffs’ argument, hardly reflects a congressional desire
that immigrants take advantage of available public assistance. In fact, the amendments that IIRIRA and
the Welfare Reform Act together made to the INA reflect more than Congress’s view that the term “public

As the plaintiffs point out, Congress softened some of these restrictions in subsequent legislation. Perhaps most notably, in 2002
Congress passed the Farm Security and Rural Investment Act,
which made adults eligible for SNAP after 5 years of residency (it
had previously been 10) and children eligible for SNAP immediately after becoming lawful permanent residents. Pub. L. No.
107-171, § 4401, 116 Stat. 134, 333 (2002) (codified as amended at
8 U.S.C. § 1612(a)(2)). Yet these minor adjustments, even if slightly
more generous than the original restrictions, did not overhaul
immigration policy—nor, as I have already explained, is it unreasonable in any event for the Executive to consider whether a green
card applicant is likely to use benefits if she is permitted to stay.
That’s the point of the public charge determination.
14

73a
charge” is capacious enough to include supplemental dependence on public assistance. They reflect its preference that the Executive consider even supplemental dependence in enforcing the public charge exclusion.
III.
While the term “public charge” is indeterminate
enough to leave room for interpretation, DHS can prevail only if its definition is reasonable. The majority
holds that DHS is likely to lose on the merits of that argument; I disagree. My dissent from the majority on
this score is inevitable, given how differently we analyze
the statute at Chevron step one. The majority seems
to understand “public charge” to mean something only
slightly broader than “primarily and permanently dependent,” but I understand it to be a much more capacious term—not only as a matter of history, but also by
virtue of the 1996 amendments to the public charge provision. On my reading, in contrast to the majority’s,
the statute gives DHS relatively wide discretion to specify the degree of benefit usage that renders someone a
“public charge.” Thus, the majority and I approach
Chevron step two from different starting points.
The plaintiffs challenge the reasonableness of the
rule’s definition in two respects. First, they object to
the particular benefits that DHS has chosen to designate in its definition of “public charge.” According to
the plaintiffs, DHS has unreasonably interpreted the
statute insofar as the rule counts in-kind aid. Second,
they argue that DHS has set the relevant benefit usage
so low that the definition captures people who cannot
reasonably be characterized as “public charges.” I will
address these arguments in turn.

74a
A.
The plaintiffs don’t contest DHS’s authority to account for the receipt of state and federal cash assistance
(like SSI and TANF) in the definition of “public charge.”
But they insist that in-kind benefits (like SNAP, public
housing, and Medicaid) are off-limits. Their argument
in support of that position is difficult to grasp. In their
brief, the plaintiffs vaguely assert that in-kind benefits
shouldn’t be counted because they are categorically different from cash payments; they imply that the term
“public charge” does not encompass someone who relies
on in-kind public assistance. At oral argument, the plaintiffs wisely abandoned that position. For one thing,
they could not articulate why it mattered whether the
government chose to give someone $500 for groceries or
$500 worth of food. For another, that argument is inconsistent with history: everyone agrees that someone
living permanently in a late nineteenth-century poorhouse qualified as a public charge, and shelter in a poorhouse is in-kind relief.
At least rhetorically, a great deal of the plaintiffs’ argument involves their repeated emphasis on the fact
that the 1999 Guidance directed officers “not [to] place
any weight on the receipt of non-cash public benefits
(other than institutionalization) or the receipt of cash
benefits for purposes other than for income maintenance.” 1999 Guidance, 64 Fed. Reg. at 28,689. The
implication is that the 1999 Guidance reflects the only
reasonable interpretation of the statute.
Of course, the fact that a prior administration interpreted a statute differently does not establish that the
new interpretation is unreasonable—the premise of Chev-

75a
ron step two is that more than one reasonable interpretation of the statute exists. See Chevron U.S.A. Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 863-64 (1984)
(“An initial agency interpretation is not instantly carved
in stone. On the contrary, the agency, to engage in informed rulemaking, must consider varying interpretations and the wisdom of its policy on a continuing basis.”). Moreover, the focus on cash benefits in the 1999
Guidance flowed from the Immigration and Naturalization Service’s decision to interpret “public charge” to
mean “primarily dependent on the government for subsistence.” 1999 Guidance, 64 Fed. Reg. at 28,692. As
the Guidance explained, INS had decided “that the best
evidence of whether an alien is primarily dependent on
the government for subsistence is either (i) the receipt
of public cash assistance for income maintenance, or (ii)
institutionalization for long-term care at government expense.” Id. DHS has now taken a different approach —
it has decided that projected reliance on government
benefits need not be primary to trigger the public charge
exclusion. And once DHS made that baseline choice, a
broader range of benefits became relevant. Thus, the
plaintiffs’ fundamental objection to the counting of benefits like Medicaid, housing, and SNAP—that they are
supplemental—is really just a repackaging of their argument under Chevron step one.
The plaintiffs also advance a legislative-inaction argument: in 2013—twenty years after Congress enacted
IIRIRA—the Senate Judiciary Committee, while debating the Border Security, Economic Opportunity, and
Immigration Modernization Act, voted down a proposal
to require applicants for lawful permanent resident status “to show they were not likely to qualify even for noncash employment supports such as Medicaid, the SNAP

76a
program, or the Children’s Health Insurance Program
(CHIP).” S. REP. NO. 113-40, at 42 (2013). But the
failure of this proposal is neither here nor there. As
the Supreme Court has cautioned, “Congressional inaction lacks ‘persuasive significance’ because ‘several
equally tenable inferences’ may be drawn from such inaction, ‘including the inference that the existing legislation already incorporated the offered change.’ ” Pension Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633, 650
(1990) (citation omitted). This rejected proposal—
which would have overridden the 1999 Guidance—is a
case in point: the rejection is as consistent with the
choice to leave the matter within the Executive’s discretion as it is with the choice to force the Executive’s hand.
The plaintiffs’ argument has other problems too. Why
should the views of the 2013 Senate Judiciary Committee be attributed to Congress as a whole? See Thompson v. Thompson, 484 U.S. 174, 191-92 (1988) (Scalia, J.,
concurring in the judgment) (“Committee reports, floor
speeches, and even colloquies between Congressmen,
are frail substitutes for bicameral vote upon the text of
a law and its presentment to the President.” (citation
omitted)). And how could the unenacted views of the
2013 Congress settle the meaning of language chosen by
a different Congress at a different time? See United
States v. Price, 361 U.S. 304, 313 (1960) (“[T]he views of
a subsequent Congress form a hazardous basis for inferring the intent of an earlier one.”).
Thus, the plaintiffs are wrong to insist that DHS is
barred from considering the receipt of a particular benefit simply because the benefit is in-kind rather than
cash. There is no such bar. Rather, the list of desig-

77a
nated benefits is reasonable if receiving them is consistent with the lack of self-sufficiency conveyed by the
term “public charge.”
Answering this question requires fleshing out what it
means to lack self-sufficiency for purposes of the public
charge exclusion. As the majority observes, no one is
self-sufficient in an “absolutist” sense because everyone
relies on some nonmonetary government services—for
example, public snow removal and emergency services.
Maj. Op. at 13, 37. Importantly, the term “public charge”
does not implicate self-sufficiency in this absolutist sense.
Throughout its centuries-long history, “public charge”
has always been associated with dependence on a particular category of government programs: those available based on financial need. In the nineteenth and
early twentieth centuries, these were “poor relief ” programs; now, they are the need-based programs of the
modern welfare system. And what has always been implicit in the term “public charge” was made explicit by
the 1996 amendments. The statutory exclusion requires the Executive to consider the noncitizen’s age;
health; family status; assets, resources, and financial
status; and education and skills—factors plainly designed to determine whether a noncitizen will be able to
support herself, not whether she will use generally available services like snow removal. In the same vein, the
sponsor’s reimbursement obligation covers only those
benefits that are “means tested”—that is, available to
those whose income falls below a certain threshold. As
a matter of both history and text, a “public charge” lacks
self-sufficiency in the sense that she lacks the financial
resources to provide for herself.

78a
The benefits designated in DHS’s definition are all
consistent with this concept of self-sufficiency. Recall
that DHS has designated the following benefits: cash
assistance for income maintenance (including SSI, TANF,
and state cash assistance), SNAP, the Section 8 Housing
Choice Voucher Program, Section 8 project-based rental
assistance, housing benefits under Section 9, and Medicaid (with some explicit exceptions). 8 C.F.R. § 212.21.
These benefits are all means tested; they are also
squarely within the Welfare Reform Act’s definition of
“public benefit.” 8 U.S.C. §§ 1611(c), 1621(c) (defining
“public benefit” to include welfare, food, health, and
public-housing benefits funded by the federal, state, or
local governments). It is consistent with the term
“public charge” to consider the potential receipt of cash,
food, housing, and healthcare benefits—all of which fulfill fundamental needs—in evaluating whether someone
is likely to depend on public assistance to get by.
It is also worth noting some of the benefits that the
rule does not include: significantly, the rule’s definition accommodates the reimbursement limitations in the
affidavit provision. Under the affidavit provision, the
following benefits, even if means tested, are not subject
to reimbursement: certain forms of emergency medical assistance; short-term, in-kind emergency disaster
relief; school-lunch benefits; benefits under the Child
Nutrition Act of 1966; public-health assistance for immunization, as well as treatment for the symptoms of
communicable disease; certain foster-care and adoption
payments; certain in-kind services such as soup kitchens
and crisis counseling; student assistance for higher education; benefits under the Head Start Act; meanstested programs under the Elementary and Secondary

79a
Education Act of 1965; and certain job-training benefits.
Id. § 1183a note.15
These exemptions under the affidavit provision are
excluded from the rule too. The rule’s definition provides “an exhaustive list of public benefits,” Inadmissibility on Public Charge Grounds, 84 Fed. Reg. at 41,296,
so any benefit not mentioned in the list is by implication
excluded from the definition. And the list does not mention any of the benefits exempted in the affidavit provision of the statute. 8 C.F.R. § 212.21; see also Inadmissibility on Public Charge Grounds, 84 Fed. Reg. at
41,312 (noting that the rule’s “definition does not include
benefits related exclusively to emergency response, immunization, education, or social services”); id. at 41,482
(explaining that the rule’s definition “does not include
emergency aid, emergency medical assistance, or disaster relief ”); id. at 41,389 (excluding benefits under the
National School Lunch Act, the Child Nutrition Act, and
the Head Start Act). Indeed, to highlight just how
carefully the rule tracks the statutory exemptions to the
affidavit of support, consider the rule’s exclusion of
Medicaid for those under the age of 21 and pregnant
women. Id. at 41,367. These benefits do not appear
in the list of exemptions to the affidavit of support,
but they are exempted from the sponsor’s reimbursement obligations under a different statutory provision.

By virtue of a notice issued by the Department of Housing and
Urban Development, housing benefits are excluded from the reimbursement obligation. See 8 C.F.R. § 213a.1; Eligibility Restrictions
on Noncitizens, 65 Fed. Reg. 49,994 (Aug. 16, 2000). But that exemption is not statutory, and here, I’m concerned only with DHS’s
interpretation of the statute.
15

80a
42 U.S.C. § 1396b(v)(4)(B). The rule captures that exclusion even though it appears elsewhere; in other
words, DHS did not simply copy and paste the statutory
note.
In sum, the designated benefits are not only consistent with the term “public charge,” but they also fit
neatly within the statutory structure. Considering the
potential receipt of these benefits to gauge the likelihood that a noncitizen will become a public charge is
therefore not an unreasonable interpretation of the statute.
B.
The closer question is whether DHS’s benefit-usage
threshold stretches the meaning of “public charge”
beyond the breaking point. The rule defines “public
charge” to mean a noncitizen who receives one or more
of the designated benefits “for more than twelve months
in the aggregate within any 36-month period.” One
month of one benefit counts toward the twelve. As a
result, an applicant expected to live in Section 8 housing
for a year would be denied admission as someone who is
likely to become a public charge, as would an applicant
who is expected to receive three months’ worth of housing, TANF, Medicaid, and SNAP.
The plaintiffs have a legislative-inaction argument
for this feature of the rule too. They point out that during the enactment of IIRIRA, the Senate Judiciary
Committee, while negotiating the House-passed version
of the bill, dropped language that “would have clarified
the definition of ‘public charge’ ” in the deportation provision to provide for deportation if a noncitizen “received Federal public benefits for an aggregate of 12

81a
months over a period of 7 years.” 142 Cong. Rec.
S11,872, S11,882 (daily ed. Sept. 30, 1996) (statement of
Sen. Kyl). Thus, they say, Congress has foreclosed the
possibility that 12 months’ worth of benefit usage renders someone a public charge. Whatever the statutory
floor is, it must be higher than that.
I’ve already identified some of the problems with
legislative-inaction arguments, so I won’t belabor them
here. It’s worth noting, though, that this legislativeinaction argument is even worse than the plaintiffs’ other.
So far as the plaintiffs’ citation reveals, the proposal
dropped out of the statute in the course of committee
negotiations, not by a vote, and there is no explanation
for why it did. See Thompson, 484 U.S. at 191 (Scalia,
J., concurring in the judgment) (“An enactment by implication cannot realistically be regarded as the product
of the difficult lawmaking process our Constitution
has prescribed.”). Moreover, the dropped proposal involved the public charge deportation provision, not
the public charge admissibility provision.
See
8 U.S.C. § 1227(a)(5). Drawing general conclusions
from a committee’s decision to drop this language in a
context with much higher stakes is a particularly dubious proposition. Despite the plaintiffs’ effort to demonstrate otherwise, the statute doesn’t draw a bright line
requiring something more than 12 months of benefit usage to meet the definition of “public charge.”
At oral argument, DHS declined to identify any limit
to its discretion, implying that it could define public
charge to include someone who took any amount of benefits, no matter how small. It may have been grounding its theory in the affidavit provision, which triggers
the sponsor’s liability once the noncitizen receives “any

82a
means-tested public benefit” that falls within the sponsor’s reimbursement obligation. Id. § 1183a(b)(1)(A)
(emphasis added).
That may well overread the affidavit provision, which
does not purport to define “public charge.” Enforcement
of the public charge exclusion has waxed and waned over
time in response to economic conditions, immigration
policy, and changes in the programs available to support
the poor. The amendments made by IIRIRA and the
Welfare Reform Act, including the affidavit provision,
reflect Congress’s interest in vigorous enforcement.
Yet Congress left the centuries-old term in the statute,
and that term has always been associated with a lack of
self-sufficiency. So that’s the principle that governs
here: if it’s reasonable to describe someone who takes
one or more of the designated benefits “for more than
twelve months in the aggregate within any 36-month period” as lacking in self-sufficiency, then DHS’s definition falls within the permissible range.
In deciding this question, it is wrong to focus exclusively on the durational requirement—duration must be
viewed in the context of the benefits measured. Three
features are particularly important in this regard: the
designated benefits are means tested, satisfy basic necessities, and are major welfare grants. To see the importance of these features, consider how different the
durational threshold would look without them—for example, if the rule measured the usage of benefits that
are not means tested (e.g., public education), that are
means tested but don’t satisfy a basic necessity (e.g.,
Pell grants), or that satisfy a basic necessity but are not
major welfare grants (e.g., need-based emergency food
assistance). Relying on the government to provide a

83a
year’s worth of a basic necessity (food, shelter, medicine, or cash assistance for income maintenance) implicates self-sufficiency in a way that funding a year of college with the help of a Pell grant does not.
The plaintiffs particularly object to the rule’s stacking mechanism, which can reduce the durational requirement from 12 months to as little as 3 months. But
here, too, the context matters: all of the designated benefits supply basic necessities, and the reduction is triggered in proportion to the degree of reliance on the government. The more supplemental the reliance, the
longer it can go on before crossing the “public charge”
threshold. The briefest durational threshold—three
months of benefit usage—meets the definition only when
the recipient relies on the government for all basic necessities (food, shelter, medicine, and cash assistance for
income maintenance). In other words, such short-term
reliance only counts if it’s virtually total. The rule
measures self-sufficiency along a sliding scale rather
than by time alone.
It is not unreasonable to describe someone who relies
on the government to satisfy a basic necessity for a year,
or multiple basic necessities for a period of months, as
falling within the definition of a term that denotes a lack
of self-sufficiency. To be sure, the rule reaches dependence that is supplemental and temporary rather than
primary and permanent. But the definition of “public
charge” is elastic enough to permit that. The rule’s
definition is exacting, and DHS could have exercised its
discretion differently. The line that DHS chose to
draw, however, does not exceed what the statutory term
will bear.

84a
IV.
This case involves more than the definition of “public
charge.” The plaintiffs raised a host of objections to
the rule in their complaint, and the majority addresses
some of them. It concludes that the plaintiffs are likely
to succeed in their challenge to the factors that DHS
uses to implement its definition (the list of factors includes health, family size, and English proficiency), as
well as in their argument that the rule is arbitrary and
capricious. See 5 U.S.C. § 706(2)(A); Motor Vehicle
Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983) (explaining that the agency
must “articulate a satisfactory explanation for its action
including a ‘rational connection between the facts found
and the choice made’ ” (citation omitted)).
I wouldn’t reach these issues. The district court
didn’t address them, and on appeal, the parties devoted
their briefs almost entirely to the definition of “public
charge.” Singleton v. Wulff, 428 U.S. 106, 120 (1976)
(“It is the general rule, of course, that a federal appellate court does not consider an issue not passed upon
below.”); see also Ctr. for Individual Freedom v. Van
Hollen, 694 F.3d 108, 111 (D.C. Cir. 2012) (remanding to
the district court for arbitrary-and-capricious review
when the district court resolved a case at Chevron step
one without reaching the issue and when the agency’s
position was not well developed). And while it’s generally prudent to refrain from deciding difficult issues
without the benefit of arguments from the parties, the
procedural posture of this case offers a particularly good
reason to stop where the parties did. We are reviewing
the issuance of the “extraordinary remedy” of a prelim-

85a
inary injunction. Whitaker ex rel. Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d
1034, 1044 (7th Cir. 2017). Based on the record developed thus far, the plaintiffs have not shown that they are
entitled to this extraordinary remedy. I would remand
so that the district court can assess whether the plaintiffs’ remaining challenges to the rule are likely to succeed.
* * *
The many critics of the “public charge” definition
characterize it as too harsh. But the same can be said—
and has been said—of IIRIRA and the Welfare Reform
Act. The latter dramatically rolled back the availability of aid to noncitizens, and both statutes linked those
cuts to the public charge provision by making the affidavit of support a condition of admissibility. The definition in the 1999 Guidance tried to blunt the force of these
changes; now, DHS has chosen to exercise the leeway
that Congress gave it. At bottom, the plaintiffs’ objections reflect disagreement with this policy choice and
even the statutory exclusion itself. Litigation is not
the vehicle for resolving policy disputes. Because I
think that DHS’s definition is a reasonable interpretation of the statutory term “public charge,” I respectfully
dissent.

86a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

No. 19 C 6334
COOK COUNTY, ILLINOIS, AN ILLINOIS GOVERNMENTAL ENTITY, AND ILLINOIS COALITION FOR IMMIGRANT
AND REFUGEE RIGHTS, INC.,
PLAINTIFFS
v.
KEVIN K. MCALEENAN, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF U.S. DEPARTMENT OF
HOMELAND SECURITY, U.S. DEPARTMENT OF
HOMELAND SECURITY, A FEDERAL AGENCY, KENNETH
T. CUCCINELLI II, IN HIS OFFICIAL CAPACITY AS
ACTING DIRECTOR OF U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, AND U.S. CITIZENSHIP AND
IMMIGRATIONS SERVICES, A FEDERAL AGENCY,
DEFENDANTS

Filed: Oct. 14, 2019
MEMORANDUM OPINION AND ORDER

Judge GARY FEINERMAN
In this suit under the Administrative Procedure
Act (“APA”), 5 U.S.C. § 701 et seq., Cook County and
Illinois Coalition for Immigrant and Refugee Rights,
Inc. (“ICIRR”) challenge the legality of the Department

87a
of Homeland Security’s (“DHS”) final rule, Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41,292
(Aug. 14, 2019) (to be codified at 8 C.F.R. pt. 103, 21214, 245, 248). Doc. 1. The Final Rule has an effective
date of October 15, 2019. Cook County and ICIRR move
for a temporary restraining order and/or preliminary injunction under Civil Rule 65, or a stay under § 705 of the
APA, 5 U.S.C. § 705, to bar DHS (the other defendants
are ignored for simplicity’s sake) from implementing
and enforcing the Rule in the State of Illinois. Doc. 24.
At the parties’ request, briefing closed on October 10,
2019, and oral argument was held on October 11, 2019.
Docs. 29, 81. The motion is granted, and DHS is enjoined from implementing the Rule in the State of Illinois absent further order of court.
Background

Section 212(a)(4) of the Immigration and Nationality
Act (“INA”) states: “Any alien who, in the opinion of
the consular officer at the time of application for a visa,
or in the opinion of the Attorney General at the time of
application for admission or adjustment of status, is
likely at any time to become a public charge is inadmissible.” 8 U.S.C. § 1182(a)(4). The public charge provision has a long pedigree, dating back to the Immigration Act of 1882, ch. 376, §§ 1-2, 22 Stat. 214, 214, which
directed immigration officers to refuse entry to “any
convict, lunatic, idiot, or any person unable to take care
of himself or herself without becoming a public charge.”
The provision has been part of our immigration laws, in
various but nearly identical guises, ever since. See Immigration Act of 1891, ch. 551, 26 Stat. 1084, 1084; Immigration Act of 1907, ch. 1134, 34 Stat. 898, 899; Immigration Act of 1917, ch. 29 § 3, 39 Stat. 874, 876; INA of

88a
1952, ch. 477, § 212(a)(15), 66 Stat. 163, 183; Illegal Immigration Reform and Immigrant Responsibility Act
(“IIRIRA”), Pub. L. No. 104-208, § 531(a), 110 Stat.
3009-546, 3009-674-75 (1996).
Prior to the rulemaking resulting in the Final Rule,
the federal agency charged with immigration enforcement last articulated its interpretation of “public charge”
in a 1999 field guidance document. Field Guidance on
Deportability and Inadmissibility on Public Charge
Grounds, 64 Fed. Reg. 28,689 (May 26, 1999). The field
guidance defined a “public charge” as a person “primarily dependent on the government for subsistence,” and
instructed immigration officers to ignore non-cash public benefits in assessing whether an individual was “likely
at any time to become a public charge.” Ibid. That definition and instruction never made their way into a regulation.
On October 10, 2018, DHS published a Notice of Proposed Rulemaking, Inadmissibility on Public Charge
Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018), which was
followed by a sixty-day public comment period. Some
ten months later, DHS published the Final Rule, which
addressed the comments, revised the proposed rule, and
provided analysis to support the Rule. See Inadmissibility on Public Charge Grounds, supra. As DHS described it, the Rule “redefines the term ‘public charge’
to mean an alien who receives one or more designated
public benefits for more than 12 months in the aggregate within any 36-month period (such that, for instance,
receipt of two benefits in one month counts as two
months).” 84 Fed. Reg. at 41,295.
By adopting a duration-based standard, the Rule covers aliens who receive only minimal benefits so long as

89a
they receive them for the requisite time period. As the
Rule explains: “DHS may find an alien inadmissible
under the standard, even though the alien who exceeds
the duration threshold may receive only hundreds of
dollars, or less, in public benefits annually.” Id. at
41,360-61. The Rule “defines the term ‘public benefit’
to include cash benefits for income maintenance, SNAP,
most forms of Medicaid, Section 8 Housing Assistance
under the Housing Choice Voucher (HCV) Program,
Section 8 Project-Based Rental Assistance, and certain
other forms of subsidized housing.” Ibid. The Rule
sets forth several nonexclusive factors DHS must consider in determining whether an alien is likely to become
a public charge, including “the alien’s health,” any “diagnosed . . . medical condition” that “will interfere
with the alien’s ability to provide and care for himself or
herself,” and past applications for the enumerated public benefits. Id. at 41,502-04. The Rule provides that
persons found likely to become public charges are ineligible “for a visa to come the United States temporarily
or permanently, for admission, or for adjustment of status to that of a lawful permanent resident.” Id. at
41,303. The Rule also “potentially affect[s] individuals
applying for an extension of stay or change of status because these individuals would have to demonstrate that
they have not received, since obtaining the nonimmigrant status they are seeking to extend or change, public benefits for” more than the allowed duration. Id. at
41,493.
Cook County and ICIRR challenge the Rule’s
legality and seek to enjoin its implementation. Cook
County operates the Cook County Health and Hospitals
System (“CCH”), one of the largest public hospital systems in the Nation. Doc. 27-1 at p. 326, ¶ 5. ICIRR

90a
is a membership-based organization that represents
nonprofit organizations and social and health service
providers throughout Illinois that deliver and seek to
protect access to health care, nutrition, housing, and
other services for immigrants regardless of immigration
status. Id. at pp. 341-342, ¶¶ 3-10. Cook County and
ICIRR maintain that the Rule will cause immigrants to
disenroll from public benefits—or to not seek benefits in
the first place—which will in turn generate increased
costs and cause them to divert resources from their existing programs meant to aid immigrants and safeguard
public health. Doc. 27-1 at pp. 330-338, ¶¶ 25-52; id. at
pp. 342-350, ¶¶ 11-42. Cook County and ICIRR argue
that the Rule exceeds the authority granted to DHS under the INA and that DHS acted arbitrarily and capriciously in promulgating the Rule.
Discussion

“To win a preliminary injunction, the moving party
must establish that (1) without preliminary relief, it will
suffer irreparable harm before final resolution of its
claims; (2) legal remedies are inadequate; and (3) its
claim has some likelihood of success on the merits.”
Eli Lilly & Co. v. Arla Foods, Inc., 893 F.3d 375, 381
(7th Cir. 2018). “If the moving party makes this showing, the court balances the harms to the moving party,
other parties, and the public.” Ibid. “In so doing, the
court employs a sliding scale approach: the more likely
the plaintiff is to win, the less heavily need the balance
of harms weigh in [its] favor; the less likely [it] is to win,
the more need [the balance] weigh in [its] favor.” Valencia v. City of Springfield, 883 F.3d 959, 966 (7th Cir.
2018) (alteration and internal quotation marks omitted).

91a
“The sliding scale approach is not mathematical in nature, rather it is more properly characterized as subjective and intuitive, one which permits district courts to
weigh the competing considerations and mold appropriate relief.” Stuller, Inc. v. Steak N Shake Enters., 695
F.3d 676, 678 (7th Cir. 2012) (internal quotation marks
omitted). “Stated another way, the district court sits
as would a chancellor in equity and weighs all the factors, seeking at all times to minimize the costs of being
mistaken.” Ibid. (alteration and internal quotation
marks omitted). A request for a temporary restraining
order is analyzed under the same rubric, see Carlson
Grp., Inc. v. Davenport, 2016 WL 7212522, at *2 (N.D.
Ill. Dec. 13, 2016), as is a request for a stay under 5
U.S.C. § 705, see Cronin v. U.S. Dep’t of Agric., 919 F.2d
439, 446 (7th Cir. 1990) (“The standard is the same
whether a preliminary injunction against agency action
is being sought in the district court or a stay of that action [under 5 U.S.C. § 705] is being sought in [the appeals] court.”).
I.

Likelihood of Success on the Merits
A.

Standing

DHS argues at the outset that Cook County and
ICIRR lack Article III standing. Doc. 73 at 20-23. “To
assert [Article III] standing for injunctive relief, [a
plaintiff ] must show that [it is] under an actual or imminent threat of suffering a concrete and particularized
‘injury in fact’; that this injury is fairly traceable to the
defendant’s conduct; and that it is likely that a favorable
judicial decision will prevent or redress the injury.”
Common Cause Ind. v. Lawson, 937 F.3d 944, 949 (7th
Cir. 2019) (quoting Summers v. Earth Island Inst., 555
U.S. 488, 493 (2009)).

92a
On the present record, Cook County has established
its standing. In Gladstone, Realtors v. Village of Bellwood, 441 U.S. 91 (1979), where a municipality alleged
under the Fair Housing Act (“FHA”), 42 U.S.C. § 3601
et seq., that real estate brokers had engaged in racial
steering, the Supreme Court held for Article III purposes that “[a] significant reduction in property values
directly injures a municipality by diminishing its tax
base, thus threatening its ability to bear the costs of local government and to provide services.” Id. at 110-11.
That was so even though the causal chain resulting in
the municipality’s injury involved independent decisions
made by non-parties; as the Court explained, “racial
steering effectively manipulates the housing market” by
altering homebuyers’ decisions, which “reduce[s] the total number of buyers in the . . . housing market,”
particularly where “perceptible increases in the minority population . . . precipitate an exodus of white
residents.” Id. at 109-10. That reduction in buyers,
in turn, meant that “prices may be deflected downward[,] . . . directly injur[ing] a municipality by diminishing its tax base.” Id. at 110-11.
Applying Gladstone, the Seventh Circuit in City of
Chicago v. Matchmaker Real Estate Sales Center, Inc.,
982 F.2d 1086 (7th Cir. 1992), held that Chicago had
standing in a similar FHA case, reasoning that “racial
steering leads to resegregation” and to “[p]eople . . .
becom[ing] panicked and los[ing] interest in the community,” generating “destabilization of the community and
a corresponding increased burden on the City in the
form of increased crime and an erosion of the tax base.”
Id. at 1095. The Seventh Circuit added that Chicago’s
standing also rested on the fact that its “fair housing

93a
agency ha[d] to use its scarce resources to ensure compliance with the fair housing laws” rather than to “perform its routine services.” Ibid.
The Supreme Court’s decision earlier this year in Department of Commerce v. New York, 139 S. Ct. 2551
(2019), is of a piece with Gladstone and Matchmaker.
In a challenge to the Department of Commerce’s addition of a citizenship question to the census, the Court
held that the plaintiff States had shown standing by “establish[ing] a sufficient likelihood that the reinstatement of a citizenship question would result in noncitizen
households responding to the census at lower rates than
other groups, which in turn would cause them to be undercounted and lead to” injuries to the States such as
“diminishment of political representation, loss of federal
funds, degradation of census data, and diversion of resources.” Id. at 2565. In so holding, the Court explained that the fact that a “harm depends on the independent action of third parties,” even when such actions
stem from the third parties’ “unfounded fears,” does not
make an injury too “speculative” to confer standing.
Id. at 2565-66.
Cook County asserts injuries at least as concrete, imminent, and traceable as did the government plaintiffs
in Gladstone, New York, and Matchmaker. As the parties agree, the Final Rule will cause immigrants to disenroll from, or refrain from enrolling in, critical public
benefits out of fear of being deemed a public charge.
Doc. 27-1 at pp. 330-332, ¶¶ 25, 30; id. at pp. 344-345,
¶¶ 19-20, 23; 84 Fed. Reg. at 41,300 (“The final rule will
. . . result in a reduction in transfer payments from
the Federal Government to individuals who may choose

94a
to disenroll from or forego enrollment in a public benefits program.”); id. at 41,485 (same). Cook County adduces evidence showing, consistent with common sense,
that where individuals lack access to health coverage
and do not avail themselves of government-provided
healthcare, they are likely to forgo routine treatment—
resulting in more costly, uncompensated emergency
care down the line. Doc. 27-1 at pp. 331-333, 335-337,
¶¶ 30-32, 41-50. Additionally, because uninsured persons who do not seek public medical benefits are less
likely to receive immunizations or to seek diagnostic testing, the Rule increases the risk of vaccine-preventable and
other communicable diseases spreading throughout
the County. Id. at pp. 329-330, 333, ¶¶ 20-21, 33; id. at
pp. 358-359, ¶¶ 29, 32. Both the costs of community
health epidemics and of uncompensated care are likely
to fall particularly hard on CCH, which already provides
approximately half of all charity care in Cook County,
id. at pp. 335-336, ¶¶ 42-43, including to non-citizens regardless of their immigration status, id. at p. 327, ¶ 11.
Indeed, DHS itself recognizes that the Rule will cause
“[s]tate and local governments . . . [to] incur costs”
stemming from “changes in behavior caused by” the
Rule. 84 Fed. Reg. at 41,389; see also id. at 41,300-01
(“DHS estimates that the total reduction in transfer
payments from the Federal and State governments will
be approximately $2.47 billion annually due to disenrollment or foregone enrollment in public benefits programs by foreign-born non-citizens who may be receiving public benefits.”); id. at 41,469 (“DHS agrees that
some entities, such as State and local governments or
other businesses and organizations, would incur costs
related to the changes.”). DHS specifically noted that

95a
“hospital systems, state agencies, and other organizations that provide public assistance to aliens and their
households” will suffer financial harm from the Rule’s
implementation. Id. at 41,469-70.
Given its operation of and financial responsibility for
CCH, that is more than enough to establish Cook
County’s standing under the principles set forth in
Gladstone, New York, and Matchmaker. DHS’s contrary arguments fail to persuade.
First, DHS suggests that it is “inconsistent” for Cook
County to maintain both that immigrants will forgo treatment and that they will come to rely more on uncompensated care from CCH. Doc. 73 at 21. But as Cook County
observes, Doc. 80 at 14, there is no inconsistency: immigrants will “avoid seeking treatment for cases other
than emergencies,” Doc. 1 at ¶ 109, and the emergency
treatment they seek will involve additional reliance on
uncompensated care from CCH, Doc. 27-1 at p. 330, ¶ 21
(“When individuals are uninsured, they avoid seeking
routine care and instead risk worse health outcomes
and use costly emergency services.”). The Rule itself
acknowledges as much. 84 Fed. Reg. at 41,384 (“DHS
acknowledges that increased use of emergency rooms
and emergent care as a method of primary healthcare
due to delayed treatment is possible and there is a potential for increases in uncompensated care.”).
Second, DHS argues that because some non-citizen
residents of Cook County have already disenrolled from
benefits and are unlikely to re-enroll, the County cannot
rely on their disenrollment as showing that others will
follow suit. Doc. 73 at 21. That argument ignores the
plain logic of Cook County’s position—if the mere pro-

96a
spect of the Rule’s promulgation after the Notice of Proposed Rulemaking in October 2018 prompted some immigrants to disenroll, it is likely that the Rule’s going
into effect will prompt others to do so as well. Again,
the Rule itself acknowledges that disenrollment is a
likely result of the Rule’s implementation. 84 Fed.
Reg. at 41,300-01.
Third, DHS argues that Cook County’s invocation of
its need to divert resources is a “novel” and unsupported
extension of organizational “standing from the private
organizations to whom it has always been applied to a
local government entity.” Doc. 73 at 22. Even if this
argument were correct, it would not speak to the injuries to the County arising from CCH’s provision of uncompensated care. But the argument is wrong, as municipal entities and private organizations alike may rely
on the need to divert resources to establish standing.
See Matchmaker, 982 F.2d at 1095 (holding that Chicago
had Article III standing because its “fair housing agency
has to use its scarce resources to ensure compliance with
the fair housing laws . . . [and] cannot perform its
routine services . . . because it has to commit resources against those engaged in racial steering”); see
also City of Milwaukee v. Saxby, 546 F.2d 693, 698 (7th
Cir. 1976) (“In any case where a municipal corporation
seeks to vindicate the rights of its residents, there is no
reason why the general rule on organizational standing
should not be followed.”).
As for ICIRR, the Supreme Court held in Havens
Realty Corp. v. Coleman, 455 U.S. 363 (1982), that if a
private organization shows that a defendant’s “practices
have perceptibly impaired” its ability to undertake its
existing programs, “there can be no question that the

97a
organization has suffered injury in fact.” Id. at 379; see
also Common Cause Ind., 937 F.3d at 954 (“Impairment
of [an organization’s] ability to do work within its core
mission [is] enough to support standing.”). ICIRR adduces evidence that its existing programs include efforts
within immigrant communities to increase access to
care, improve health literacy, and reduce reliance on
emergency room care. Doc. 27-1 at pp. 341-342, ¶ 4-10.
ICIRR further shows that the Rule is likely to decrease
immigrants’ access to health services, food, and other programs. Id. at p. 344-345, ¶¶ 19-20, 23. Indeed, ICIRR
already has expended resources to prevent frustration
of its programs’ missions, to educate immigrants and
staff about the Rule’s effects, and to encourage immigrants not covered by but nonetheless deterred by the
Rule to continue enrolling in benefit programs. Id. at
pp. 343-345, ¶¶ 14-15, 22. If the Rule goes into effect,
those consequences are likely to intensify and ICIRR’s
diversion of resources likely to increase. Id. at pp. 343347, ¶¶ 16, 18, 23-31. ICIRR’s standing is secure. See
Common Cause Ind., 937 F.3d at 964 (Brennan, J., concurring) (“[I]f a defendant’s actions compromise an organization’s day-to-day operations, or force it to divert
resources to address new issues caused by the defendant’s actions, an Article III injury exists.”).
In pressing the contrary result, DHS contends that
ICIRR “does not allege that the Rule will disrupt any of
its current programs,” and therefore that ICIRR is not
“required” to alter its activities but instead “simply elected to do so.” Doc. 73 at 22-23. But the evidence adduced by ICIRR suggests a “concrete and demonstrable
injury to the organization’s activities,” not “simply a setback to [its] abstract social interests.” Havens, 455
U.S. at 379. That is enough to establish standing, for

98a
“[w]hat matters is whether the organization[’s] activities were undertaken because of the challenged law, not
whether they were voluntarily incurred or not.” Common Cause Ind., 937 F.3d at 956 (internal quotation
marks omitted).
B.

Ripeness

DHS next contends that this case is not ripe. Doc.
73 at 23-25. Suits directed at agency action “are appropriate for judicial resolution” where the challenged action is final and the issues involved are legal ones, provided that the plaintiff shows that the action’s impact on
it “is sufficiently direct and immediate.” Abbott Labs.
v. Gardner, 387 U.S. 136, 149-52 (1967). The challenged agency action here is the Final Rule’s promulgation, the issues involved (as discussed below) are purely
legal challenges to DHS’s implementation of the public
charge provision enacted by Congress, and—as shown
above and addressed below in the discussion of irreparable harm—Cook County and ICIRR allege a direct
and immediate impact of the Rule on them. Under
these circumstances, the suit is ripe. See OOIDA v.
FMCSA, 656 F.3d 580, 586-87 (7th Cir. 2011) (rejecting
a federal agency’s ripeness challenge, which posited that
the “petitioners [we]re not currently under a remedial
directive,” because “the threat of enforcement is sufficient” to show hardship under Abbott Laboratories); id.
at 586 (“Where . . . a petition involves purely legal
claims in the context of a facial challenge to a final rule,
a petition is presumptively reviewable.”) (internal quotation marks omitted).
DHS retorts that this suit will not be ripe until the
Rule is applied to actual admissibility or adjustment de-

99a
terminations. Doc. 73 at 23-24. At most, DHS’s argument pertains to any individual non-citizen’s challenge
to the Rule. It is far from clear that ripeness would
pose an impediment even to claims by affected individuals. See OOIDA, 656 F.3d at 586 (“[T]he threat of enforcement is sufficient” to make a suit ripe “because the
law is in force the moment it becomes effective and a
person made to live in the shadow of a law that she believes to be invalid should not be compelled to wait and
see if a remedial action is coming.”). In any event, certain of Cook County’s and ICIRR’s injuries—like their
need to respond to the Rule’s chilling effect on benefits
enrollment, or to divert resources to educate immigrants
about the Rule—result from the Rule’s promulgation.
It follows that their claims are ripe.
C.

Zone of Interests

DHS next argues that Cook County and ICIRR fall
outside the “zone of interests” protected by the INA.
Doc. 73 at 25-26. “[A] person suing under the APA
must satisfy not only Article III’s standing requirements, but an additional test: The interest . . . assert[ed] must be ‘arguably within the zone of interests
to be protected or regulated by the statute’ ” that the
agency action allegedly violated. Match-E-Be-NashShe-Wish Band of Pottawatomi Indians v. Patchak, 567
U.S. 209, 224 (2012) (quoting Ass’n of Data Processing
Serv. Orgs. v. Camp, 397 U.S. 150, 153 (1970)). “Whether
a plaintiff comes within the ‘zone of interests’ is an issue
that requires [the court] to determine, using traditional
tools of statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular
plaintiff’s claim.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 127 (2014) (internal

100a
quotation marks omitted).
The question here is
whether Cook County and ICIRR “fall[] within the class
of plaintiffs whom Congress has authorized to sue under” the relevant statutes. Ibid.
“[I]n the APA context, . . . the [zone of interests]
test is not ‘especially demanding.’ ” Lexmark, 572 U.S.
at 130 (quoting Match-E-Be-Nash-She-Wish Band, 567
U.S. at 225). As the Supreme Court explained, it has
“always conspicuously included the word ‘arguably’ in
the test to indicate that the benefit of any doubt goes to
the plaintiff” and the test does not require any “indication of congressional purpose to benefit the would-be
plaintiff.” Match-E-Be-Nash-She-Wish Band, 567 U.S.
at 225 (internal quotation marks omitted); see also Lexmark, 572 U.S. at 130 (reaffirming Match-E-Be-NashShe-Wish Band and distinguishing non-APA cases).
Accordingly, the zone of interests test “forecloses suit
only when a plaintiff’s interests are so marginally related to or inconsistent with the purposes implicit in the
statute that it cannot reasonably be assumed that Congress intended to permit the suit.” Math-E-Be-NashShe-Wish Band, 567 U.S. at 225 (internal quotation
marks omitted). The appropriate frame of reference
here is not only the public charge provision, but the immigration laws as a whole. See Clarke v. Secs. Indus.
Ass’n, 479 U.S. 388, 401 (1987) (holding that the court
should “consider any provision that helps [it] to understand Congress’ overall purposes in the” relevant statutes); Grocery Mfrs. Ass’n v. EPA, 693 F.3d 169, 186
(D.C. Cir. 2012) (“Importantly, in determining whether
a petitioner falls within the zone of interests to be protected by a statute, we do not look at the specific provision said to have been violated in complete isolation, but
rather in combination with other provisions to which it

101a
bears an integral relationship.”) (internal quotation
marks omitted). And even if an APA plaintiff is not
among “those who Congress intended to benefit,” the
plaintiff nonetheless falls within the zone of interests if
it is among “those who in practice can be expected to
police the interests that the [relevant] statute protects.”
Mova Pharm. Corp. v. Shalala, 140 F.3d 1060, 1075
(D.C. Cir. 1998); see also Amgen, Inc. v. Smith, 357 F.3d
103, 109 (D.C. Cir. 2004) (“[T]he salient consideration
under the APA is whether the challenger’s interests are
such that they in practice can be expected to police the
interests that the statute protects.”) (internal quotation
marks omitted); ALPA Int’l v. Trans States Airlines,
LLC, 638 F.3d 572, 577 (8th Cir. 2011) (same).
Cook County and ICIRR both satisfy the zone of interests test. As DHS observes, the principal interests
protected by the INA’s “public charge” provision are
those of “aliens improperly determined inadmissible.”
Doc. 73 at 25. ICIRR’s interests in ensuring that
health and social services remain available to immigrants and in helping them navigate the immigration
process are consistent with the statutory purpose, as
DHS describes it, to “ensure[] that only certain aliens
could be determined inadmissible on the public charge
ground.” Ibid. There is ample evidence that ICIRR’s
interests are not merely marginal to those of the aliens
more directly impacted by the public charge provision.
Not only is ICIRR precisely the type of organization
that would reasonably be expected to “police the interests that the statute protects,” Amgen, 357 F.3d at 109,
but the INA elsewhere gives organizations like ICIRR
a role in helping immigrants navigate immigration procedures generally, see, e.g., 8 U.S.C. § 1101(i)(1) (requiring that potential T visa applicants be referred to

102a
nongovernmental organizations for legal advice); id.
§ 1184(p)(3)(A) (same for U visa applicants); id.
§ 1228(a)(2), (b)(4)(B) (recognizing a right to counsel for
aliens subject to expedited removal proceedings); id.
§ 1229(a)(1), (b)(2) (requiring that aliens subject to deportation proceedings be provided a list of pro bono attorneys and advised of their right to counsel); id. § 1443(h)
(requiring the Attorney General to work with “relevant
organizations” to “broadly distribute information concerning” the immigration process). Especially given the
APA’s “generous review provisions,” Clarke, 479 U.S. at
395 (internal quotation marks omitted), these considerations place ICIRR’s claims “at the least[] ‘arguably
within the zone of interests’” protected by the INA, Bank
of Am. v. City of Miami, 137 S. Ct. 1296, 1303 (2017)
(quoting Data Processing, 397 U.S. at 153).
In pressing the contrary result, DHS relies principally on Justice O’Connor’s in-chambers opinion in INS
v. Legalization Assistance Project of Los Angeles County,
510 U.S. 1301 (1993). Doc. 73 at 25-26. That reliance is
misplaced. As an initial matter, Justice O’Connor’s
opinion is both non-precedential and concededly “speculative.” Legalization Assistance Project, 510 U.S. at
1304. In any event, the opinion predates the Court’s
articulation in Match-E-Be-Nash-She-Wish Band and
Lexmark of the current, more flexible understanding of
the zone of interests test in APA cases.
Cook County satisfies the zone of interests test as
well. In City of Miami, the Supreme Court held that
Miami’s allegations of “lost tax revenue and extra municipal expenses” placed it within the zone of interests
protected by the FHA, which allows “any person who
. . . claims to have been injured by a discriminatory

103a
housing practice” to file a civil action for damages. 137
S. Ct. at 1303 (internal quotation marks omitted).
Cook County asserts comparable financial harms from
the Final Rule. True enough, Cook County is not itself
threatened with an improper admissibility or status adjustment determination, but neither did Miami itself
suffer discrimination under the FHA. In both City of
Miami and here, the consequences of the challenged action generate additional costs for the municipal plaintiff.
If such injuries place a municipality within the FHA’s
zone of interests in a non-APA case like City of Miami,
they certainly do so in this APA case.
D. Chevron Analysis

The APA provides for judicial review of final agency
decisions. See 5 U.S.C. §§ 702, 706; Fla. Power & Light
Co. v. Lorion, 470 U.S. 729, 743-44 (1985) (“The task of
the reviewing court is to apply the appropriate APA
standard of review, 5 U.S.C. § 706, to the agency decision based on the record the agency presents to the reviewing court.”). The question here is whether DHS
exceeded its authority in promulgating the Final Rule.
Under current precedent, which this court must follow,
resolution of that question is governed by the framework set forth in Chevron, U.S.A., Inc. v. NRDC, Inc.,
467 U.S. 837 (1984).
“At Chevron’s first step, [the court] determine[s]—
using ordinary principles of statutory interpretation—
whether Congress has directly spoken to the precise
question at issue.” Coyomani-Cielo v. Holder, 758
F.3d 908, 912 (7th Cir. 2014). If “Congress has directly
spoken to the precise question at issue . . . the court
. . . must give effect to the unambiguously expressed
intent of Congress,” Indiana v. EPA, 796 F.3d 803, 811

104a
(7th Cir. 2015) (quoting Chevron, 467 U.S. at 842-43) (alterations in original) (internal quotation marks omitted), and end the inquiry there, see Coyomani-Cielo, 758
F.3d at 912. “If, however, ‘the statute is silent or ambiguous with respect to the specific issue,’ ” Chevron’s
second step, at which “a reviewing court must defer to
the agency’s interpretation if it is reasonable,” comes
into play. Indiana, 796 F.3d at 811 (quoting Chevron,
467 U.S. at 843-44). As shown below, because the pertinent statute is clear, there is no need to go beyond
Chevron’s first step.
“When interpreting a statute, [the court] begin[s]
with the text.” Loja v. Main St. Acquisition Corp., 906
F.3d 680, 683 (7th Cir. 2018). “Statutory words and
phrases are given their ordinary meaning.” Singh v.
Sessions, 898 F.3d 720, 725 (7th Cir. 2018); see also
United States v. Titan Int’l, Inc., 811 F.3d 950, 952 (7th
Cir. 2016). “It is a fundamental canon of statutory construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.” Brumfield v. City of Chicago, 735
F.3d 619, 628 (7th Cir. 2013); see also LaPlant v. N.W.
Mut. Life Ins. Co., 701 F.3d 1137, 1139 (7th Cir. 2012)
(“We try to give the statutory language a natural meaning in light of its context.”).
Congress has expressed in general terms that “[s]elfsufficiency has been a basic principle of United States
immigration law since this country’s earliest immigration statutes,” 8 U.S.C. § 1601(1), that “[t]he immigration policy of the United States” provides that “aliens
within the Nation’s borders not depend on public resources to meet their needs,” id. § 1601(2)(A), and that
“the availability of public benefits [is] not [to] constitute

105a
an incentive for immigration to the United States,” id.
§ 1601(2)(B). But those provisions express only general policy goals without specifying what it means for
non-citizens to be “[s]elf-sufficient” or to “not depend on
public resources to meet their needs.” Cf. NAACP v.
Am. Family Mut. Ins. Co., 978 F.2d 287, 298 (7th Cir.
1992) (“You cannot discover how far a statute goes by
observing the direction in which it points. Finding the
meaning of a statute is more like calculating a vector
(with direction and length) than it is like identifying
which way the underlying ‘values’ or ‘purposes’ point
(which has direction alone).”) (internal quotation marks
omitted). The public charge provision is intended to
implement those general policy goals—yet in none of its
iterations since its original enactment in 1882 did Congress define the term “public charge.”
This lack of a statutory definition gives rise to the interpretative dispute that divides the parties. Cook
County and ICIRR submit that the term “public charge”
includes only “those who are likely to become primarily
and permanently dependent on the government for subsistence.” Doc. 27 at 15 (emphasis in original). DHS
submits that the term is broad enough to include any
non-citizen “who receives” a wide range of “designated
public benefits for more than 12 months in the aggregate within a 36-month period,” Doc. 73 at 18-19—
including, as the Final Rule acknowledges, those who
“receive only hundreds of dollars, or less, in public benefits annually” for any twelve months in a thirty-six
month period, 84 Fed. Reg. at 41,360-61. As Cook
County and ICIRR contend, and as DHS implicitly concedes through its silence, if Cook County and ICIRR are
correct about what “public charge” means, the Final
Rule fails at Chevron step one, as there would be “no

106a
ambiguity for the agency to fill.” Wis. Cent. Ltd. v.
United States, 138 S. Ct. 2067, 2074 (2018).
Settled precedent governs how to ascertain the
meaning of a statutorily undefined term like “public
charge.” “[I]t’s a fundamental canon of statutory construction that words generally should be interpreted as
taking their ordinary . . . meaning . . . at the
time Congress enacted the statute.” New Prime Inc.
v. Oliveira, 139 S. Ct. 532, 539 (2019) (alterations in original and internal quotation marks omitted). As noted,
the term “public charge” entered the statutory lexicon
in 1882 and has been included in nearly identical inadmissibility provisions ever since.
For this reason, the court agrees with DHS’s foundational point that, given the “unbroken line of predecessor statutes going back to at least 1882 [that] have contained a similar inadmissibility ground for public charges,”
Doc. 73 at 16, “the late 19th century [is] the key time to
consider” for determining the meaning of the term “public charge,” id. at 27.
Fortunately, the Supreme Court told us just over a
century ago what “public charge” meant in the relevant
era, and thus what it means today. In Gegiow v. Uhl,
239 U.S. 3 (1915), several Russian nationals brought suit
after they were denied admission to the United States
on public charge grounds because, the immigration authorities reasoned, they were bound for Portland, Oregon, where the labor market would have made it impossible for them to obtain employment. Id. at 8-9. In
holding that the aliens could not be excluded on that
ground, the Court observed that in the statute identifying “who shall be excluded, ‘Persons likely to become a
public charge’ [we]re mentioned between paupers and

107a
professional beggars, and along with idiots, persons
dangerously diseased, persons certified by the examining surgeon to have a mental or physical defect of a nature to affect their ability to earn a living, convicted felons, prostitutes, and so forth.” Id. at 10. In light of
the statutory text, the Court held that “[t]he persons
enumerated . . . are to be excluded on the ground of
permanent personal objections accompanying them irrespective of local conditions unless the . . . phrase
[‘public charge’] . . . is directed to different considerations than any other of those with which it is associated. Presumably [the phrase ‘public charge’] is to be
read as generically similar to the other[ phrase]s mentioned before and after.” Ibid. (emphasis added).
Gegiow teaches that “public charge” does not, as
DHS maintains, encompass persons who receive benefits, whether modest or substantial, due to being temporarily unable to support themselves entirely on their
own. Rather, as Cook County and ICIRR maintain, Gegiow holds that “public charge” encompasses only persons who—like “idiots” or persons with “a mental or
physical defect of a nature to affect their ability to make
a living”—would be substantially, if not entirely, dependent on government assistance on a long-term basis.
That is what Gegiow plainly conveys—DHS does not
contend otherwise—and that is how courts of that era
read the decision. See United States ex rel. De Sousa
v. Day, 22 F.2d 472, 473-74 (2d Cir. 1927) (“In the face
of [Gegiow] it is hard to say that a healthy adult immigrant, with no previous history of pauperism, and nothing to interfere with his chances in life but lack of savings, is likely to become a public charge within the meaning of the statute.”); United States ex rel. La Reddola v.
Tod, 299 F. 592, 592-93 (2d Cir. 1924) (holding that an

108a
alien who “suffer[ed] from an insanity” from which “recovery [was] impossible . . . was a public charge”
while institutionalized, “for he was supported by public
moneys of the state of New York and nothing was paid
for his maintenance by him or his relatives”); Ng Fung
Ho v. White, 266 F. 765, 769 (9th Cir. 1920) (holding that
“the words ‘likely to become a public charge’ are meant
to exclude only those persons who are likely to become
occupants of almshouses for want of means with which
to support themselves in the future”), rev’d on other
grounds 259 U.S. 276 (1922); Howe v. United States ex
rel. Savitsky, 247 F. 292, 294 (2d Cir. 1917) (holding that
“Congress meant the act to exclude persons who were
likely to become occupants of almshouses for want of
means with which to support themselves in the future”);
Ex parte Horn, 292 F. 455, 457 (W.D. Wash. 1923) (“The
record is conclusive that the petitioner was not likely to
become a public charge, in the sense that he would be a
‘pauper’ or an occupant of an almshouse for want of
means of support, or likely to be sent to an almshouse
for support at public expense.”) (citations omitted).
In an attempt to evade Gegiow’s interpretation of
“public charge,” DHS argues that Congress, through
amendments enacted in the Immigration Act of 1917,
“negated the Court’s interpretation in Gegiow.” Doc.
73 at 30-31.
That argument fails on two separate
grounds. The first is that DHS maintained (correctly)
that “the late 19th century [is] the key time to consider”
in ascertaining the meaning of the term “public charge,”
id. at 27, and therefore cannot be heard to contend that
the pertinent timeframe is, on second thought, 1917.
The second is that, even putting aside DHS’s arguable
waiver, the 1917 Act did not change the meaning of “public
charge” in the manner urged by DHS.

109a
As relevant here, the 1917 Act moved the phrase
“persons likely to become a public charge” from between the terms “paupers” and “professional beggars”
to much later in the (very long) list of excludable aliens.
1917 Act, 39 Stat. at 875-76. The Senate Report states
that this change was meant “to overcome recent decisions of the courts limiting the meaning of the description of the excluded class because of its position between
other descriptions conceived to be of the same general
and generical nature. (See especially Gegiow v. Uhl,
239 U.S., 3.).” S. Rep. No. 64-352, at 5 (1916). The value
of any committee report in ascertaining a statute’s meaning is questionable. See Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005) (“[J]udicial reliance on legislative materials like committee reports
. . . may give unrepresentative committee members
—or, worse yet, unelected staffers and lobbyists—both
the power and the incentive to attempt strategic manipulations of legislative history to secure results they were
unable to achieve through the statutory text.”); Covalt
v. Carey Can. Inc., 860 F.2d 1434, 1438 (7th Cir. 1988)
(“Even the contemporaneous committee reports may be
the work of those who could not get their thoughts into
the text of the bill.”). And the value of this particular
Senate Report is further undermined by its opacity, as
it does not say in which way its author(s) believed that
court decisions had incorrectly limited the statute’s
breadth. See Azar v. Allina Health Servs., 139 S. Ct.
1804, 1815 (2019) (holding that “murky legislative history . . . can’t overcome a statute’s clear text and
structure”).
Later commentary on the 1917 Act—which DHS
cites as authoritative, but the origin of which DHS fails
to identify, Doc. 73 at 30—explained that the public

110a
charge provision “has been shifted from its position in
sec. 2 of the Immigration Act of 1907 to its present position in sec. 3 of this act in order to indicate the intention
of Congress that aliens shall be excluded upon said
ground for economic as well as other reasons and with a
view to overcoming the decision of the Supreme Court
in Gegiow v. Uhl, 239 U.S. 3 (S. Rept. 352, 64th Cong.,
1st sess.).” U.S. Dep’t of Labor, Immigration Laws
and Rules of January 1, 1930 with Amendments from
January 1, 1930 to May 24, 1934 (1935), at 25 n.5. This
explanation suggests that Congress understood Gegiow,
given its exclusive focus on an alien’s economic circumstances, to have held that aliens may be deemed public
charges only if there were economic reasons for their
dependence on government support, and further that
Congress wanted aliens dependent on government support for noneconomic reasons, like imprisonment, to be
included as well.
That is precisely how many cases of the era understood the 1917 Act. See United States ex rel. Medich v.
Burmaster, 24 F.2d 57, 59 (8th Cir. 1928) (“The fact that
the appellant confessed to a crime punishable by imprisonment in the federal prison, and the very fact that he
was actually incarcerated for a period of 18 months was
sufficient to support the allegation in the warrant of deportation that he was likely ‘to become a public charge.’ ”);
Ex parte Horn, 292 F. at 457 (holding that although “the
petitioner was not likely to become a public charge, in
the sense that he would be a ‘pauper’ or an occupant of
an almshouse for want of means of support, or likely to
be sent to an almshouse for support at public expense,”
he was, as a convicted felon, a public charge because he
was “a person committed to the custody of a department

111a
of the government by due course of law”) (citations omitted); Ex parte Tsunetaro Machida, 277 F. 239, 241
(W.D. Wash. 1921) (“[A] public charge [is] a person committed to the custody of a department of the government
by due course of law.”). Other cases disagreed, holding
that noneconomic dependence on the government for
basic subsistence did not make one a public charge.
See Browne v. Zurbrick, 45 F.2d 931, 932-33 (6th Cir.
1930) (rejecting the proposition “that one who is guilty
of crime, and therefore likely to be convicted for it and
to be imprisoned at the public expense, is ipso facto likely
to become a public charge”); Coykendall v. Skrmetta,
22 F.2d 120, 121 (5th Cir. 1927) (holding that “it cannot
well be supposed that the words in question were intended to refer to anything other than a condition of dependence on the public for support,” and therefore that
the public charge provision did not include the public expense imposed by imprisonment); Ex Parte Mitchell,
256 F. 229, 232 (N.D.N.Y. 1919) (“The court holds expressly that the words ‘likely to become a public charge’
are meant to exclude only those ‘persons who were likely
to become occupants of almshouses for want of means
with which to support themselves in the future.’ ”). The
divergence between those two lines of precedent is immaterial here, for DHS cites no case holding that the
1917 Act upended Gegiow’s holding that an alien could
be deemed a public charge on economic grounds only if
that person’s dependence on public support was of a
“permanent” nature. Gegiow, 239 U.S. at 10. Nor does
DHS cite any case holding that an alien could be deemed
a public charge based on the receipt, or anticipated receipt, of a modest quantum of public benefits for short
periods of time.

112a
DHS’s contrary view rests upon an obvious misreading of Ex parte Horn. DHS cites Ex parte Horn for
the proposition that post-1917 cases “recognized that”
the 1917 Act’s transfer of the public charge provision to
later in the list of excludable persons “negated the
Court’s interpretation of Gegiow by underscoring that
the term ‘public charge’ is ‘not associated with paupers
or professional beggars.’ ” Doc. 73 at 30 (quoting Ex
parte Horn, 292 F. at 457). But Ex parte Horn involved not an alien whose economic circumstances were
less dire than a pauper’s or professional beggar’s and
thus who might have needed only modest government
benefits for a short period of time; rather, the case involved a person who had committed crimes and was
likely to be imprisoned. 292 F. at 458. Thus, in saying that “[t]he term ‘likely to become a public charge’ is
not associated with paupers or professional beggars, idiots, and certified physical and mental defectives,” id. at
457, Ex parte Horn held not that the 1917 Act ousted
Gegiow’s view regarding the severity and duration of
the economic circumstances that could result in an alien
being deemed a public charge; rather, it held that the
1917 Act expanded the meaning of “public charge” to include persons who would be totally dependent on the
government for noneconomic reasons like imprisonment. See id. at 458 (“When he was convicted he became a public charge, and a tax, duty, and trust was imposed upon the government by his conduct; and at the
time of his entry he was likely to become a public charge
by reason of the crime which he had committed.”) (internal quotation marks omitted). Ex parte Horn thus
faithfully implements the change that, as shown above,
DHS’s own historical authority suggests the amendment was intended to effect.

113a
DHS has three other arrows in its quiver, but none
hits its mark. The first is a 1929 treatise stating that
“public charge” means “any maintenance, or financial
assistance, rendered from public funds, or funds secured
by taxation.” Arthur Cook et al., Immigration Laws of
the United States § 285 (1929). The treatise is wrong.
It does not address Gegiow in expressing its understanding of “public charge.” And the sole authority it
cites, Ex parte Kichmiriantz, 283 F. 697 (N.D. Cal.
1922), does not support its view. Ex parte Kichmiriantz concerned an alien “committed to the Stockton
State Hospital for the insane” for dementia, who, without care, “would starve to death within a short time.”
Id. at 697-98. Thus, although Ex parte Kichmiriantz
observes that “the words ‘public charge,’ as used in the
Immigration Act, mean just what they mean ordinarily;
. . . a money charge upon, or an expense to, the public
for support and care,” id. at 698 (citation omitted), the
context in which the court made that observation shows
that it had in mind a person who was totally and likely
permanently dependent on the government for subsistence. The case therefore aligns with Cook County and
ICIRR’s understanding of the term, not DHS’s.
DHS’s second arrow consists of a mélange of nineteenth century dictionaries and state court cases addressing whether one municipality or another was responsible for providing public assistance to a particular
person under state poor laws. Doc. 73 at 29, 32-33.
Those authorities, which address the meaning of the
words “public,” “charge,” and “chargeable” and the term
“public charge,” would be material to the court’s interpretative enterprise but for one thing: The Supreme
Court told us in Gegiow what the statutory term “public

114a
charge” meant in that era. The federal judiciary is hierarchical, so in deciding here whether the Final Rule
faithfully implements the statutory “public charge” provision, this court must adhere to the Supreme Court’s
understanding of the term regardless of what nineteenth century dictionaries and state court cases might
have said. See Shields v. Ill. Dep’t of Corrs., 746 F.3d
782, 792 (7th Cir. 2014); Reiser v. Residential Funding
Corp., 380 F.3d 1027, 1029 (7th Cir. 2004); Ind. Prot. &
Advocacy Servs. v. Ind. Family & Soc. Servs. Admin.,
603 F.3d 365, 393 (7th Cir. 2010) (Easterbrook, J., dissenting).
As it happens, the dictionaries and state court cases
do not advance DHS’s cause. An 1888 dictionary cited
by DHS defines “charge” as “an obligation or liability,”
but the only human example it offers of a “charge” is “a
pauper being chargeable to the parish or town.” Dictionary of Am. and English Law 196 (1888) (emphasis
added). An 1889 dictionary defines “charge” in the
context of a person as one who is “committed to another’s custody, care, concern, or management,” Century Dictionary of the English Language 929 (1889), and
an 1887 dictionary likewise defines “charge” as “[t]he
person or thing committed to the care or management
of another,” Webster’s Condensed Dictionary of the
English Language 85 (3d ed. 1887). Those definitions
are consistent with Gegiow’s understanding of “public
charge” and do nothing to support DHS’s view that the
term is broad enough to include those who temporarily
receive modest public benefits. The same holds for
state court cases from the era. See Cicero Twp. v. Falconberry, 42 N.E. 42, 44 (Ind. App. 1895) (“The mere
fact that a person may occasionally obtain assistance
from the county does not necessarily make such person

115a
a pauper or a public charge.”); City of Boston v. Capen,
61 Mass. 116, 121-22 (Mass. 1851) (holding that “public
charge” refers “not [to] merely destitute persons, who
. . . have no visible means of support,” but rather to
those who “by reason of some permanent disability, are
unable to maintain themselves” and “might become a
heavy and long continued charge to the city, town or
state”); Overseers of Princeton Twp. v. Overseers of
S. Brunswick Twp., 23 N.J.L. 169 (N.J. 1851) (repeatedly equating “paupers” with being “chargeable, or likely
to become chargeable”).
As it did with Ex parte Horn, DHS misreads the state
court cases upon which it relies. According to DHS,
Poor District of Edenburg v. Poor District of Strattanville, 5 Pa. Super. 516 (1897), held that a person who
temporarily received “some assistance” while ill was not
“chargeable to” the public solely because she was “without notice or knowledge” that her receiving the assistance would “place[] [her] on the poor book,” and not because the public assistance was temporary. Doc. 73 at
32 (quoting Edenburg, 5 Pa. Super. at 520-24, 527-28).
But it is plain that the court’s holding rested in large
part on the fact that the person had economic means and
was only temporarily on the poor rolls. See Edenburg,
5 Pa. Super. at 526 (noting that the person “had for sixteen years been an inhabitant of the borough and for
twelve years the undisputed owner by fee simple title of
unincumbered real estate, and household goods of the
value of $300 in the district,” and that she “had fully perfected her settlement by the payment of taxes for two
successive years”). DHS characterizes Inhabitants of
Guilford v. Inhabitants of Abbott, 17 Me. 335 (Me. 1840),
as holding that a person was “likely to become chargea-

116a
ble” based on his receipt of “ ‘a small amount’ of assistance” and “ ‘his age and infirmity.’ ” Doc. 73 at 33
(quoting Guilford, 17 Me. at 335-36). To be sure,
DHS’s brief quotes words that appear in the decision,
but as DHS fails to acknowledge, the court observed
that the person “for many years had no regular or stated
business, . . . was at one time so furiously mad, that
the public security required him to be confined,” had
“occasionally since that time, . . . been deranged in
mind,” and at a later time “was insane, roving in great
destitution.” Guilford, 17 Me. at 335. DHS describes
Town of Hartford v. Town of Hartland, 19 Vt. 392, 398
(Vt. 1847), as holding that a “widow and children with a
house, furniture, and a likely future income of $12/year
from the lease of a cow were nonetheless public
charges.” Doc. 73 at 32. But DHS fails to mention
the court’s explanation that the widow’s “mother
claimed to own some part of the furniture, . . . that
her brother
. . . claimed a lien upon the cow,” and
that the $12 annual lease income—which, incidentally,
was for the house, not the cow—was past due for the
preceding year with no reason to expect payment in the
future. Hartford, 19 Vt. at 394. Accordingly, contrary to DHS’s treatment of those state court cases, they
align with Gegiow’s—and Cook County and ICIRR’s—
conception of what it means to be a public charge.
DHS’s third arrow is an 1894 floor speech in which
Representative Warner, objecting to a bill to support
“industrial paupers” or “deadbeat industries”—what today might be called corporate welfare—drew a rhetorical comparison with his constituents’ view that, because
the immigration laws would bar admission of an alien
who “earn[s] half his living or three-quarters of it,” they
had “no sympathy . . . with the capitalist who offers

117a
to condescend to do business in this country provided
this country will tax itself in order to enable him to make
profits.” 26 Cong. Rec. 657 (1894) (statement of Rep.
Warner) (cited at Doc. 73 at 29).
Representative
Warner’s remarks have no value. They only obliquely
reference the immigration laws, and he had every incentive to exaggerate the harshness of immigration law to
support his opposition to the industrial assistance under
consideration.
To sum up: As DHS argues, interpretation of the
statutory term “public charge” turns on its meaning in
the late nineteenth century. The Supreme Court in
Gegiow interpreted the term in a manner consistent
with Cook County and ICIRR’s position and contrary to
DHS’s position in the Final Rule. The Immigration
Act of 1917 did not undermine Gegiow’s understanding
of the severity of the economic circumstances that would
lead an alien to be deemed a public charge. Contemporaneous dictionaries and state court cases are immaterial and, even if they were material, are consistent with
Gegiow. DHS cites no case from any era holding that
the public charge provision covers noncitizens who receive public benefits—let alone modest public benefits—
on a temporary basis. And against that statutory and
case law backdrop, Congress retained the “public charge”
language in the INA of 1952 and the IIRIRA of 1996.
See Lamar, Archer & Cofrin, LLP v. Appling, 138 S. Ct.
1752, 1762 (2018) (holding that Congress “presumptively was aware of the longstanding judicial interpretation of the phrase [included in a newly enacted statute]
and intended for it to retain its established meaning”).
It follows, based on the arguments and authorities before the court at this juncture, that Cook County and

118a
ICIRR are likely to prevail on the merits of their challenge to the Final Rule.
II.

Adequacy of Legal Remedies and Irreparable Harm

Although a party seeking a preliminary injunction
must show “more than a mere possibility of harm,” the
harm need not “actually occur before injunctive relief is
warranted” or “be certain to occur before a court may
grant relief on the merits.” Whitaker ex rel. Whitaker
v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858
F.3d 1034, 1044-45 (7th Cir. 2017). “Rather, harm is
considered irreparable if it cannot be prevented or fully
rectified by the final judgment after trial.” Ibid. (internal quotation marks omitted).
The final relief potentially available to Cook County
and ICIRR is circumscribed by the APA’s limited waiver
of sovereign immunity: it waives the sovereign immunity
of the United States only to the extent that the suit
“seek[s] relief other than money damages.” 5 U.S.C.
§ 702. Thus, if Cook County and ICIRR show that, in
the absence of a preliminary injunction, they will suffer
injury that would ordinarily be redressed by money
damages, that will suffice to show irreparable harm, as
“there is no adequate remedy at law” to rectify that injury. Turnell v. CentiMark Corp., 796 F.3d 656, 662
(7th Cir. 2015).
Cook County and ICIRR have made the required
showing. As set forth in the discussion of standing,
Cook County has shown that the Rule will cause immigrants to disenroll from, or refrain from enrolling in,
medical benefits, in turn leading them to forgo routine
treatment and rely on more costly, uncompensated emergency care from CCH. Doc. 27-1 at pp. 330-333, 335-337,

119a
¶¶ 25, 30-32, 41-50; id. at pp. 344-345, ¶¶ 19-20, 23. In
addition, because uninsured persons who forgo public
medical benefits are less likely to receive immunizations
or to seek diagnostic testing, the Rule increases the entire County’s risk of vaccine-preventable and other communicable diseases. Id. at pp. 329-330, 333, ¶¶ 20-21,
33; id. at pp. 358-359, ¶¶ 29, 32. And as also shown
above, ICIRR will have to divert resources away from
its existing programs to respond to the effects of the Final Rule. Id. at pp. 343-347, ¶¶ 16, 18, 23-31. Given
the unavailability of money damages, those injuries are
irreparable, satisfying the adequacy of legal remedies
and irreparable harm requirements of the preliminary
injunction standard.
III. Balance of Harms and Public Interest

In balancing the harms, “the court weighs the irreparable harm that the moving party would endure without the protection of the preliminary injunction against
any irreparable harm the nonmoving party would suffer
if the court were to grant the requested relief.” Valencia v. City of Springfield, 883 F.3d 959, 966 (7th Cir.
2018) (internal quotation marks omitted).
As discussed above, Cook County and ICIRR have shown that
the Final Rule is likely to impose on them both financial
and programmatic consequences for which there is no
effective remedy at law. On the other side of the balance, DHS asserts that it has “a substantial interest in
administering the national immigration system, a solely
federal prerogative, according to the expert guidance of
the responsible agencies as contained in their regulations, and that the Defendants will be harmed by an impediment to doing so.” Doc. 73 at 54. A temporary

120a
delay in implementing the Rule undoubtedly would impose some harm on DHS. But absent any explanation
of the practical consequences of the delay and whether
those consequences are irreparable, it is clear—at least
on the present record—that the balance of harms favors
Cook County and ICIRR.
As for the public interest, DHS makes no argument
beyond the public interest in its unimpeded administration of national immigration policy. Id. at 54-55. But
at the same time, “[t]here is generally no public interest
in the perpetuation of unlawful agency action.” League
of Women Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C.
Cir. 2016). Given the court’s holding that Cook County
and ICIRR are likely to succeed on the merits of their
challenge to the Final Rule, given that the balance of
harms otherwise favors preliminary relief, and bearing
in mind the public health risks to Cook County if the Final Rule were allowed to take effect, entry of a preliminary injunction satisfies the public interest.
DHS raises two other equitable points. First, it argues that an ongoing challenge to the Final Rule in the
Eastern District of Washington in which the State of Illinois is a party, and in which the court last Friday granted
a preliminary injunction, see Washington v. U.S. Dep’t
of Homeland Sec., No. 19-5210 (E.D. Wash. Oct. 11,
2019), ECF No. 162, renders this case duplicative.
Doc. 73 at 52-53. Relatedly, DHS contends that the
Eastern District of Washington’s injunction, as well as a
nationwide preliminary injunction issued last Friday by
the Southern District of New York, see New York v. U.S.
Dep’t of Homeland Sec., __ F. Supp. __, 2019 WL
5100372, at *8 (S.D.N.Y. Oct. 11, 2019), renders moot
this court’s consideration of the present motion. Doc.

121a
82. While recognizing the federal courts’ general aversion to duplicative litigation, see Serlin v. Arthur Andersen & Co., 3 F.3d 221, 223-24 (7th Cir. 1993), the court
concludes that the pendency of those other cases and the
preliminary injunction orders entered therein do not
moot the present motion or otherwise counsel against its
consideration.
Neither the parties nor this court have any power
over or knowledge of whether and, if so, when those two
preliminary injunctions will be lifted or modified. Even
a temporary lag between the lifting of both injunctions
and the entry of a preliminary injunction by this court
would entail some irreparable harm to Cook County and
ICIRR. Indeed, the federal government in other litigation earlier this year maintained, correctly, that “[t]he
possibility that [a nationwide] injunction may not persist
is sufficient reason to conclude that . . . appeal” of
an injunction entered elsewhere was “not moot.” Supplemental Brief for the Federal Appellants at 152, California v. U.S. Dep’t of Health and Human Servs., No.
19-15072 (9th Cir. May 20, 2019), ECF No. 152.
Second, DHS argues that Cook County and ICIRR’s
“[l]ack of diligence, standing alone,” is sufficient to “preclude the granting of preliminary injunctive relief.”
Doc. 73 at 53 (quoting Majorica, S.A. v. R.H. Macy, 762
F.2d 7, 8 (7th Cir. 1982)). Cook County and ICIRR’s
delay in bringing this suit relative to when the New York
and Washington suits were brought, while not trivial, is
not sufficiently severe to justify denying them equitable
relief, particularly because any delay “goes primarily to
the issue of irreparable harm,” which they have otherwise amply established. See Majorica, 762 F.2d at 8.

122a
In any event, because DHS was already preparing substantially similar briefs in the other cases challenging
the Final Rule, the effect of the delay on its ability to
contest the present motion was minimal.
Finally, DHS asks that any preliminary injunction be
limited “to Cook County and specific individual members of ICIRR.” Doc. 73 at 55. But because the record shows that ICIRR “represent[s] nearly 100 nonprofit organizations and social and health service providers throughout Illinois,” Doc. 27-1 at p. 341, ¶ 5 (emphasis added), it is appropriate for the preliminary injunction to cover the entire State.
Conclusion

The parties (to a lesser extent) and their amici (to a
greater extent) appeal to various public policy concerns
in urging the court to rule their way. To be sure, this
case has important policy implications, and the competing policy views held by parties and their amici are entitled to great respect. But let there be no mistake:
The court’s decision today rests not one bit on policy.
The decision reflects no view whatsoever of whether the
Final Rule is consistent or inconsistent with the American Dream, or whether it distorts or remains faithful
to the Emma Lazarus poem inscribed on the Statue of
Liberty. Compare New York, 2019 WL 5100372, at *8
(asserting that the Final Rule “is repugnant to the
American Dream of the opportunity for prosperity and
success through hard work and upward mobility”), with
Jason Silverstein, “Trump’s top immigration official reworks the words on the Statue of Liberty,” CBS News
(Aug. 14, 2019, 4:25 AM), http://www.cbsnews.com/news/
statue-of-liberty-poem-emma-lazarus-quote-changedtrump-immigration-official-ken-cuccinelli-after-public-

123a
charge-law (quoting the acting director of the Citizenship and Immigration Services suggesting in defense
of the Final Rule that the Lazarus poem conveys this
message: “Give me your tired and your poor who can
stand on their own two feet, and who will not become a
public charge.”). The court certainly takes no position
on whether, as DHS suggests, the Old Testament sheds
light on the historical backdrop of Congress’s enactment
of the 1882 Act. Doc. 73 at 28 (citing Deuteronomy
15:7-15:8).
Today’s decision, rather, rests exclusively on a dry
and arguably bloodless examination of the authorities
that precedent requires courts to examine—and the deployment of the legal tools that precedent requires
courts to use—when deciding whether executive action
complies with a federal statute. See SAS Inst. Inc. v.
Iancu, 138 S. Ct. 1348, 1357-58 (2018) (“Each side offers
plausible reasons why its approach might make for the
more efficient policy. But who should win that debate
isn’t our call to make. Policy arguments are properly
addressed to Congress, not this Court. It is Congress’s
job to enact policy and it is this Court’s job to follow the
policy Congress has prescribed.”). And having undertaken that examination with the appropriate legal tools,
the court holds that Cook County and ICIRR are likely
to succeed on the merits of their challenge to the Final
Rule, that the other requirements for preliminary injunctive relief are met, and that the Final Rule shall not
be implemented or enforced in the State of Illinois absent further order of court.
Oct. 14, 2019

/s/
United States District Judge

124a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

Chicago, Illinois 60604
No. 19-3169

COOK COUNTY, ILLINOIS, ET AL.,
PLAINTIFFS-APPELLEES
v.
CHAD F. WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL., DEFENDANTS-APPELLANTS
Aug. 12, 2020
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
Gary Feinerman, Judge
ORDER

ILANA D. ROVNER, DIANE P. WOOD, and AMY C. BARRETT, Circuit Judges.
Defendants-Appellants filed a petition for rehearing
en banc on July 27, 2020. No judge 1 in regular active
service has requested a vote on the petition for rehearing en banc, and all members of the original panel have
Judge Joel M. Flaum and Judge Amy J. St. Eve did not participate in the consideration of this matter.
1

125a
voted to deny panel rehearing. The petition for rehearing en banc is therefore DENIED.

126a
APPENDIX D

1.

8 U.S.C. 1182(a)(4) provides:

Inadmissible aliens
(a)

Classes of aliens ineligible for visas or admission

Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be admitted to the United States:
(4) Public charge
(A)

In general

Any alien who, in the opinion of the consular officer at the time of application for a visa, or in the
opinion of the Attorney General at the time of application for admission or adjustment of status, is
likely at any time to become a public charge is inadmissible.
(B)

Factors to be taken into account

(i) In determining whether an alien is inadmissible under this paragraph, the consular officer
or the Attorney General shall at a minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status;
and
(V)

education and skills.

127a
(ii) In addition to the factors under clause (i),
the consular officer or the Attorney General may
also consider any affidavit of support under section 1183a of this title for purposes of exclusion
under this paragraph.
(C)

Family-sponsored immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section
1151(b)(2) or 1153(a) of this title is inadmissible
under this paragraph unless—
(i)

the alien has obtained—

(I) status as a spouse or a child of a
United States citizen pursuant to clause (ii),
(iii), or (iv) of section 1154(a)(1)(A) of this title;
(II) classification pursuant to clause
(ii) or (iii) of section 1154(a)(1)(B) of this title; or
(III) classification or status as a VAWA
self-petitioner; or
(ii) the person petitioning for the alien’s
admission (and any additional sponsor required
under section 1183a(f ) of this title or any alternative sponsor permitted under paragraph
(5)(B) of such section) has executed an affidavit
of support described in section 1183a of this title with respect to such alien.
(D)

Certain employment-based immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section

128a
1153(b) of this title by virtue of a classification petition filed by a relative of the alien (or by an entity
in which such relative has a significant ownership
interest) is inadmissible under this paragraph unless such relative has executed an affidavit of support described in section 1183a of this title with
respect to such alien.
(E)

Special rule for qualified alien victims

Subparagraphs (A), (B), and (C) shall not apply
to an alien who—
(i)

is a VAWA self-petitioner;

(ii) is an applicant for, or is granted, nonimmigrant status under section 1101(a)(15)(U) of
this title; or
(iii) is a qualified alien described in section
1641(c) of this title.
2.

8 U.S.C. 1183a provides in pertinent part:

Requirements for sponsor’s affidavit of support
(a)

Enforceability
(1) Terms of affidavit

No affidavit of support may be accepted by the Attorney General or by any consular officer to establish
that an alien is not excludable as a public charge under section 1182(a)(4) of this title unless such affidavit is executed by a sponsor of the alien as a contract—

129a
(A) in which the sponsor agrees to provide
support to maintain the sponsored alien at an annual income that is not less than 125 percent of the
Federal poverty line during the period in which
the affidavit is enforceable;
(B) that is legally enforceable against the
sponsor by the sponsored alien, the Federal Government, any State (or any political subdivision of
such State), or by any other entity that provides
any means-tested public benefit (as defined in
subsection (e)1), consistent with the provisions of
this section; and
(C) in which the sponsor agrees to submit to
the jurisdiction of any Federal or State court for
the purpose of actions brought under subsection
(b)(2).
(2) Period of enforceability

An affidavit of support shall be enforceable with
respect to benefits provided for an alien before the
date the alien is naturalized as a citizen of the United
States, or, if earlier, the termination date provided
under paragraph (3).
*
(b)

*

*

*

*

Reimbursement of government expenses
(1) Request for reimbursement
(A)

1

Requirement

See Reference in Text note below.

130a
Upon notification that a sponsored alien has received any means-tested public benefit, the appropriate nongovernmental entity which provided such
benefit or the appropriate entity of the Federal
Government, a State, or any political subdivision
of a State shall request reimbursement by the
sponsor in an amount which is equal to the unreimbursed costs of such benefit.
(B)

Regulations

The Attorney General, in consultation with the
heads of other appropriate Federal agencies, shall
prescribe such regulations as may be necessary to
carry out subparagraph (A).
(2) Actions to compel reimbursement
(A)

In case of nonresponse

If within 45 days after a request for reimbursement under paragraph (1)(A), the appropriate entity has not received a response from the sponsor
indicating a willingness to commence payment an
action may be brought against the sponsor pursuant to the affidavit of support.
(B)

In case of failure to pay

If the sponsor fails to abide by the repayment
terms established by the appropriate entity, the
entity may bring an action against the sponsor
pursuant to the affidavit of support.
(C)

Limitation on actions

No cause of action may be brought under this
paragraph later than 10 years after the date on
which the sponsored alien last received any means-

131a
tested public benefit to which the affidavit of support applies.
*
3.

*

*

*

*

8 U.S.C. 1227(a)(5) provides:

Deportable aliens
(a)

Classes of deportable aliens

Any alien (including an alien crewman) in and admitted to the United States shall, upon the order of the Attorney General, be removed if the alien is within one or
more of the following classes of deportable aliens:
(5) Public charge

Any alien who, within five years after the date of
entry, has become a public charge from causes not
affirmatively shown to have arisen since entry is deportable.
4.

8 U.S.C. 1601 provides:

Statements of national policy concerning welfare and immigration

The Congress makes the following statements concerning national policy with respect to welfare and immigration:
(1) Self-sufficiency has been a basic principle of
United States immigration law since this country’s
earliest immigration statutes.
(2) It continues to be the immigration policy of
the United States that—

132a
(A) aliens within the Nation’s borders not depend on public resources to meet their needs, but
rather rely on their own capabilities and the resources of their families, their sponsors, and private organizations, and
(B) the availability of public benefits not constitute an incentive for immigration to the United
States.
(3) Despite the principle of self-sufficiency, aliens have been applying for and receiving public benefits from Federal, State, and local governments at
increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements have
proved wholly incapable of assuring that individual
aliens not burden the public benefits system.
(5) It is a compelling government interest to enact new rules for eligibility and sponsorship agreements in order to assure that aliens be self-reliant in
accordance with national immigration policy.
(6) It is a compelling government interest to remove the incentive for illegal immigration provided
by the availability of public benefits.
(7) With respect to the State authority to make
determinations concerning the eligibility of qualified
aliens for public benefits in this chapter, a State that
chooses to follow the Federal classification in determining the eligibility of such aliens for public assistance shall be considered to have chosen the least restrictive means available for achieving the compelling governmental interest of assuring that aliens be

133a
self-reliant in accordance with national immigration
policy.
5.

8 U.S.C. 1611 provides:

Aliens who are not qualified aliens ineligible for Federal
public benefits
(a)

In general

Notwithstanding any other provision of law and except as provided in subsection (b), an alien who is not a
qualified alien (as defined in section 1641 of this title) is
not eligible for any Federal public benefit (as defined in
subsection (c)).
(b)

Exceptions

(1) Subsection (a) shall not apply with respect to the
following Federal public benefits:
(A) Medical assistance under title XIX of the
Social Security Act [42 U.S.C. 1396 et seq.] (or any
successor program to such title) for care and services
that are necessary for the treatment of an emergency
medical condition (as defined in section 1903(v)(3) of
such Act [42 U.S.C. 1396b(v)(3)]) of the alien involved
and are not related to an organ transplant procedure,
if the alien involved otherwise meets the eligibility
requirements for medical assistance under the State
plan approved under such title (other than the requirement of the receipt of aid or assistance under
title IV of such Act [42 U.S.C. 601 et seq.], supplemental security income benefits under title XVI of
such Act [42 U.S.C. 1381 et seq.], or a State supplementary payment).

134a
(B) Short-term, non-cash, in-kind emergency disaster relief.
(C) Public health assistance (not including any
assistance under title XIX of the Social Security Act
[42 U.S.C. 1396 et seq.]) for immunizations with respect to immunizable diseases and for testing and
treatment of symptoms of communicable diseases
whether or not such symptoms are caused by a communicable disease.
(D) Programs, services, or assistance (such as
soup kitchens, crisis counseling and intervention, and
short-term shelter) specified by the Attorney General, in the Attorney General’s sole and unreviewable
discretion after consultation with appropriate Federal agencies and departments, which (i) deliver inkind services at the community level, including
through public or private nonprofit agencies; (ii) do
not condition the provision of assistance, the amount
of assistance provided, or the cost of assistance provided on the individual recipient’s income or resources;
and (iii) are necessary for the protection of life or
safety.
(E) Programs for housing or community development assistance or financial assistance administered by the Secretary of Housing and Urban Development, any program under title V of the Housing
Act of 1949 [42 U.S.C. 1471 et seq.], or any assistance
under section 1926c of title 7, to the extent that the
alien is receiving such a benefit on August 22, 1996.
(2) Subsection (a) shall not apply to any benefit payable under title II of the Social Security Act [42 U.S.C.
401 et seq.] to an alien who is lawfully present in the

135a
United States as determined by the Attorney General,
to any benefit if nonpayment of such benefit would contravene an international agreement described in section
233 of the Social Security Act [42 U.S.C. 433], to any
benefit if nonpayment would be contrary to section
202(t) of the Social Security Act [42 U.S.C. 402(t)], or to
any benefit payable under title II of the Social Security
Act to which entitlement is based on an application filed
in or before August 1996.
(3) Subsection (a) shall not apply to any benefit payable under title XVIII of the Social Security Act
[42 U.S.C. 1395 et seq.] (relating to the medicare program) to an alien who is lawfully present in the United
States as determined by the Attorney General and, with
respect to benefits payable under part A of such title
[42 U.S.C. 1395c et seq.], who was authorized to be employed with respect to any wages attributable to employment which are counted for purposes of eligibility
for such benefits.
(4) Subsection (a) shall not apply to any benefit payable under the Railroad Retirement Act of 1974
[45 U.S.C. 231 et seq.] or the Railroad Unemployment
Insurance Act [45 U.S.C. 351 et seq.] to an alien who is
lawfully present in the United States as determined by
the Attorney General or to an alien residing outside the
United States.
(5) Subsection (a) shall not apply to eligibility for
benefits for the program defined in section 1612(a)(3)(A)
of this title (relating to the supplemental security income program), or to eligibility for benefits under any
other program that is based on eligibility for benefits
under the program so defined, for an alien who was receiving such benefits on August 22, 1996.

136a
(c)

“Federal public benefit” defined

(1) Except as provided in paragraph (2), for purposes of this chapter the term “Federal public benefit”
means—
(A) any grant, contract, loan, professional license, or commercial license provided by an agency
of the United States or by appropriated funds of the
United States; and
(B) any retirement, welfare, health, disability,
public or assisted housing, postsecondary education,
food assistance, unemployment benefit, or any other
similar benefit for which payments or assistance are
provided to an individual, household, or family eligibility unit by an agency of the United States or by
appropriated funds of the United States.
(2) Such term shall not apply—
(A) to any contract, professional license, or commercial license for a nonimmigrant whose visa for entry is related to such employment in the United
States, or to a citizen of a freely associated state, if
section 141 of the applicable compact of free association approved in Public Law 99-239 or 99-658 (or a
successor provision) is in effect;
(B) with respect to benefits for an alien who as
a work authorized nonimmigrant or as an alien lawfully admitted for permanent residence under the
Immigration and Nationality Act [8 U.S.C. 1101
et seq.] qualified for such benefits and for whom the
United States under reciprocal treaty agreements is
required to pay benefits, as determined by the Attorney General, after consultation with the Secretary of
State; or

137a
(C) to the issuance of a professional license to,
or the renewal of a professional license by, a foreign
national not physically present in the United States.
6.

29 U.S.C. 794 provides:

Nondiscrimination under Federal grants and programs
(a)

Promulgation of rules and regulations

No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the benefits of, or be subjected to discrimination under any program or activity receiving Federal financial assistance
or under any program or activity conducted by any Executive agency or by the United States Postal Service.
The head of each such agency shall promulgate such
regulations as may be necessary to carry out the amendments to this section made by the Rehabilitation, Comprehensive Services, and Developmental Disabilities
Act of 1978. Copies of any proposed regulation shall be
submitted to appropriate authorizing committees of the
Congress, and such regulation may take effect no earlier
than the thirtieth day after the date on which such regulation is so submitted to such committees.
(b)

“Program or activity” defined

For the purposes of this section, the term “program
or activity” means all of the operations of—
(1)(A) a department, agency, special purpose district, or other instrumentality of a State or of a local
government; or

138a
(B) the entity of such State or local government
that distributes such assistance and each such department or agency (and each other State or local government entity) to which the assistance is extended, in
the case of assistance to a State or local government;
(2)(A) a college, university, or other postsecondary institution, or a public system of higher education; or
(B) a local educational agency (as defined in section 7801 of title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other
private organization, or an entire sole proprietorship—
(i) if assistance is extended to such corporation, partnership, private organization, or sole proprietorship as a whole; or
(ii) which is principally engaged in the business of providing education, health care, housing,
social services, or parks and recreation; or
(B) the entire plant or other comparable, geographically separate facility to which Federal financial assistance is extended, in the case of any other
corporation, partnership, private organization, or sole
proprietorship; or
(4) any other entity which is established by two
or more of the entities described in paragraph (1), (2),
or (3);
any part of which is extended Federal financial assistance.

139a
(c)

Significant structural alterations by small providers

Small providers are not required by subsection (a) to
make significant structural alterations to their existing
facilities for the purpose of assuring program accessibility, if alternative means of providing the services are
available. The terms used in this subsection shall be
construed with reference to the regulations existing on
March 22, 1988.
(d)

Standards used in determining violation of section

The standards used to determine whether this section has been violated in a complaint alleging employment discrimination under this section shall be the
standards applied under title I of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12111 et seq.) and the
provisions of sections 501 through 504, and 510,1 of the
Americans with Disabilities Act of 1990 (42 U.S.C.
12201-12204 and 12210), as such sections relate to employment.

1

See References in Text note below.

